No. ______
IN THE

Supreme Court of the United States
DEVON DRIVE LIONVILLE, LP, et al.,
Petitioners,
v.
PARKE BANK, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
PETITION FOR A WRIT OF CERTIORARI

ROBERT TOLAND II
Counsel of Record
KEVIN F. BERRY
O’HAGAN MEYER LLP
Two Logan Square
100 N. 18th Street, Suite 700
Philadelphia, PA 19103
215-569-2400
rtoland@ohaganmeyer.com
Attorneys for Petitioners
January 16, 2020
WILSON – EPES PRINTING CO., INC. – 202-789-0096 – WASHINGTON, D.C. 20002

QUESTION PRESENTED
Petitioners in this case allege that their bank
defrauded them out of millions of dollars and
committing numerous predicate acts of mail and
wire fraud to the FDIC, which the bank did to protect
itself from suffering the consequences of having its
criminal enterprise discovered. The Third Circuit
held that Petitioners were too far removed for
purposes of proximate cause to recover against the
bank under RICO. The question presented is:
What standards and criteria are appropriate in a
civil RICO case to determine whether proximate
cause exists for a plaintiff who is not the direct
recipient of the mail or wire fraud, and therefore is
not within the “first step” of the chain causation?

i

LIST OF PARTIES
Petitioners are Devon Drive Lionville, LP
(Lionville), North Charlotte Road Pottstown, LP
(Pottstown), Main Street Peckville, LP (Peckville),
and George Spaeder, four of the Plaintiffs below.
Respondents are Parke Bank, Vito S. Pantilione,
and Ralph Gallo, three of the Defendants below.
Pursuant to Rule 12.6, parties below that have no
interest in the outcome of this Petition are: (1) for
plaintiffs: Rhoads Avenue Newtown Square, LP, VG
West Chester Pike, LP, 1301 Phoenix, LP, and John
M. Shea; and (2) for defendants: Parke Bancorp, Inc.
RULE 29.6 CORPORATE DISCLOSURE
Three of the Petitioners are limited partnerships.
None of the limited partnerships is a corporate entity,
none of their limited or general partners is a corporate
entity, and none of the limited partnerships or their
limited and general partners is or is owned by a
publicly traded entity.

ii

TABLE OF CONTENTS
Page
QUESTION PRESENTED .........................................i
LIST OF PARTIES ................................................... ii
RULE 29.6 CORPORATE DISCLOSURE ............... ii
TABLE OF AUTHORITIES .....................................vi
OPINIONS BELOW .................................................. 1
JURISDICTION ........................................................ 2
STATUTORY PROVISIONS INVOLVED ................ 2
STATEMENT OF THE CASE .................................. 2
A. The Facts Underlying This Case .................... 2
B. The District Court’s Decisions ........................ 3
C. The Third Circuit’s Decision........................... 4
REASONS FOR GRANTING THE PETITION ........ 6
I. TEN CIRCUITS ARE SPLIT ON PROXIMATE
CAUSE WHEN A PLAINTIFF IS NOT IN THE
FIRST STEP OF THE CAUSAL CHAIN ........................ 7
A. This Court’s Decisions in Holmes, Anza,
Bridge, and Hemi ............................................ 7
1. Holmes v. Securities Investor
Protection Corp. ......................................... 8
2. Anza v. Ideal Steel Supply......................... 9
iii

Page
3. Bridge v. Phoenix Bond & Indemnity ..... 10
4. Hemi Group v. City of New York ............. 12
5. The Guiding Principles from This
Court on Proximate Cause ...................... 13
B. The Circuits Are Split on When a
Plaintiff Beyond the First Step Can
Recover .......................................................... 15
1. The First-Step Circuits: The Third,
Second, Fourth, and Eleventh
Circuits..................................................... 15
2. The Intended-Victim Circuits: The
First, Seventh, and Tenth Circuits ......... 20
3. The Foreseeable-Harm Circuits: The
Fifth and Sixth (No. 1) Circuits .............. 22
4. The Factors / Considerations Circuits:
The Sixth (No. 2) and Ninth Circuits ..... 24
II. FIVE CIRCUITS ARE ALSO SPLIT ON PROXIMATE
CAUSE IN PHARMACEUTICAL RICO CASES ........... 27
A. Proximate Cause Exists:
The First and Third Circuits ........................ 28
B. Proximate Cause Does Not Exist:
The Second and Seventh Circuits ................ 30
CONCLUSION ........................................................ 31

iv

Page
APPENDIX A
Opinion of the U.S. Court of Appeals for
the Third Circuit (Oct. 22, 2019) ...................... 1a
Memorandum Opinion of the U.S. District
Court for the Eastern District of
Pennsylvania (Nov. 27, 2017) .......................... 14a
Order of the U.S. District Court for the
Eastern District of Pennsylvania
(Nov. 27, 2017) .................................................. 74a
Memorandum Opinion of the U.S. District
Court for the Eastern District of
Pennsylvania (July 26, 2018)........................... 76a
Order of the U.S. District Court for the
Eastern District of Pennsylvania
(July 26, 2018) ................................................ 105a
APPENDIX B
18 U.S.C. § 1341 ............................................. 107a
18 U.S.C. § 1343 ............................................. 108a
18 U.S.C. § 1962 ............................................. 108a
18 U.S.C. § 1964 ............................................. 110a

v

TABLE OF AUTHORITIES
Cases

Page

Allstate Ins. Co. v. Plambeck,
802 F.3d 665 (5th Cir. 2015) ............................... 23
Anza v. Ideal Steel Supply Corp.,
547 U.S. 451 (2006) .................................... passim
In re Avandia Mktg., Sales Practices Litig.,
804 F.3d 633 (3d Cir. 2015).......................... 29, 30
BCS Servs., Inc. v. Heartwood 88, LLC,
637 F.3d 750 (7th Cir. 2011) ......................... 20-21
BCCI Holdings (Luxembourg), S.A. v. Khalil,
214 F.3d 168 (D.C. Cir. 2000) ............................ 22
Biggs v. Eaglewood Mortg., LLC,
353 F. App’x 864 (4th Cir. 2009) ......................... 18
Bridge v. Phoenix Bond & Indem. Co.,
553 U.S. 639 (2008) .................................... passim
Brown v. Cassens Transp. Co.,
546 F.3d 347 (6th Cir. 2008) ............................... 24
In re Celexa & Lexapro Mktg. & Sales Litig.,
915 F.3d 1 (1st Cir. 2019).................................... 20
CGC Holding Co. v. Broad & Cassel,
773 F.3d 1076 (10th Cir. 2014) ..................... 21-22
City of Miami v. Wells Fargo & Co.,
923 F.3d 1260 (11th Cir. 2019) ........................... 19
In re ClassicStar Mare Lease Litig.,
727 F.3d 473 (6th Cir. 2013) ......................... 23-24

vi

Page
D’Addario v. D’Addario,
901 F.3d 80 (2d Cir. 2018).................................. 17
Empire Merchs., LLC v. Reliable Churchill, LLLP,
902 F.3d 132 (2d Cir. 2018)................................ 17
Empress Casino Joliet Corp. v. Johnston,
763 F.3d 723 (7th Cir. 2014) ............................... 21
Feldman v. Am. Dawn, Inc.,
849 F.3d 1333 (11th Cir. 2017) ........................... 19
Fields v. Twitter, Inc.,
881 F.3d 739 (9th Cir. 2018) ............................... 26
Gomez v. Bank of Am., N.A.,
642 F. App’x 670 (9th Cir. 2016) ......................... 26
Harmoni Int’l Spice, Inc. v. Hume,
914 F.3d 648 (9th Cir. 2019) ......................... 25-26
Hemi Grp., LLC v. City of New York,
559 U.S. 1 (2010) ........................................ passim
Holmes v. Sec. Inv’r Prot. Corp.,
503 U.S. 258 (1992) .................................... passim
Knit With v. Knitting Fever, Inc.,
625 F. App’x 27 (3d Cir. 2015) ........................... 17
Lexmark Int’l, Inc. v. Static Control Components,
572 U.S. 118 (2014) ............................................ 14
In re Neurontin Mktg. & Sales Practices Litig.,
712 F.3d 21 (1st Cir. 2013)............................ 28-29
Painters & Allied Trades v. Takeda Pharm. Co.,
943 F.3d 1243 (9th Cir. 2019) ....................... 27-28

vii

Page
Ray v. Spirit Airlines, Inc.,
836 F.3d 1340 (11th Cir. 2016) ........................... 19
Safe Streets All. v. Hickenlooper,
859 F.3d 865 (10th Cir. 2017) ......................6-7, 22
Sidney Hillman Health Ctr. v. Abbott Labs.,
873 F.3d 574 (7th Cir. 2017) ............................... 30
Simpson v. Sanderson Farms, Inc.,
744 F.3d 702 (11th Cir. 2014) ............................. 19
Slay’s Restor., LLC v. Wright Nat’l Flood Ins. Co.,
884 F.3d 489 (4th Cir. 2018) ............................... 18
Torres v. S.G.E. Mgmt., LLC,
838 F.3d 629 (5th Cir. 2016) (en banc) ............... 23
UFCW Local 1776 v. Eli Lilly & Co.,
620 F.3d 121 (2d Cir. 2010)................................ 30
Wallace v. Midwest Fin. Mortg. Servs., Inc.,
714 F.3d 414 (6th Cir. 2013) ................................. 6
Waste Mgmt. of La., LLC v. River Birch, Inc.,
920 F.3d 958 (5th Cir. 2019) ......................... 22-23
Statutes
15 U.S.C. § 15 ............................................................ 8
15 U.S.C. § 1125(a) .................................................. 14
18 U.S.C. § 1341................................................. 2, 3, 7
18 U.S.C. § 1343................................................. 2, 3, 7
18 U.S.C. §§ 1961-1968.............................................. 2
18 U.S.C. § 1961(1) .................................................... 7

viii

Page
18 U.S.C. § 1962(c)..................................................... 7
18 U.S.C. § 1964(c)....................................... 3, 7, 8, 14
18 U.S.C. § 2333(a) .................................................. 26
21 U.S.C. §§ 801-904................................................ 22
28 U.S.C. § 1254(1) .................................................... 2
28 U.S.C. § 1331......................................................... 3
Other Authorities
Note, Say Hello to My Little Friend Civil RICO:
The Third Circuit Green Lights Insurance
Shakedown of Big Pharma with In re Avandia,
61 VILL. L. REV. 625 (2016)...................................... 30

ix

IN THE

Supreme Court of the United States
DEVON DRIVE LIONVILLE, LP, et al.,
Petitioners,
v.
PARKE BANK, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
PETITION FOR A WRIT OF CERTIORARI

Petitioners respectfully petition for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Third Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals (App. 1a-13a) is
unpublished. ___ F. App’x ___. The district court’s
opinions (App. 14a-73a, 76a-104a) are not reported. 1

1 The district court’s first opinion is not included in the
Appendix because it has no bearing on the issue presented for
review. 2016 WL 7475816 (E.D. Pa. Dec. 29, 2016).

2
JURISDICTION
The judgment of the court of appeals was entered
on October 22, 2019. This Court has jurisdiction
pursuant to 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Sections 1341 and 1343 of Title 18 of the U.S. Code
on mail and wire fraud, 18 U.S.C. §§ 1341 & 1343, and
§§ 1962 and 1964 of the Racketeer Influenced and
Corrupt Organizations Act (RICO), 18 U.S.C. §§ 19611968, are set out in Appendix B at App. 107a-111a.
STATEMENT OF THE CASE
A. The Facts Underlying This Case
Petitioner George Spaeder formed a real estate
investment business with Bruce Earle in 2003. They
formed limited partnerships (LPs) with other
investors to borrow money and acquire commercial
real estate, hold title to the properties, and run the
operations. The loans for the properties totaled $24.9
million and were through Parke Bank, a relatively
small New Jersey bank. The LPs’ accounts were also
with Parke Bank.
The ownership interests in all the LPs were
different, meaning that the LPs’ loans, obligations,
and accounts were all held by different individuals
and limited liability companies. As a result, the funds
from one account at Parke Bank could not be moved to
another account, at least not without the express
authorization from the relevant LPs. In banking
terms, the accounts were not cross-collateralized.
But Parke Bank chose to manage the accounts on
its own terms, regardless of what the Federal Deposit
Insurance Corporation (FDIC) and other regulators

3
required—it transferred funds between the non-crosscollateralized accounts, it charged mysterious
$99,999.99 late fees, it fraudulently represented the
collateralization of the loans, and it engaged in a host
of other fraudulent acts to deceive Petitioners, the
FDIC, and other federal regulators.
Parke Bank used two schemes to carry out its
racketeering activities.
First, it enlisted as a
coconspirator Bruce Earle, Spaeder’s business partner
who handled the finances and paperwork while
Spaeder managed the properties. Second, it falsified
and manipulated the paperwork that was filed with
the FDIC and other regulators to make it appear that
the loans were fully collateralized and performing
properly. By that, Parke Bank had Earle operating on
the inside of the business enterprise to help carry out
its criminal enterprise, while making the fraudulent
paper record to the FDIC on the outside to avoid
getting caught.
Ultimately, Parke Bank prevailed and acquired
one of the properties (Pottstown) through a confession
of judgment action and secured judgments against the
others due to the loans going into default.
B. The District Court’s Decisions
Petitioners filed suit in the Eastern District of
Pennsylvania after discovering what had taken place.
Federal question jurisdiction under 28 U.S.C. § 1331
was based on the claims under § 1964(c) of RICO. The
underlying predicate RICO acts included mail and
wire fraud under 18 U.S.C. §§ 1341 & 1343. Respondents moved to dismiss and the district court dismissed
most of the claims without prejudice.
Petitioners filed an Amended Complaint, Respondents moved to dismiss, and the district court dis-

4
missed Pottstown and Peckville’s claims with
prejudice and dismissed Lionville and Spaeder’s
claims without prejudice. App. 75a.
Petitioners Lionville and Spaeder filed a Second
Amended Complaint, Respondents moved to dismiss,
and the district court dismissed Lionville and
Spaeder’s claims with prejudice. App. 105a.
The district court dismissed Petitioners’ claims on
different substantive grounds.
With respect to
Pottstown and Peckville, the court held in its second
opinion that their claims were barred by res judicata
because they could have asserted them in state court
confession of judgment actions brought by Parke
Bank. App. 59a-60a. As to Lionville and Spaeder, the
court held in its third opinion that they lacked
standing to pursue their RICO claims because they
failed to allege any first- or third-party reliance on
Parke Bank’s mail and wire fraud. App. 85a-91a.
C. The Third Circuit’s Decision
The Third Circuit affirmed, albeit on different
grounds. At the outset, and despite the fact that the
case had not gotten beyond the allegations in the
complaints, the court found that the Petitioners were
just as crooked and corrupt as the Respondents,
essentially making a finding of in pari delicto:
Those who agree to deceive the government
may find themselves deceived. The parties here
were in real estate together. Their business
relationship was, to put it mildly, complicated.
They cheated and lied to one another. But they
were all in cahoots, signing sham agreements to
evade regulatory scrutiny.
App. 2a.

5
With respect to the Petitioners’ claims, the court
found that they had in fact alleged third-party
reliance—that the FDIC relied on Parke Bank’s mail
and wire fraud. But the court held that such thirdparty reliance was far too removed to be the proximate
cause of the Petitioners’ damages because the direct
victim of the mail and wire fraud was the FDIC, not
the Petitioners. The court also concluded that the
regulators were intervening actors who broke the
chain of causation as a matter of law:
Under their [Petitioners’] theory, the direct
victims are the regulators, not appellants. And
the regulators are also intervening actors who
break the chain of causation.
The Supreme Court has rejected similarly
remote theories of proximate causation.
Consider these two scenarios: First, a party
defrauds a tax authority and uses the proceeds
to lower its prices and undercut its competitors.
Anza [v. Ideal Steel Supply Corp.], 547 U.S.
[451] at 457-58 [(2006)]. Second, a party
defrauds a state government by not reporting
some sales information, and without this
information a city government cannot track
down the people who never paid taxes on those
sales. Hermi [sic] Grp., LLC v. City of N.Y., 559
U.S. 1, 9 (2010). In both scenarios, the harm is
separate from the fraud. The fraud was
perpetrated on the tax authority and state
government.
But the harm alleged was
suffered by different parties: competitors and
city government. So in both scenarios, those
harms are too attenuated and distant from the
reliance to show proximate causation. Anza,

6
547 U.S. at 458-59; Hermi [sic], 559 U.S. at 10.
So too here.
App. 12a. 2
REASONS FOR GRANTING THE PETITION
This Court has addressed the scope of proximate
cause in a civil RICO case in four opinions: Holmes v.
Securities Investor Protection Corp., 503 U.S. 258
(1992), Anza v. Ideal Steel Supply Corp., 547 U.S. 451
(2006), Bridge v. Phoenix Bond & Indemnity Co., 553
U.S. 639 (2008), and Hemi Group, LLC v. City of New
York, 559 U.S. 1 (2010). Certain guiding principles
can be drawn from these opinions, even though
proximate cause is “generally not amenable to brightline rules.” Bridge, 553 U.S. at 659.
Instead of accepting and working with these
guiding principles, the courts of appeals have developed four distinct analytical frameworks to determine
when, or if, a plaintiff beyond the “first step” in the
chain of causation can recover under RICO. Although
that alone warrants the issuance of a writ of
certiorari, the divide among the circuits promotes
forum shopping given that RICO conspiracies often
span beyond a single circuit.
The circuits are also asking for guidance on this
issue.
See, e.g., Wallace v. Midwest Financial
Mortgage Services, Inc., 714 F.3d 414, 419 (6th Cir.
2013) (“Despite its flexibility, the proximate-cause
requirement tends to invite confusion in cases
involving mail and wire fraud as the predicate acts.”);
Safe Streets Alliance v. Hickenlooper, 859 F.3d 865,
914 (10th Cir. 2017) (Hartz, J., concurring) (joining the
2 Judge Jordan would have affirmed with respect to Pottstown
and Peckville based on res judicata. App. 10a, dagger-note.

7
majority’s RICO analysis, but explaining that “[i]t is
my hope, however, that the Supreme Court will one
day cast aside the confusing and discredited notion of
proximate cause.”).
As explained below, the Third Circuit in this case
restricted recovery under RICO to only the direct
recipients of the mail or wire fraud, as have the
Second, Fourth, and Eleventh Circuits. The court’s
holding is directly contrary to this Court’s unanimous
decision in Bridge, as well as the holdings of six other
circuits, and needs to be corrected.

I. TEN CIRCUITS ARE SPLIT ON PROXIMATE
CAUSE WHEN A PLAINTIFF IS NOT IN THE FIRST
STEP OF THE CAUSAL CHAIN
A. This Court’s Decisions in Holmes, Anza,
Bridge, and Hemi
Section 1964(c) of RICO provides a private right of
action for “[a]ny person injured in his business or
property by reason of a violation of section 1962 of this
chapter . . . .” 18 U.S.C. § 1964(c), App. 110a. Section
1962(c) makes it unlawful to associate with an
enterprise engaged in a pattern of racketeering
activity. App. 109a. Racketeering activity is defined
in § 1961(1) to include a variety of predicate acts,
including mail and wire fraud under 18 U.S.C. §§ 1341
& 1343. App. 107a-108a.
The proof required to establish “by reason of” in §
1964(c) has been construed differently by different
courts. The starting point for determining whether
the circuits have gone astray is this Court’s opinions.

8
1. Holmes v. Securities Investor Protection
The Court in Holmes, held that the words by reason
of in § 1964(c) incorporated the common law
requirement of proximate cause into a civil RICO case.
The Court drew from its construction of § 4 of the
Clayton Act, 15 U.S.C. § 15, and held that § 1964(c)
requires a plaintiff to show “that the defendant’s
violation not only was a ‘but for’ cause of his injury,
but was the proximate cause as well.” 503 U.S. at 268.
The Court held that one of the dimensions of
proximate cause at common law is “a demand for some
direct relation between the injury asserted and the
injurious conduct alleged.” 503 U.S. at 268. This
“direct-relation” requirement was driven by three
considerations: (1) the difficulty in apportioning
damages between causes when the causal link is more
remote; (2) the difficulty in apportioning damages
among different potential plaintiffs; and (3) the fact
that the more directly injured victims can better serve
as private attorneys general. 503 U.S. at 269-70.
The plaintiff in Holmes was the Securities Investor
Protection Corporation (SIPC), which insured brokerdealers. Holmes had allegedly manipulated stock
prices, which caused the broker-dealers to be unable
to meet their customers’ obligations and resulted in
SIPC having to pay the broker-dealers’ customers
nearly $13 million.
This Court found that the connection was too
remote to establish proximate cause. Among other
things, the Court found that “those directly injured,
the broker-dealers, could be counted on to bring suit
for the law’s vindication.” 503 U.S. at 273.

9

$13 Million

Plaintiff
SIPC
SIPC

Too Remote

Defendant
Holmes

Insured

BrokerDealers

Customers

2. Anza v. Ideal Steel Supply
Ideal Steel Supply and National Steel Supply were
competitors and operated stores in Queens and the
Bronx. National failed to pay state tax on cash sales,
which allowed it to underprice Ideal and use the
additional proceeds to open its store in the Bronx.
Ideal filed suit asserting claims under RICO based on
predicate acts of mail and wire fraud.
This Court held that proximate cause could not be
established because “[t]he direct victim of this conduct
was the State of New York, not Ideal.” 547 U.S. at
458. Drawing on the reasoning in Holmes, the Court
held that the “requirement of a direct causal
connection is especially warranted where the immediate victims of an alleged RICO violation [the NY
Department of Taxation and Finance] can be expected
to vindicate the laws by pursuing their own claims.”
Id. at 460.

10
Plaintiff
Ideal

Too Remote

Defendant
National

NY Dep’t
Tax’n & Fin.

3. Bridge v. Phoenix Bond & Indemnity
The plaintiffs and defendants in Bridge bid on tax
liens at auctions in Cook County, Illinois. A rule was
developed to prevent competitors from having
multiple bidders at the auctions to prevent them from
securing a disproportionate number of awards when
bidding hit the floor of a 0% penalty, at which point
the liens were awarded on a rotational basis. The
defendants fraudulently represented that they were
compliant with the rule and secured a disproportionate number of liens during the auctions. Plaintiffs
asserted claims under RICO, alleging that the
defendants had engaged in mail fraud.
This Court rejected the proposition that first-party
reliance is an element of a RICO claim: “a person can
be injured ‘by reason of ’ a pattern of mail fraud even
if he has not relied on any misrepresentations.” 553
U.S. at 649. The Court held that, although a RICO
plaintiff may have to establish third-party reliance to
prove causation, “‘the fact that proof of reliance is
often used to prove an element of the plaintiff ’s cause
of action, such as the element of causation, does not
transform reliance itself into an element of the cause
of action.’” Id. at 659 (quoting Anza, 547 U.S. at 478
(Thomas, J., concurring in part and dissenting in
part)).

11
In terms of the direct-relation requirement in
Holmes, the Court held that it was satisfied because
the harm was the direct result of the mail fraud and
was the foreseeable and natural consequence of the
scheme:
Nor is first-party reliance necessary to
ensure that there is a sufficiently direct
relationship between the defendant’s wrongful
conduct and the plaintiff ’s injury to satisfy the
proximate-cause principles articulated in
Holmes and Anza. Again, this is a case in point.
Respondents’ alleged injury—the loss of valuable liens—is the direct result of petitioners’
fraud. It was a foreseeable and natural consequence of petitioners’ scheme . . . .
553 U.S. at 657-58. The Court further noted that “no
more immediate victim is better situated to sue” and
that “respondents and other losing bidders [as
opposed to Cook County] were the only parties injured
by petitioners’ misrepresentations.” Id. at 658.
This changed the landscape of civil RICO claims
because it: (1) established that reliance is not an
element of a civil RICO claim, and (2) recognized that
proximate cause extends beyond the first step in the
causal chain and is not limited to the only the
recipient of the mail or wire fraud:
Plaintiff
Phoenix

Direct Result

Cook
County

Defendant
Bridge

12
4. Hemi Group v. City of New York
Hemi Group sells cigarettes online to residents of
New York City, which taxes its residents on the sale.
Hemi did not report its sales to New York State, which
therefore could not pass that information along to the
City to collect taxes from its residents. The City filed
suit against Hemi asserting civil RICO claims based
on mail and wire fraud for failing to file its sales data
with the State.
A plurality of the Court held that proximate cause
was lacking for the same reasons in Anza: “Thus, as in
Anza, the conduct directly causing the harm was
distinct from the conduct giving rise to the fraud.” 559
U.S. at 11. The Court held that proximate cause, like
damages, generally does not go beyond the first step—
those in a direct relationship with the tortfeasors. Id.
at 10.
In terms of the direct-relation requirement, the
Court observed that “[t]he State certainly is better
situated than the City to seek recovery from Hemi.”
559 U.S. at 12.

Plaintiff
NY City

Too Remote

Defendant
Hemi

Nothing
to Report
NY State

Cigarette
Purchaser

13
Chief Justice Roberts wrote the opinion of the
Court in which Justices Scalia, Thomas, and Alito
joined. Justice Ginsburg concurred in part and concurred in the judgment, but wrote separately
“[w]ithout subscribing to the broader range of the
Court’s proximate cause analysis.” 559 U.S. at 19.
Justice Sotomayor did not participate.
Justice Breyer, with Justices Stevens and
Kennedy, dissented. The dissent addressed the facts
of the case, the majority’s reasoning, and the decisions
in Holmes, Anza, and Bridge. The dissent found that
“[t]he upshot is that the harm is foreseeable; it is a
consequence that Hemi intended, indeed desired; and
it falls well within the set of risks that Congress
sought to prevent [by RICO].” 559 U.S. at 24.
5. The Guiding Principles from This
Court on Proximate Cause
“Holmes’ instruction [is] that proximate cause is
generally not amenable to bright-line rules.” Bridge,
553 U.S. at 659; see also id. at 654 (proximate cause
“is a flexible concept that does not lend itself to a
black-letter rule that will dictate the result in every
case.” (internal quotations omitted)). Nevertheless,
certain guiding principles can be drawn from this
Court’s opinions on proximate cause in a RICO case:
1. A plaintiff is not required to plead reliance
when the predicate acts are mail or wire fraud;
2. As a result, RICO does not require a direct
relation between the perpetrator and the
victim;
3. Instead, proximate cause in a RICO case only
requires a direct relation between the wrongful
acts and the resulting harm;

14
4. Although this direct-relation requirement often
limits recovery to those within the first step of
the causal chain—i.e., when the plaintiff is the
direct recipient of the mail or wire fraud—this
is not a hard-and-fast, per se rule, e.g., Bridge 3;
5. Rather, those beyond the first step in the causal
chain can recover under § 1964(c) if:
a. Their injuries are the direct result of the
fraud, meaning they were the foreseeable
and intended victims of the fraudulent
scheme; and
b. Those in the first step of the causal chain
lack the motive or interest in pursuing
claims against the perpetrators as private
attorneys general.
The circuits are generally not in conflict on the first
three principles. But on the fourth and fifth, a split
has developed on what requirements allow a plaintiff
beyond the first step in the causal chain to recover
under RICO, if at all. The Third Circuit’s decision in
this case demonstrates that it, like the Second,
Fourth, and Eleventh Circuits, believes a plaintiff who
is not the direct recipient of the mail or wire fraud
cannot recover under RICO. Such a legal proposition
is incorrect and directly contrary to this Court’s
decisions.
3 See also Lexmark Int’l, Inc. v. Static Control Components,
Inc., 572 U.S. 118, 133 (2014) (noting that an “intervening step
of consumer deception is not fatal to the showing of proximate
causation” under § 43(a) of the Lanham Act, 15 U.S.C. § 1125(a),
based on “our recognition [in Bridge] that under common-law
principles, a plaintiff can be directly injured by a misrepresentation even where ‘a third party, and not the plaintiff, . . .
relied on’ it.” (quoting Bridge, 553 U.S. at 656)).

15
B. The Circuits Are Split on When a Plaintiff
Beyond the First Step Can Recover
1. The First-Step Circuits: The Third,
Second, Fourth, and Eleventh Circuits
The Third Circuit in This Case
Relying on this Court’s decisions in Anza and
Hemi, the Third Circuit held that the relationship
between Parke Bank and the Petitioners was too
remote for proximate causation to exist as a matter of
law. The district court had dismissed the claims by
Lionville and Spaeder on the grounds that they had
not made allegations of any reliance, either first- or
third-party. App. 85a-91a. Petitioners explained to
the Third Circuit that this was in error, a point on
which the court appears to have agreed. The court
nevertheless affirmed, finding that proximate cause
was lacking as a matter of law:
[I]f fraud harms the plaintiff only indirectly and
other factors may have caused that harm, there
is no proximate causation. See Anza v. Ideal
Steel Supply Corp., 547 U.S. 451, 457-60 (2006).
The remaining appellants charge that the
FDIC relied on Parke Bank’s misrepresentations about the sham fees, the state of the loans,
and the legitimacy of the transactions.
Fraudulent representations to a third party,
they claim, can support RICO standing.
Not here. Under their theory, the direct
victims are the regulators, not appellants. And
the regulators are also intervening actors who
break the chain of causation.
App. 11a-12a.

16
But the facts of this case are far more compelling
for proximate cause than the facts in Bridge:
1. There was a direct relationship between
Petitioners and Respondents—through the
loans and bank accounts;
2. There was a direct relation between the fraud
and the resulting harm—the fraudulent bank
transactions were designed to steal from the
Petitioners and to protect Respondents from
being prosecuted by the FDIC; and
3. The Petitioners were in the first step of the
causal chain—because it was their money and
properties that Parke Bank was stealing:
Plaintiffs
LPs & Spaeder

Direct Relationship
Direct Result

Defendants
Parke Bank

FDIC

Like the Cook County Treasurer’s Office in Bridge,
the FDIC suffered no loss and was not the victim of
the fraud. The fraud was perpetrated by the Respondents against the FDIC in this case for self-preservation and to avoid potential criminal sanctions for what
they were doing. Neither Cook County nor the FDIC
has any motive or interest in pursuing a civil RICO
action against the perpetrators and the plaintiffs in

17
Bridge and the Petitioners in this case are the only
ones that have any “skin in the game.” 4
The Second Circuit
In Empire Merchants, LLC v. Reliable Churchill,
LLLP, 902 F.3d 132 (2d Cir. 2018), the plaintiff was
an alcohol distributor in New York. It brought civil
RICO claims against other retailers alleging that they
engaged in mail and wire fraud related to smuggling
liquor into New York, which reduced plaintiff ’s sales.
The district court dismissed plaintiff ’s claims.
The Second Circuit affirmed, holding that
proximate cause rarely goes beyond the first step in
the causal chain and that “[w]hat falls within that
‘first step’ depends in part on . . . an assessment of
what is administratively possible and convenient.”
902 F.3d at 141 (internal quotations omitted). The
Court cited two of the Holmes factors in determining
administrative difficulties. 902 F.3d at 141.
In response to one of plaintiff ’s arguments, the
court noted that “foreseeability and intention have
little to no import for RICO’s proximate cause test.”
Id. at 145; see also id. n.11 (discussing the plurality
decision in Hemi and possible split in this Court on the
relevance of intent and foreseeability). 5
See also Knit With v. Knitting Fever, Inc., 625 F. App’x 27, 34
(3d Cir. 2015) (“a RICO plaintiff who complains of harm flowing
directly from the misfortunes visited upon a third person by the
defendant’s acts may not recover under § 1964(c).” (internal
quotations omitted)).
4

5 Cf. D’Addario v. D’Addario, 901 F.3d 80, 97 (2d Cir. 2018)
(holding that proximate cause existed for plaintiff to assert RICO
claims against family members for plundering assets of their late
father’s estate because both the plaintiff and the estate were the
victims of the fraud).

18
The Fourth Circuit
In Slay’s Restoration, LLC v. Wright National
Flood Insurance Co., 884 F.3d 489 (4th Cir. 2018), an
apartment complex was damaged by flooding. The
owner hired a contractor to do repairs, which hired
Slay’s Restoration as a subcontractor. The owner
submitted claims to its carrier, which submitted them
to adjusters, which hired consultants to assess the
repairs and costs. Based on the assessment, Slay’s
was paid less than half its costs and filed suit against
the insurance company alleging mail and wire fraud
under RICO. The district court dismissed the case.
The Fourth Circuit affirmed, holding that the
injury was not the direct result of the alleged mail and
wire fraud:
[R]ather than incorporating the concept of
foreseeability or traceability of an injury to
conduct, RICO causation requires a proximity
of statutory violation and injury such that the
injury is sequentially the direct result—
generally at “the first step” in the chain of
causation.
Therefore, regardless of how
foreseeable a plaintiff ’s claimed injury might be
or even what motive underlaid the conduct that
caused the harm, the injury for which a plaintiff
may seek damages under RICO cannot be
contingent on or derivative of harm suffered by
a different party.
Slay’s, 884 F.3d at 494. 6
6 Cf. Biggs v. Eaglewood Mortg., LLC, 353 F. App’x 864, 867
(4th Cir. 2009) (“we agree with the Biggses that Bridge’s holding
eliminates the requirement that a plaintiff prove reliance in
order to prove a violation of RICO predicated on mail fraud.”).

19
The Eleventh Circuit
In Ray v. Spirit Airlines, Inc., 836 F.3d 1340 (11th
Cir. 2016), the plaintiffs filed a class action alleging
that Spirit Airlines engaged in mail and wire fraud
when it “portrayed its Passenger Usage Fee as a
government-imposed or authorized fee when, in fact,
it was merely a portion of the base fare price of an
airline ticket charged by the airline.” Id. at 1344-45.
The district court dismissed the RICO claims on
several grounds, including a lack of specificity that
included reliance.
The Eleventh Circuit affirmed, characterizing the
criteria for proximate cause as follows:
The connection between the racketeering
activity and the injury can be neither remote,
purely contingent, nor indirect. . . . Notably,
the fact that an injury is reasonably foreseeable
is not sufficient to establish proximate cause in
a RICO action—the injury must be direct.
836 F.3d at 1349. 7

7 See also Feldman v. Am. Dawn, Inc., 849 F.3d 1333, 1343
(11th Cir. 2017) (affirming the dismissal of plaintiff ’s civil RICO
claims on proximate cause grounds because the plaintiff was not
the direct target of the wire fraud); Simpson v. Sanderson Farms,
Inc., 744 F.3d 702, 712 (11th Cir. 2014) (affirming the dismissal
of plaintiffs’ civil RICO claims on proximate cause grounds
because the defendants’ wrongful conduct was not a “substantial
factor in the sequence of responsible causation.” (internal
quotations omitted)); cf. City of Miami v. Wells Fargo & Co., 923
F.3d 1260, 1276 (11th Cir. 2019) (“The essential point for us then
is that the ‘general tendency’ to stop at the first step [for
proximate cause] is just that, a general tendency, not an
inexorable rule.”).

20
2. The Intended-Victim Circuits: The
First, Seventh, and Tenth Circuits
The First Circuit
In In re Celexa & Lexapro Marketing & Sales Practices Litigation, 915 F.3d 1 (1st Cir. 2019), plaintiffs
alleged that pharmaceutical manufacturers fraudulently promoted off-label use of their antidepressant
medications for minors. Relying on Bridge, the First
Circuit held that the fact that the direct target of the
fraud was the intermediary pediatricians did not
break the chain of proximate cause on the RICO
claims:
As for proximate causation, it is of no moment
that pediatricians were the immediate target of
Forest’s fraudulent marketing. Here, as in Kaiser,
a jury could find that Painters and Ramirez were
the primary and intended victims of [Forest’s]
scheme to defraud.
Moreover, Painters’ and
Ramirez’s alleged harm (i.e., reimbursing or
purchasing more pediatric prescriptions than they
otherwise would have) was a foreseeable and
natural consequence of Forest’s scheme. Indeed, it
was precisely the point.
915 F.3d at 14 (internal quotations & citations
omitted). 8
The Seventh Circuit
On remand from Bridge, the district court again
granted summary judgment in defendants’ favor,
finding that plaintiffs “had not been injured directly;
8 The First Circuit decision in In re Celexa is relevant on the
split in the circuits in pharmaceutical cases as well, see infra.
But it likewise demonstrates how that court views the basic
limitations of proximate cause in a civil RICO case generally.

21
the causal link between the fraud and the injury was
‘tenuous.’” BCS Servs., Inc. v. Heartwood 88, LLC,
637 F.3d 750, 752 (7th Cir. 2011). The court made that
finding, despite the fact that “we [the Seventh Circuit]
and the Supreme Court [in Bridge] had held that the
plaintiffs were direct victims . . . .” Id.
The Seventh Circuit reversed. Judge Posner
undertook a detailed analysis of the various dimensions of proximate cause. He concluded that the
plaintiffs had presented sufficient evidence to create a
jury question on causation: “Once a plaintiff presents
evidence that he suffered the sort of injury that would
be the expected consequence of the defendant’s
wrongful conduct, he has done enough to withstand
summary judgment on the ground of absence of
causation.” 637 F.3d at 758. 9
The Tenth Circuit
In CGC Holding Co. v. Broad & Cassel, 773
F.3d 1076 (10th Cir. 2014), the plaintiffs brought a
class action against lenders claiming that they
conspired to secure “non-refundable up-front fees in
return for loan commitments the lenders never
intended to fulfill.” Id. at 1080. The district court
certified the class.
The Tenth Circuit rejected defendants’ argument
that plaintiffs failed to allege proximate cause:

9 See also Empress Casino Joliet Corp. v. Johnston, 763 F.3d
723, 733 (7th Cir. 2014) (question of fact presented on proximate
causation on civil RICO claim because the “object of the
conspiracy” was to have legislation passed in exchange for a bribe
and the “Casinos thus sat in the center of the target of the
conspiracy.”).

22
By alleging that the putative class members
were the “direct targets” of defendants’ fraudulent scheme (based on the alleged RICO
predicate acts), plaintiffs have adequately
established the requisite causal connection
between defendants’ act and each class
member’s financial loss.
As the natural, foreseeable, and, most
importantly, intended victims of the alleged
fraud, plaintiffs have sufficiently pleaded
proximate causation to survive a threshold
standing inquiry.
773 F.3d at 1099 (citations omitted). 10
3. The Foreseeable-Harm Circuits: The
Fifth and Sixth (No. 1) Circuits
The Fifth Circuit
In Waste Management of Louisiana, LLC v. River
Birch, Inc., 920 F.3d 958 (5th Cir. 2019), the plaintiff
filed a RICO suit against various defendants alleging
that they bribed the former Mayor of New Orleans to
shut down a landfill that had been created after
Hurricane Katrina.
The district court entered
summary judgment in defendants’ favor, finding that
even if the evidence established bribery, it was neither
the but for nor the proximate cause of the landfill
being shuttered.
See also Safe Streets Alliance v. Hickenlooper, 859 F.3d 865,
890-91 (10th Cir. 2017) (property injuries “are direct byproducts
of the location and manner in which the Marijuana Growers are
conducting their operations that purportedly violate the CSA
[Controlled Substances Act, 21 U.S.C. §§ 801-904].”); but see BCCI
Holdings (Luxembourg), S.A. v. Khalil, 214 F.3d 168, 173 (D.C. Cir. 2000)
(rejecting test for proximate cause based on whether the plaintiff was the
intended target of the RICO scheme).
10

23
The Fifth Circuit reversed, holding that a genuine
dispute existed on whether campaign contributions
were in fact bribes and whether those contributions /
bribes were the but for and proximate cause of the
landfill being closed. On the standard for proximate
causation, the court framed the test as follows:
Proximate cause . . . requires some direct
relation between the injury asserted and the
injurious conduct alleged.
When a court
evaluates a RICO claim for proximate cause,
the central question it must ask is whether the
alleged violation led directly to the plaintiff ’s
injuries. . . . This burden requires Plaintiff to
establish that its damages w[ere] a foreseeable
and natural consequence of Defendants’ action.
920 F.3d at 965 (internal quotations & footnotes
omitted). 11
The Sixth Circuit (No. 1)
The Sixth Circuit falls into two categories of the
circuit split given that different panels have taken
different approaches. In In re ClassicStar Mare Lease
Litigation, 727 F.3d 473 (6th Cir. 2013), the plaintiffs
alleged that the defendants engaged in a scheme of
mail and wire fraud whereby investors were induced
to lease mares, have them bred with stallions, receive
the foals, and receive a tax deduction for the cost of
the lease. The district court granted summary
judgment in plaintiffs’ favor.
11
See also Torres v. S.G.E. Mgmt., LLC, 838 F.3d 629, 637 (5th
Cir. 2016) (en banc) (noting that it had affirmed a verdict in a
civil RICO case where the jury was instructed that “proximate
cause was present if ‘the injury or damage was either a direct
result or a reasonably probable consequence of the act.’” (quoting
Allstate Ins. Co. v. Plambeck, 802 F.3d 665, 676 (5th Cir. 2015)).

24
The Sixth Circuit affirmed, rejecting defendants’
argument that the plaintiffs knew of and voluntarily
participated in the fraud. The court framed the
proximate causation standard as follows: “Plaintiffs
need only show that the defendants’ wrongful conduct
was a substantial and foreseeable cause of the injury
and the relationship between the wrongful conduct
and the injury is logical and not speculative.” 727 F.3d
at 487 (internal quotations omitted). 12
4. The Factors / Considerations Circuits:
The Sixth (No. 2) and Ninth Circuits
The Sixth Circuit (No. 2)
In Wallace v. Midwest Financial Mortgage
Services, Inc., 714 F.3d 414 (6th Cir. 2013), the plaintiff
refinanced his home with an adjustable-rate mortgage
(ARM). The loan was for $125,000 more than the
home’s value and the payment terms under the ARM
resulted in the plaintiff declaring bankruptcy and
surrendering his home.
The plaintiff filed suit
alleging that the defendants engaged in a fraudulent
scheme whereby the lender, mortgage broker, and
appraiser conspired to commit mail and wire fraud to
inflate the value of his home. The district court
granted summary judgment in defendants’ favor,
finding that the plaintiff could not establish proximate
cause.

12 See also Brown v. Cassens Transp. Co., 546 F.3d 347, 357
(6th Cir. 2008) (after this Court vacated the Sixth Circuit’s prior
decision and remanded for reconsideration in light of Bridge, the
court reversed the district court’s dismissal based on a lack of
proximate cause because plaintiffs alleged that “the defendants’
fraudulent acts were a ‘substantial and foreseeable cause’ of
[their] injuries . . . .”).

25
The Sixth Circuit reversed. The court read Holmes
as identifying three considerations governing proximate causation in a RICO case:
One such consideration is directness—whether
there exists some direct relation between the
injury asserted and the injurious conduct
alleged. Another such consideration is foreseeability—whether the plaintiff ’s injury was a
foreseeable consequence of the conduct alleged.
We have in some cases also considered whether
the causal connection between the injury and
the conduct is logical and not speculative.
714 F.3d at 419 (internal quotations & citation
omitted). The court found that a genuine dispute of
material fact existed under each of these “consideration tests.”
The Ninth Circuit
In Harmoni International Spice, Inc. v. Hume, 914
F.3d 648 (9th Cir. 2019), plaintiffs produced fresh
garlic in China and imported it into the United States
with a zero-duty rate. Competitors subject to duties
employed several schemes to avoid the anti-dumping
duties. Plaintiffs filed suit, asserting claims under
RICO and alleging that the competitors engaged in
mail and wire fraud to carry out their schemes. The
district court dismissed the complaint, holding that
proximate cause was too remote, among other things.
The Ninth Circuit affirmed in part and reversed in
part. The court affirmed with respect to one alleged
scheme, finding it too remote under Anza. The court
reversed with respect to the other scheme on the three
categories of damages. The court held that if Harmoni
could “prove that it lost sales as a direct result of the
defendants’ predicate acts of mail and wire fraud, the

26
proximate cause element of its RICO claim will be
satisfied.” 914 F.3d at 653. In making that analysis,
the court cited three factors to be considered on
proximate cause: (1) is there a more direct victim
better positioned to sue; (2) will there be difficulties in
apportioning damages; and (3) is there a risk of
duplicative recoveries? Id. at 652. 13
* * * * *
Based on this review, the circuit split can be
summarized as follows on when a plaintiff sitting
beyond the first step of the causal chain can establish
proximate cause in a civil RICO case:
1. The First-Step Circuits: A plaintiff beyond
the first causal step cannot recover under RICO
because the plaintiff is not the direct recipient
or victim of the mail or wire fraud—Second,
Third, Fourth, and Eleventh Circuits.
2. The Intended-Victims Circuits: A plaintiff
beyond the first causal step can recover under
RICO if the plaintiff can show that he / she / it
was the intended victim or target of the harm—
First, Seventh, and Tenth Circuits.
3. The Foreseeable-Harm Circuits: A plaintiff
beyond the first causal step can recover under
RICO if the plaintiff can establish that the
harm suffered was a foreseeable and natural
13 See also Gomez v. Bank of Am., N.A., 642 F. App’x 670, 676
(9th Cir. 2016) (affirming the dismissal of RICO claims against a
Ponzi scheme and citing the same three, non-exhaustive factors);
cf. Fields v. Twitter, Inc., 881 F.3d 739, 748 (9th Cir. 2018) (citing
RICO cases and construing the “by reason of” language in the
civil remedies provision of the Anti-Terrorism Act, 18 U.S.C. §
2333(a), to “require a showing of at least some direct relationship
between a defendant’s act and a plaintiff ’s injuries.”).

27
consequence of the fraud—Fifth and Sixth
Circuits.
4. The Factors / Considerations Circuits: A
plaintiff beyond the first causal step can recover
under RICO if certain factors or considerations
warrant a finding of proximate cause—Sixth
and Ninth Circuits.

II. FIVE CIRCUITS ARE ALSO SPLIT ON PROXIMATE
CAUSE IN PHARMACEUTICAL RICO CASES
The first-step conundrum has also split the circuits
in pharmaceutical RICO cases. The inquiry and issue
is no different than in the other RICO decisions
discussed above, it just happens to involve similar
products and similar victims standing beyond the first
step in the chain of causation.
The Ninth Circuit recently addressed the split in
Painters & Allied Trades District Council 82 Health
Care Fund v. Takeda Pharmaceuticals Co., 943 F.3d
1243, 1246 (9th Cir. 2019). Five individual patients
and a third-party payor (TPP) brought a class action
against the manufacturer of Actos, a medication to
reduce blood sugar in type 2 diabetics. Plaintiffs
alleged that the manufacturers engaged in mail and
wire fraud to conceal the risk of developing bladder
cancer from Actos and asserted claims under RICO.
The plaintiffs sought damages for the cost of
paying for Actos and that the patients, their
physicians who prescribed the medication, and the
TPPs relied on the misrepresentations about the
drug’s safety. The district court dismissed the claims,
finding that the allegations were insufficient to
establish proximate causation.

28
The Ninth Circuit reversed. The court reviewed
this Court’s decisions in Holmes, Anza, Bridge, and
Hemi, as well as the split between the First, Second,
Third, and Seventh Circuits. The court agreed with
the First and Third Circuits and held that allegations
of reliance by the prescribing physicians was not too
remote for proximate cause:
Like in Bridge, where it was sufficient to satisfy
RICO’s proximate cause requirement that the
county (a third party) had relied on the
defendants’ false attestations, here, it is
sufficient to satisfy RICO’s proximate cause
requirement that Painters Fund alleged that
prescribing physicians (also third parties, but
not intervening causes) relied on Defendants’
misrepresentations and omissions.
943 F.3d at 1260. The court noted that there were
factual and procedural distinctions between the cases
in the various circuits, but at their core the
disagreement was whether the “decisions of the
prescribing physicians and pharmacy benefit
managers constituted intervening causes that sever
the chain of proximate cause between the drug
manufacturer and TPP.” Id. at 1257.
A. Proximate Cause Exists: The First and
Third Circuits
The First Circuit in In re Neurontin Marketing &
Sales Practices Litigation, 712 F.3d 21 (1st Cir. 2013),
affirmed the jury’s verdict in plaintiffs’ favor, finding
that:
We reject Pfizer’s core defense that there are too
many steps in the causal chain between its
misrepresentations and Kaiser’s [plaintiff’s]
alleged injury to meet the proximate cause

29
“direct relation” requirement as a matter of
law. . . . [T]he adoption of Pfizer’s view would
undercut the core proximate causation
principle of allowing compensation for those
who are directly injured, whose injury was
plainly foreseeable and was in fact foreseen,
and who were the intended victims of a
defendant’s wrongful conduct.
712 F.3d at 38. This holding is consistent with the
First Circuit falling within the intended-victim
circuits, supra.
The Third Circuit in In re Avandia Marketing,
Sales Practices & Product Liability Litigation, 804
F.3d 633 (3d Cir. 2015), affirmed the denial of the
defendant’s motion to dismiss based on, inter alia, a
lack of proximate cause as a matter of law. The court
rejected the defendant’s argument:
[T]his case does not present any of the three
fundamental causation concerns expressed in
Holmes. At least for the purposes of this motion
to dismiss, the injury is sufficiently direct.
There is no risk of duplicative recovery here.
And, no one is better suited to sue GSK for its
alleged fraud. At this stage in the litigation,
plaintiffs need only put forth allegations that
raise a reasonable expectation that discovery
will reveal evidence of proximate causation.
They have done that here.
804 F.3d at 646 (footnotes omitted). The Third Circuit
reached the correct decision in In re Avandia. Had the
Third Circuit in this case, Devon Drive, not resolved
the question of proximate cause sua sponte, but taken

30
briefing on the issue, perhaps it would have reached a
like conclusion. 14
B. Proximate Cause Does Not Exist: The
Second and Seventh Circuits
The Second Circuit in UFCW Local 1776 v. Eli
Lilly & Co., 620 F.3d 121 (2d Cir. 2010), reversed class
certification of RICO claims by TPPs for prescribing
Zyprexa on the grounds that plaintiffs’ theory of
proximate cause “is interrupted by the independent
actions of prescribing physicians, which thwarts any
attempt to show proximate cause through generalized
proof.” Id. at 135. Based on this Court’s decision in
Hemi, the court held that “it is clear that plaintiffs’
overpricing theory is too attenuated to meet RICO’s
requirement of a direct causal connection between the
predicate offense and the alleged harm.” Id. at 136
(internal quotations omitted).
The Seventh Circuit in Sidney Hillman Health
Center of Rochester v. Abbott Laboratories, 873 F.3d
574 (7th Cir. 2017), followed the Second Circuit and
held that “improper representations made to
physicians do not support a RICO claim by Payors,
several levels removed in the causal sequence.” Id. at
578.

14 Note, Say Hello to My Little Friend Civil RICO: The Third
Circuit Green Lights Insurance Shakedown of Big Pharma with
In re Avandia, 61 VILL. L. REV. 625, 649 (2016) (“Avandia failed
to foreclose the lack-of-proximate-cause argument entirely, and
the Supreme Court has yet to address the circuit split on this
issue.”).

31
CONCLUSION
For the reasons stated, certiorari should be
granted.

Respectfully submitted,
ROBERT TOLAND II
Counsel of Record
KEVIN F. BERRY
O’HAGAN MEYER LLP
Two Logan Square
100 N. 18th Street, Suite 700
Philadelphia, PA 19103
215-569-2400
rtoland@ohaganmeyer.com
Attorneys for Petitioners
January 16, 2020

APPENDICES

1a
APPENDIX A
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_______________
No. 18-2862
______________
DEVON DRIVE LIONVILLE, LP; NORTH
CHARLOTTE ROAD POTTSTOWN, LP;
MAIN STREET PECKVILLE, LP; RHOADS
AVENUE NEWTOWN SQUARE, LP;
JOHN M. SHEA; GEORGE SPAEDER,
Appellants
v.
PARKE BANCORP, INC; PARKE BANK; VITO S.
PANTILIONE; RALPH GALLO
_______________
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-15-cv-03435)
District Judge: Honorable Mitchell S. Goldberg
_______________
Argued June 11, 2019
Before: JORDAN, BIBAS, and NYGAARD, Circuit
Judges
(Filed: October 22, 2019)

2a
Kevin F. Berry [ARGUED]
Joseph E. Vaughan
O’Hagan Meyer
100 North 18th Street
Two Logan Square, Suite 700
Philadelphia, PA 19103
Counsel for Appellants
David L. Braverman [ARGUED]
Benjamin A. Garber
Peter J. Leyh
Braverman Kaskey
1650 Market Street
One Liberty Place, 56th Floor
Philadelphia, PA 19103
Counsel for Appellees
_______________
OPINION*
_______________
BIBAS, Circuit Judge.
Those who agree to deceive the government may
find themselves deceived. The parties here were in
real estate together. Their business relationship was,
to put it mildly, complicated. They cheated and lied to
one another. But they were all in cahoots, signing
sham agreements to evade regulatory scrutiny.
After their relationship collapsed, they dashed into
state and then federal courts, seeking relief.
Appellants lost at both levels and now appeal the
* This disposition is not an opinion of the full Court and,
under I.O.P. 5.7, is not binding precedent.

3a

District Court’s dismissal. But their claims are either
precluded or meritless.
Appellants Rhoads’s and Shea’s claims are
precluded. They raise the same fraud claims in federal
court that they have already raised and lost in state
courts.
And the other appellants’ claims are meritless.
Pottstown, Peckville, Lionville, and Spaeder cannot
show that Parke Bank’s fraud proximately caused
their injuries; because their only theory hinges on the
actions of independent, intervening third parties, the
alleged injury is too remote from the fraud. So we will
affirm.
I. BACKGROUND
A. Facts
Because the District Court granted Parke Bank’s
motion to dismiss, we take appellants’ allegations as
true and draw all reasonable inferences in their favor.
Many years ago, George Spaeder and Bruce Earle got
into the real-estate business together. They set up
four limited partnerships to run their business: North
Charlotte Road Pottstown, LP; Main Street Peckville,
LP; Devon Drive Lionville, LP; and Rhoads Avenue
Newtown Square, LP. Spaeder and Earle had distinct
roles. Spaeder managed the partnerships’ day-to-day
operations; Earle held their purse strings and
controlled their books and records. The partnerships
got financing from Parke Bank and a business partner
named John Shea. As we explain below, the business
eventually collapsed.
1. Pottstown, Peckville, and Lionville. To help
launch the business, three of the partnerships

4a
(Pottstown, Peckville, and Lionville) took out large
loans from Parke Bank. These partnerships were
separate legal entities, so their assets and ownership
were separate as well. But Parke Bank and Earle
treated them as one giant “piggy bank.” App. 886,
1982.
Parke Bank commingled the partnerships’ funds
and cross-collateralized the loans to make bad loans
look better. And it levied sham fees against the
partnerships to evade regulatory scrutiny.
Earle sloshed money around without Spaeder’s
approval and diverted funds to his personal company
and account. And he made the bank honor forged or
unsigned checks to send money to his personal
company.
2. Spaeder. Meanwhile, Earle kept the books and
records secret and kept Spaeder from looking into the
partnerships’ finances. Earle did not show Spaeder
any correspondence between the partnerships and the
bank, including letters showing unauthorized
transactions and fraud. Earle also lied to Spaeder
about the partnerships’ financial troubles, watching
Spaeder go down with the sinking ship as he struggled
to patch the holes with his own money.
3. Rhoads. Shaking the piggy bank upside down
eventually left Pottstown under-collateralized. This
alarmed the regulators at the Federal Deposit
Insurance Corporation; they soon came knocking. So
Parke Bank and Spaeder hatched a scheme to use
Rhoads to evade the regulators’ scrutiny.
The bank told Spaeder that it would either force
the Pottstown loan into default or make Rhoads sign
security agreements with the bank to cover
Pottstown’s collateral shortfall. Spaeder chose the

5a
latter option on one condition: that the bank not
record or enforce these security agreements. The bank
promised to “rip [the security agreements] up once the
feds left.” App. 1104–05.
That was a lie. After showing the agreements to
the regulators, the bank recorded them. And it later
enforced them against Rhoads.
4. Shea. Earle needed someone to guarantee a line
of credit for his other business ventures. He could not
do so personally without violating lending-limit
regulations, so he searched for someone else. Parke
Bank recommended that he ask John Shea, who was
already involved in the partnerships’ real-estate
business.
To sweeten the deal, the bank promised Shea that
Earle and his wife, not Shea, would be on the hook for
the line of credit. After some convincing, Shea agreed
to guarantee Earle’s line of credit.
But the bank had lied again. It intended the
guaranty agreement to bind Shea and levied sham
fees against him without notice. And it later enforced
the guaranty agreement against Shea.
B. Procedural history
1. State court. Spaeder’s and Earle’s relationship
eventually reached a breaking point, as did their
business. Around that time, Pottstown and Peckville
defaulted on their loans. This made Parke Bank
skittish, so it used Pennsylvania state courts to
salvage money from the sinking business.
Parke Bank got confessed judgments against
Pottstown, Peckville, and Rhoads in Pennsylvania
state court to collect outstanding loans and the
collateral for the Pottstown loan. In response, the

6a
three partnerships petitioned to open the confessed
judgments. Pottstown and Peckville argued that they
need not pay up because Parke Bank had misapplied
loan proceeds and mismanaged their funds. Rhoads
raised similar arguments, but specifically attacked
the judgment based on Parke Bank’s fraud. According
to Rhoads, the bank had fraudulently induced Rhoads
to sign security agreements by promising not to record
or enforce them. The state court ruled for the bank
and struck all three petitions.
Parke Bank also sued Shea for breach of contract
in Pennsylvania state court to collect the balance of
Earle’s line of credit. Shea counterclaimed that the
bank had committed fraud. According to Shea, the
bank had misrepresented that the guaranty would not
actually bind him. The state court again ruled for the
bank and ordered Shea to pay up.
2. Federal court. The four partnerships, Shea, and
Spaeder sought a second chance in federal district
court. They filed this suit against Parke Bank and its
employees under the Racketeer Influenced and
Corrupt Organizations Act (RICO), 18 U.S.C. §§ 1961–
1968, alleging that the bank, its employees, and Earle
had formed an enterprise to defraud them. They also
alleged state-law claims for fraud, conversion, and
civil conspiracy.
But the District Court dismissed all their claims.
The Court properly took judicial notice of state-court
judgments. See Davis v. Wells Fargo, 824 F.3d 333,
341 (3d Cir. 2016). And it barred the federal claims of
Pottstown, Peckville, Rhoads, and Shea under claim
preclusion. Devon Drive Lionville, LP v. Parke
Bankcorp, Inc. (Devon Drive II), No. 15-3435, 2017 WL
5668053, at *19, *21 (E.D. Pa. Nov. 27, 2017). Despite

7a
that dismissal, the three partnerships and Shea kept
litigating the case as if they were still in it. Devon
Drive Lionville, LP v. Parke Bancorp, Inc. (Devon
Drive III), No. 15-3435, 2018 WL 3585069, at *2 (E.D.
Pa. July 26, 2018). The Court then dismissed
Lionville’s and Spaeder’s federal claims on the merits
for lack of RICO standing. Id. at *6. And it declined to
exercise supplemental jurisdiction over the remaining
state-law claims. Id. at *7. In the alternative, it
dismissed the complaint for ignoring the court’s
directives. Id. (relying on Fed. R. Civ. P. 41(b)).
The partnerships, Shea, and Spaeder now appeal.
We review the District Court’s claim preclusion ruling
and dismissal on the merits de novo. Elkadrawy v.
Vanguard Grp., Inc., 584 F.3d 169, 172 (3d Cir. 2009)
(claim preclusion); Bruni v. City of Pittsburgh, 824
F.3d 353, 360 (3d Cir. 2016) (12(b)(6) dismissal on the
merits).
II. RHOAD’S AND SHEA’S CLAIMS ARE PRECLUDED
We give state-court judgments the same preclusive
effect that the state’s own courts would. 28 U.S.C. §
1738; Turner v. Crawford Square Apartments III,
L.P., 449 F.3d 542, 548 (3d Cir. 2006). Under
Pennsylvania law, claim preclusion bars litigants’
claims if their first and second suits involve (1) the
same issues, (2) the same cause of action, (3) the same
parties, and (4) the same quality or capacity of the
parties. Daley v. A.W. Chesterton, Inc., 37 A.3d 1175,
1189–90 (Pa. 2012).
Under the most generous reading, Rhoads and
Shea challenge only the first element: the state and
federal claims, they say, did not raise the same issues.
But they did.

8a
A. Rhoads’s claims are precluded
Rhoads challenges claim preclusion on only two
grounds: First, it says, its petition could not have
opened the confessed judgment. Second, it asserts, the
doctrines of adverse domination and fraudulent
concealment should bar claim preclusion. These two
arguments fail. And it forfeited any other arguments.
1. Opening the confessed judgment. Pennsylvania
lets a party petition to open a confessed judgment. Pa.
R. Civ. P. 2959; see J.M. Korn & Son, Inc. v. Fleet-Air
Corp., 446 A.2d 945, 946 (Pa. Super. Ct. 1982). If the
petition states prima facie grounds for relief, the state
court must open the judgment and may stay the
proceedings. Pa. R. Civ. P. 2959(b). The petition,
however, must spell out what it challenges; parties
“waive[ ] all defenses and objections which are not
included in the petition or answer.” Id. 2959(c).
But petitions cannot, in the absence of fraud, open
claims if the claims asserted are unliquidated. See
Hopewell Estates, Inc. v. Kent, 646 A.2d 1192, 1195
(Pa. Super. Ct. 1994); J.M. Korn, 446 A.2d at 462. In
other words, the claims must allege either that the
underlying agreement is void (because of fraud, for
instance) or that the damages are certain and definite.
J.M. Korn, 446 A.2d at 947 (fraud); Hellam Twp. v.
DiCicco, 429 A.2d 1183, 1186 (Pa. Super. Ct. 1981)
(certain and definite damages).
Rhoads’s claims were the sort that could have
opened the confessed judgment because they alleged
fraud. In its petition, Rhoads claimed that Parke Bank
had induced it to sign the security agreements by
fraud. The bank allegedly lulled Rhoads into a false
sense of security by promising not to record or enforce
the security agreements. These are exactly the kind of

9a
fraud claims for which Pennsylvania state courts can
open confessed judgments. See Nadolny v. Scoratow,
195 A.2d 87, 89 (Pa. 1963) (citing Berger v. Pittsburgh
Auto Equip. Co., 127 A.2d 334, 335–37 (Pa. 1956))
(opening to allow question of fraud to go to a jury). The
state court could have opened the confessed judgment
based on fraud. It did not do so because it found that
Rhoads’s claims lacked merit.
2. The doctrines of adverse domination, fraudulent
concealment, and the discovery rule. Rhoads makes a
last-ditch effort to save its claims by asking us to
extend three timeliness doctrines, called adverse
domination, fraudulent concealment, and the
discovery rule, to claim preclusion as well. The gist of
its argument is that Earle’s control over Rhoads, as
well as Parke Bank’s fraud, kept Rhoads from
discovering its own fraud claims.
Rhoads admits, however, that the three doctrines
only toll or delay the running of statutes of
limitations. It cites no Pennsylvania decision that has
extended any of these doctrines to bar claim
preclusion. Even if the doctrines could apply in theory,
they do not fit here. They would save only claims that
were not asserted because of control or fraud. But
here, Rhoads did manage to assert its own fraud
claims in its state-court petition. Neither control nor
fraud kept it from doing so. Thus, none of these
defenses fits these facts.
B. Shea’s claims are precluded
Shea argues that his claims cannot be precluded
because counterclaims in Pennsylvania are only
permissive, not mandatory. Not so.
While Pennsylvania’s Rules of Civil Procedure do
not provide for mandatory counterclaims, its courts

10a
do. Compare Martin v. Poole, 336 A.2d 363, 367 (Pa.
Super. Ct. 1975), with Del Turco v. Peoples Home Sav.
Ass’n, 478 A.2d 456, 463 (Pa. Super. Ct. 1984)
(adopting Restatement (Second) of Judgments § 22
(1980)). So in Pennsylvania, claim preclusion applies
“not only to claims that were made but also to claims
that could have been made.” Stuart v. Decision One
Mortg. Co., 975 A.2d 1151, 1152 (Pa. Super. 2009).
And it applies fully when a party chooses to bring a
counterclaim. Hunsicker v. Bearman, 586 A.2d 1387,
1390 (Pa. Super. Ct. 1991). Shea had to raise his
counterclaims, he did raise them, and the state court
dismissed them. And for the same reasons Rhoads’s
claims fail, adverse domination, fraudulent
concealment, and the discovery rule cannot save
Shea’s claims either. His federal claims are thus
precluded.
III. A FRAUD’S INFLUENCE ON FEDERAL
REGULATIONS IS NOT A PROXIMATE CAUSE OF
HARM AND SO CANNOT SUPPORT RICO STANDING
The remaining appellants (Pottstown, Peckville,
Lionville, and Spaeder) fail to state a claim for relief.
On appeal, they raise only one proximate-causation
theory to support RICO standing: the regulators
relied on the bank’s fraud, and that reliance caused
their injuries. But that theory fails, so they cannot
survive a motion to dismiss.
To be clear, the District Court dismissed Pottstown
and Peckville because their claims were precluded.†
But because they kept litigating their RICO claims as
† Judge Jordan would base our decision on Pottstown’s and
Peckville’s claims not on standing but rather on preclusion. He
would hold that Pottstown’s and Peckville’s claims are precluded
for the same reasons that Rhoads’s are. See supra section II.A.1.

11a
if they were still parties to the case, we will treat them
as such. After all, “we can affirm for any reason in the
record.” Blake v. JP Morgan Chase Bank NA, 927 F.3d
701, 705 (3d Cir. 2019). So even if the District Court
erred in dismissing Pottstown and Peckville under
claim preclusion, we can affirm the dismissal on other
grounds. And because they too lack standing to bring
RICO claims, we need not address whether their
claims were precluded.
Standing comes in several varieties, and plaintiffs
must satisfy all that apply. Some standing is
constitutional, required by Article III. Some is
prudential. And some is required by the particular
statute at issue, like RICO. Maio v. Aetna, Inc., 221
F.3d 472, 482–83 (3d Cir. 2000). RICO provides a
private cause of action only for those who are “injured
. . . by reason of” a RICO violation. 18 U.S.C. § 1964(c).
That requires that the defendant be both the but-for
and the proximate cause of the plaintiff’s injury.
Bridge v. Phx. Bond & Indem. Co., 553 U.S. 639, 654
(2008); Maio, 221 F.3d at 483. Only proximate
causation is at issue here.
Under RICO, proximate causation requires “some
direct relation between the injury asserted and the
injurious conduct alleged.” Holmes v. Secs. Inv’r Prot.
Corp., 503 U.S. 258, 268 (1992). Though it requires
reliance, the reliance need not be by the plaintiff
himself: usually, a plaintiff must show “that someone
relied on the defendant’s misrepresentations.” Bridge,
553 U.S. at 657–58. And if fraud harms the plaintiff
only indirectly and other factors may have caused that
harm, there is no proximate causation. See Anza v.
Ideal Steel Supply Corp., 547 U.S. 451, 457–60 (2006).

12a
The remaining appellants charge that the FDIC
relied on Parke Bank’s misrepresentations about the
sham fees, the state of the loans, and the legitimacy of
the transactions. Fraudulent representations to a
third party, they claim, can support RICO standing.
Not here. Under their theory, the direct victims are
the regulators, not appellants. And the regulators are
also intervening actors who break the chain of
causation.
The Supreme Court has rejected similarly remote
theories of proximate causation. Consider these two
scenarios: First, a party defrauds a tax authority and
uses the proceeds to lower its prices and undercut its
competitors. Anza, 547 U.S. at 457–58. Second, a
party defrauds a state government by not reporting
some sales information, and without this information
a city government cannot track down the people who
never paid taxes on those sales. Hermi Grp., LLC v.
City of N.Y., 559 U.S. 1, 9 (2010). In both scenarios,
the harm is separate from the fraud. The fraud was
perpetrated on the tax authority and state
government. But the harm alleged was suffered by
different parties: competitors and city government. So
in both scenarios, those harms are too attenuated and
distant from the reliance to show proximate
causation. Anza, 547 U.S. at 458–59; Hermi, 559 U.S.
at 10. So too here.
Appellants did not preserve any other theory of
proximate causation. Only after oral argument did
they assert that Spaeder has standing as the general
partner in charge of the limited partnerships to file
lawsuits on their behalf. Under this theory, Spaeder
may be a “real party in interest” as a general partner.
Fed. R. Civ. P. 17(a)(1). Yet he, like the partnerships,

13a
would still lack RICO standing. But we need not
consider this theory or any other because appellants
have forfeited them; we see no “exceptional
circumstances” here to justify overlooking that
forfeiture. Brown v. Philip Morris Inc., 250 F.3d 789,
799 (3d Cir. 2001).
*****
In short, all of appellants’ claims are either
precluded or barred by lack of RICO standing. So we
need not address whether the District Court was right
to dismiss, in the alternative, appellants’ remaining
claims under Federal Rule of Civil Procedure 41(b).
We will thus affirm.

14a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
[November 27, 2017]
Civil Action No. 15-3435
DEVON DRIVE LIONVILLE, LP, et al.,
Plaintiffs,
v.
PARKE BANCORP, INC., et al.,
Defendants.
Goldberg, J.

November 27, 2017
MEMORANDUM OPINION

Plaintiffs, four limited partnerships and two
individuals, 1 have sued Defendant Parke Bank and
two of its employees, 2 under the Racketeer Influenced
and Corrupt Organizations Act (“RICO”), 18 U.S.C §§
1961, et seq., alleging fraud in connection with a series
of large commercial loans and related transactions. In
addition to three RICO claims, Plaintiffs also assert
state law claims for fraud, conversion, and civil
conspiracy.

Plaintiffs include North Charlotte Road Pottstown, L.P.,
Main Street Peckville, L.P., Rhoads Avenue Newtown Square,
L.P., Devon Drive Lionville, L.P., John Shea, and George Spaeder
(collectively, “Plaintiffs”).
2
Defendants include Parke Bank, Vito S. Pantilione, and
Ralph Gallo (collectively, “Defendants”).
1

15a
On December 29, 2016, I substantially granted
Defendants’ Motion to Dismiss the Complaint and
gave Plaintiffs leave to file an amended complaint.
The Amended Complaint was filed on January 30,
2017.
Defendants have now filed a Motion to Dismiss the
Amended Complaint, together with a related Motion
to Take Judicial Notice. Upon consideration of
Defendants’ Motion and the parties’ briefs, I will (1)
grant the Motion to Take Judicial Notice in its
entirety; (2) grant the Motion to Dismiss as to
Plaintiffs North Charlotte Road Pottstown, L.P., Main
Street Peckville, L.P., Rhoads Avenue Newtown
Square, L.P., and John Shea; and (3) deny the Motion
to Dismiss without prejudice as to Plaintiffs Devon
Drive Lionville, L.P. and George Spaeder.
FACTUAL BACKGROUND
I. The Formation of the Partnerships
The numerous transactions detailed in the
Amended Complaint are nuanced and complicated.
Thus, a detailed understanding of each is required to
reach the proper resolution of Defendants’ Motion.
The following facts are set forth in the Amended
Complaint. 3
In 2003, Plaintiff George Spaeder (“Spaeder”) and
non-party Bruce Earle (“Earle”) entered into an oral
partnership agreement for the purpose of buying and
3
When determining whether to grant a motion to dismiss, a
federal court must construe the complaint liberally, accept all
well-pleaded factual allegations in the complaint as true, and
draw all reasonable inferences in favor of the plaintiff. Fowler v.
UPMC Shadyside, 578 F.3d 203, 211 (3d Cir. 2009). In
accordance with this principle, my recitation of the facts assumes
the truth of the factual statements in the Amended Complaint.

16a
selling real estate (the “Earle-Spaeder Partnership”).
(Am. Compl. ¶ 17.) Spaeder was charged with various
tasks such as locating suitable investment properties,
negotiating the terms of purchase and eventual sale
or lease of the properties, and organizing and
overseeing renovation work to the properties when
necessary. (Id.) Earle took charge of the finances
relative to the real estate transactions. Together, the
two men formed four of the partnerships that are now
Plaintiffs in this lawsuit: Devon Drive Lionville, L.P.
(“Lionville”), North Charlotte Road Pottstown, L.P.
(“Pottstown”),
Main
Street
Peckville,
L.P.
(“Peckville”), and Rhoads Avenue Newtown Square,
L.P.
(“Rhoads
Avenue”)
(collectively
the
“Partnerships”). (Id. ¶¶ 4–7, 18.)
These Partnerships were formed to purchase,
develop, and lease a single Pennsylvania commercial
real estate property capable of hosting multiple
commercial tenants. (Id.) Although each Partnership
had a unique ownership structure comprised of both
individual and corporate partners, all were
spearheaded by Spaeder and Earle. (Id. ¶ 18.) Spaeder
was principally in charge of managing the day-to-day
business of the Lionville, Pottstown, and Peckville
Partnerships, 4 while Earle acted as an independent
contractor through his wholly-owned company
Rosedon Holding Company Limited Partnership
(“Rosedon Holding”). (Id. ¶ 19.) Rosedon Holding took
custody of the books and records of these three
Partnerships and monitored their finances. (Id.)
For the Partnerships to succeed, they needed to
obtain commercial loans. Three of the Partnerships—
4
The Amended Complaint does not define the management
structure of Rhoads Avenue.

17a
Lionville,
Pottstown,
and Peckville—obtained
financing through Defendant Parke Bank (“Parke
Bank”), a full service commercial bank that provides
personal and business financial services to individuals
and small-sized businesses in southern New Jersey,
Philadelphia,
and
surrounding
Pennsylvania
counties. (Id. ¶ 21.) Officer and director of Parke
Bank, Defendant Vito S. Pantilione (“Pantilione”),
was integrally involved in facilitating the loan
transactions between Parke Bank and several of the
Partnerships. (Id. ¶ 22.)
Spaeder and Earle first did business with Parke
Bank in February 2007 in connection with an
unrelated real estate transaction. Thereafter, when
Earle closed a loan with another bank, Pantilione
reached out to Spaeder to find out why Earle did not
come to Parke Bank for the loan. (Id.) Pantilione
dismissed Spaeder’s concerns about federal “loan to
one borrower” lending limit regulations, advised that
he would handle lending limit issues, and requested
that Earle come to him personally at Parke Bank for
all future loans related to the real estate ventures. (Id.
¶ 23.)
II. Loans from Parke Bank to Lionville, Pottstown,
and Peckville
In December 2007, Lionville borrowed $3,098,000
from Parke Bank to finance the purchase and
development of vacant ground featuring three
commercial “pads.” Of the total loan amount, $748,000
was earmarked for anticipated construction costs,
while the balance was to cover purchase costs. (Id. ¶
25.) This loan (the “Lionville loan”) was guaranteed by
Earle. In connection with the transaction, Parke Bank
received a copy of Lionville’s Limited Partnership

18a
Agreement and Lionville’s General Partner Operating
Agreement. (Id.)
In March 2008, Pottstown borrowed $8,000,000
from Parke Bank to acquire and renovate a shopping
center, with $2.5 million allocated to acquisition costs,
$4.146 million allocated to construction/renovation,
and $1.354 million allocated to equity recapture. (Id.
¶ 26.) Spaeder signed a personal guaranty for the loan
(the “Pottstown loan”), and Parke Bank received a
copy of Pottstown’s Limited Partnership Agreement
and Pottstown’s General Partner Operating
Agreement. (Id.)
In May 2008, Peckville borrowed $5,200,000 from
Parke Bank to fund the purchase and renovation of an
existing shopping center, $3.4 million of which was
required for purchase and $500,000 of which was
earmarked for renovations. (Id. ¶ 27.) On Pantilione’s
advice, Earle persuaded Joseph Sweeney, who had
previously worked with Earle and Spaeder, to sign a
guaranty for the loan (the “Peckville loan”). Parke
Bank again received a copy of Peckville’s Limited
Partnership Agreement and Peckville’s General
Partner Operating Agreement. (Id.)
III. The John Shea Line of Credit
In mid-2008, Earle went to Pantilione about
obtaining a line of credit to provide additional funds
for his business ventures. (Id. ¶ 28.) Pantilione
identified a property owned by Earle and his wife in
Margate, NJ (the “Margate Property”) as a source of
security for the line of credit, but explained that Earle
could not personally guaranty the line of credit due to
lending limit regulations. (Id. ¶28.) As such,
Pantilione suggested that Earle find a business
associate, specifically identifying Plaintiff John Shea,

19a
to personally guarantee the line of credit. (Id. ¶¶ 28–
29.) Pantilione explained that although Shea would
need to personally guaranty repayment, the real
security to Parke Bank would be through the
execution of a first-position mortgage on Earle’s
Margate Property in favor of Parke Bank. (Id. ¶ 29.)
Eventually, Earle approached Shea about his
willingness to guarantee the line of credit. (Id. ¶ 31.)
In a subsequent meeting, Pantilione represented to
Shea that Parke Bank viewed the real security for the
line of credit to be the mortgage on the Margate
Property, and that $2,350,000 of the funds available
through the line of credit would be used as additional
cash collateral to help improve the collateralization of
the Lionville, Pottstown, and Peckville loans. (Id. ¶
32.) In reliance on these representations, Shea agreed
to enter into the line of credit agreement and
guarantee the funds (“Shea LOC”). (Id. ¶ 33.) This
transaction closed in October 2008.
IV. Discovery of the Alleged RICO Enterprise
By late 2011, Earle’s and Spaeder’s relationship
had deteriorated and their business partnership
began to collapse. (Id. ¶ 34.) Around that time, the
loans from Parke Bank to the Pottstown and Peckville
Partnerships went into default. (Id.) In 2012, Parke
Bank confessed judgment in the Court of Common
Pleas of Delaware County, Pennsylvania against
Pottstown in the amount of $9,762,357.86, and
against Peckville in the amount of $5,612,169.45. Also
at that time, the state court entered an order
prohibiting Spaeder from continuing in his
management role for the Lionville, Pottstown, and
Peckville properties or from having any involvement
in the affairs of those entities. (Id. ¶ 35.) Rosedon

20a
Holding and Earle also defaulted on other loans from
Parke Bank, which were pursued by Parke Bank
through confessed judgments entered in several state
court actions. (Id. ¶ 36.)
In February 2013, Spaeder and other principals of
some of the Partnerships attended a hearing held in
one of the lawsuits brought by Parke Bank against
Earle. During that hearing, Earle testified regarding
a “global settlement” of the claims against him, which
included a provision allowing Parke Bank to crosscollateralize funds between Rosedon Holding,
Pottstown, Peckville, and Rhoads Avenue without
prior consent or authorization. (Id. ¶ 37.) As a result
of that testimony, Spaeder and the other principals of
the Partnerships petitioned the court to intervene in
order to object to the proposed settlement since Earle
was not authorized to make decisions affecting the
assets of the Partnerships. (Id. ¶ 38.) At a subsequent
hearing on the intervention, Parke Bank withdrew its
motion to enforce its global settlement with Earle.
(Id.)
Spaeder later sought to strike a deal with Parke
Bank, through Pantilione, to cure Peckville’s default
and avoid a Sheriff’s Sale of the Peckville property.
Pantilione refused to negotiate and indicated Parke
Bank was going to use the equity from the sale of the
Peckville property to help prop up other loans. (Id. ¶
39.) Spaeder then filed for bankruptcy. During the
ensuing bankruptcy proceedings in July 2013, the
Partnerships began to uncover evidence of an
“enterprise” among Parke Bank, Pantilione,
Defendant Ralph Gallo (Senior Vice President and
Chief Workout Officer for Parke Bancorp, Inc.), and
Earle (collectively, the “BPGE Enterprise”). (Id. ¶¶ 2,
13, 39.)

21a
V. Alleged Activities by the BPGE Enterprise
Parke Bank personnel allegedly participated in the
BPGE Enterprise when they began to utilize the funds
available under the loans and/or lines of credit
extended to the various independent limited
partnership entities as one “piggy bank.” (Id. ¶ 50.)
This piggy bank would purportedly fund troubled
loans to create the appearance of a performing loan.
(Id.)
Despite the fact that the Lionville, Pottstown, and
Peckville Partnerships were separate legal entities
with different assets and ownership, Parke Bank
treated these loans as if they were three loans to the
same borrower, controlled by Earle, such that their
loans could be cross-collateralized by Parke Bank as it
saw fit. (Id. ¶ 53.) Parke Bank, however, was not
authorized to commingle the entities’ funds or crosscollateralize their loans. (Id. ¶ 54.) Earle, who
controlled the financial information for these three
partnerships and who was also in control of the
proceeds of the Shea LOC, misdirected and
misappropriated loan funds and/or rental income to
benefit his own interests and those of Parke Bank,
Pantilione, and Gallo. (Id. ¶ 55.) For example, the
Amended Complaint claims that Earle carefully
safeguarded the Partnerships’ books and records and
actively prevented Spaeder from having access to
them. (Id. ¶ 56.) Earle also allegedly ensured that
correspondence from Parke Bank concerning the Shea
LOC or the loans to Lionville, Pottstown or Peckville
were only sent to Rosedon Holding’s offices and were
not forwarded to Spaeder or Shea. (Id. ¶ 57.) For their
part, Pantilione and Gallo improperly lulled Spaeder
into a false sense of confidence that their actions were

22a
lawful and in the best interests of the Partnerships.
(Id. ¶ 55.)
VII. Alleged Specific Fraudulent Activity Regarding
Each Partnership/Loan
A. The Lionville Partnership
Under the Limited Partnership Agreement for
Lionville, all management and decision-making
authority was vested exclusively in the general
partner entity, Devon Drive Lionville GP, LLC. (Id. ¶
65.) The sole limited partner of Lionville—Earle—was
expressly prohibited from having any right or
authority to manage, control, act for, or obligate
Lionville. (Id.) The Operating Agreement vested
management control over all decisions of the general
partnership in Spaeder.
Lionville’s $3,098,000 loan from Parke Bank
facilitated its purchase and a portion of construction
costs associated with commercial real estate located at
120 Eagleview Boulevard in Lionville, PA for
occupancy by tenants. (Id. ¶ 67.) Beginning as early as
January 2008, however, Parke Bank began to transfer
funds by wire from Lionville to other Parke Bank
accounts and, predominantly, to an outside bank
account for Rosedon Holding, all without Lionville’s
consent or approval. (Id. ¶ 68.) In three separate
transactions between January 2008 and January
2009, Parke Bank wired a total of $1,416,450.70 from
Lionville’s account to Rosedon Holding. (Id. ¶ 68.) Of
the total funds transferred without Lionville’s
authorization, Parke Bank directed the return of
$48,531.97 into Lionville’s account, resulting in a
shortfall of $1,608,197.08. (Id. ¶ 69.)
Parke Bank, through Pantilione and/or Gallo, also
allegedly facilitated the transfer of additional funds to

23a
Rosedon Holding by honoring forged or unsigned
checks made payable to Rosedon Holding and drawn
against Lionville’s account at Parke Bank. (Id. ¶ 71.)
Plaintiffs allege that these payments were made to
provide Earle with additional liquid funds while
avoiding lending limits. (Id. ¶ 72.)
Unaware of these transactions, Lionville, through
Spaeder, entered into a long-term lease with Rite-Aid
in December 2009, which required Lionville to
construct a building per Rite-Aid’s specifications. (Id.)
Thereafter, in January 2010, Lionville entered into a
long-term lease with a restaurant named Timothy’s of
Lionville (“Timothy’s”). (Id.) At Pantilione’s
suggestion, Lionville pursued refinancing through
Parke Bank to obtain funds for the construction of the
Rite Aid building and the Timothy’s location. (Id.)
Pantilione agreed to refinance the Lionville loan on
the condition that Earle reduce his ownership
interests in Lionville so that Parke Bank would not
run afoul of lending limitations. (Id. ¶ 74.) In
December 2010, Lionville closed on a new loan with
Parke Bank for $6,700,000 with a guaranty from a
minority partner, Jerry Naples. (Id.) The proceeds
were used to pay off the first loan to Parke Bank and
the construction costs of the Rite-Aid building, leaving
approximately $1.8 million for the Timothy’s
restaurant construction. (Id.) At Pantilione’s
direction, however, Parke Bank refused to release any
funds for construction unless Earle was completely
removed from Lionville’s ownership. (Id. ¶ 75.)
In September 2011, Gallo, who was at the time a
Vice President at Parke Bank, approved payment on
an allegedly fraudulent A1A form in the amount of
$105,882, and directed payment from Lionville’s
construction loan account to Rosedon Holding, despite

24a
knowing that the money did not correspond to any
construction cost incurred. (Id. ¶ 76.) Upon receipt of
the $105,882 from the Lionville construction loan
account, Rosedon Holding transferred the majority of
the funds from its account back to Parke Bank as
payment on several past-due mortgage loan
obligations, including the loan for Lionville. (Id. ¶ 77.)
Due to the delays in construction caused by Parke
Bank’s decision to hold Lionville’s funds hostage,
Timothy’s restaurant terminated its lease. (Id. ¶ 80.)
Although Lionville eventually regenerated Timothy’s
interest, the terms of the new lease were significantly
less favorable. (Id.) In the meantime, the construction
delays caused Lionville to lose another prospective
tenant. (Id.) In February 2014, Lionville refinanced its
Parke Bank loan with WSFS Bank and finally had
access to the funds necessary to begin improvements
on the property. (Id.)
On at least one occasion in 2009, and on at least
two occasions in 2010, Parke Bank assessed Lionville
with a “Late Charge” of $99,999.99, each of which was
later “waived” by Parke Bank. (Id. ¶ 82.) Lionville
never received notice of the assessment of the late
charges, nor were they justified. (Id. ¶ 83.) Plaintiffs
allege that these sums were to create the false
appearance of additional receivables on its books
without triggering the additional scrutiny that
accompanies transactions of $100,000 or more. (Id.)
B. The Pottstown Partnership
Like
Lionville,
the
Limited
Partnership
Agreement for Pottstown vested all management and
decision-making authority in the control of its general
partner entity, North Charlotte Pottstown GP, LLC.
Earle was expressly prohibited from having any right

25a
or authority to manage Pottstown. (Id. ¶ 85.) The
Operating
Agreement
vested
Spaeder
with
management control over all decisions of the general
partnership. (Id. ¶ 86.)
In March 2008, Pottstown secured an $8,000,000
loan in connection with its acquisition of the property
at 1400 North Charlotte Street, Pottstown, PA. (Id. ¶
87.) The plan for that property was to completely
renovate the existing shopping center using
$4,146,000 of earmarked funds and then lease the
space. (Id.)
As with Lionville, Parke Bank allegedly began to
unilaterally initiate wire transfers of Pottstown funds
to Rosedon Holding and other Parke Bank accounts
just months after the loan closed. (Id. ¶ 88.) By the end
of 2008, Parke Bank had authorized at least eight
such wire transfers, depleting Pottstown’s account by
$1,225,000. (Id. ¶ 89.) At least thirteen more wire
transfers occurred through as late as August 8, 2013.
(Id.) Plaintiff alleges that the total amount of
unreturned funds wired out of Pottstown’s accounts
totaled $1,123,809.74. (Id. ¶ 90.)
Parke Bank, through Gallo, was tasked with
inspecting,
approving,
and
then
releasing
construction draws to pay approved A1A work
invoices out of the $4.1 million of earmarked loan
funds. Gallo, however, caused Parke Bank to
authorize the release of Pottstown construction draw
funds directly to Rosedon Holding’s own checking
account without authorization from Pottstown. (Id. ¶¶
91–92.) On numerous occasions after Rosedon Holding
received the funds, Earle would direct payment of only
a portion of the funds to the construction company as
payment and would keep the rest. (Id. ¶ 93.) He would

26a
then blame the shortfall on Parke Bank and promise
that the difference would be made up in later draw
payments. (Id.) Relying on Earle’s statements,
Spaeder, on multiple occasions, paid the contractors
using his own funds with the intent of being later
reimbursed. (Id.) In total, Parke Bank allegedly
misdirected approximately $3,770,000 of Pottstown’s
$4,100,000 construction draw funds, with Earle,
through Rosedon Holding, as the primary recipient.
(Id. ¶ 94.)
During calendar years 2010 and 2011, additional
funds in the amount of $160,500 were provided to
Rosedon Holding by payment approved by Parke
Bank on forged or unsigned checks from Pottstown’s
accounts. (Id. ¶ 96.) Parke Bank also approved
payment to itself through two forged checks totaling
approximately $88,000. (Id.)
In May 2008, Spaeder negotiated and executed a
twenty-year lease with Planet Fitness concerning a
large portion of the property. (Id. ¶ 97.) On March 31,
2009, Bottom Dollar signed a twenty-year lease as
Pottstown’s anchor tenant. (Id.) Planet Fitness began
paying rent in March 2010, and Bottom Dollar began
paying rent in December 2010. (Id.) Around that time,
Pottstown had several additional prospective tenants
poised to enter leases. (Id.)
When Bottom Dollar attempted to obtain permits
for the interior renovations required to ready its
leased space, the local municipality advised it that no
permits would issue until Pottstown posted a bond to
cover the cost of off-site roadwork. (Id. ¶ 98.) As this
work was not in the budget, Pottstown, through
Spaeder and a local land use attorney, Marc Kaplin,
approached Pantilione about obtaining a letter of

27a
credit to fund the bond. (Id. ¶ 99.) Pantilione
demanded that Pottstown post additional collateral
before Parke Bank would agree to fund the line of
credit. (Id.) Following some negotiations, Pantilione
and/or Gallo requested that Pottstown agree to direct
its tenants to send their monthly rent checks to a
lockbox controlled by Parke Bank. Spaeder agreed to
the request. (Id. ¶ 100.) Before Pottstown could
resolve the bond issue with the municipality, Parke
Bank, over Spaeder’s and Kaplin’s objections, sent a
letter to Bottom Dollar and Planet Fitness
announcing “a change in the banking relationship”
that required the tenants to send future rent
payments to a Parke Bank lockbox. (Id. ¶ 101.) Shortly
thereafter, Bottom Dollar cancelled its lease and
stopped paying rent, triggering similar reactions by
the other prospective tenants. (Id. ¶ 102.) Ultimately,
Pottstown defaulted on its loan obligations to Parke
Bank, which confessed judgment against it in
December 2012, sold the property at a Sheriff’s Sale,
and continues to pursue a deficiency judgment against
Pottstown and its guarantors. (Id. ¶ 104.)
C. The Peckville Partnership
The Limited Partnership Agreement for Peckville
vested all management and decision-making
authority in the control of its general partner entity,
Main Street Peckville GP, LLC. Earle was expressly
prohibited from having any right or authority to
manage. (Id. ¶ 105.) The Operating Agreement vested
management control over all decisions of the general
partnership in Spaeder. (Id. ¶ 106.)
Peckville received a loan from Parke Bank in the
amount of $5,200,000, in connection with its
acquisition of an existing shopping center located on

28a
Main Street in Peckville, PA on May 1, 2008. Peckville
intended to stabilize the existing commercial leases on
the property and lease out vacant space to new
tenants. (Id. ¶ 107.)
As it did with the other Partnerships, Parke Bank
began wire transferring Peckville’s funds to Rosedon
Holding, beginning with a substantial transfer of
$1,077,742.83 on February 12, 2009. (Id. ¶ 108.)
Between 2011 and as recently as September 2013,
Parke Bank transferred additional Peckville funds out
of its account. (Id.) None of these transfers were
properly authorized by Peckville. (Id. ¶ 109.)
Additionally, over the course of approximately
three months during 2011, Parke Bank authorized
payment to Rosedon Holding on six unsigned or
fraudulently-executed checks drawn against the
Peckville account, through which Rosedon Holding
converted a total of $56,400 from Peckville. (Id. ¶ 111.)
Parke Bank also engaged in a unilateral
modification of Peckville’s loan terms. The original
terms of Peckville’s loan with Parke Bank required
interest-only monthly payments with a maturity date
of May 1, 2010. (Id. ¶ 112.) Peckville did not pay off
the loan by that date. (Id.) On May 6, 2010, Parke
Bank sent a letter to Peckville advising that its note
would automatically renew for one year, establishing
a new maturity date of May 1, 2011, and assessing an
“Extension Fee” of $52,000 against Peckville. (Id. ¶
113.) On May 26, 2011, Parke Bank mailed a “Loan
Extension Agreement,” this time requesting
Peckville’s consent to extend the maturity date on its
loan to August 1, 2011, in exchange for payment of
fees totaling $77,000 and Peckville’s agreement to
convert its monthly payments to a fixed principal and

29a
interest payment totaling $38,289.09. (Id. ¶ 114.)
Even though Peckville never signed the Loan
Extension Agreement, Parke Bank charged the
$77,000 late fee and proceeded to collect the principal
plus interest payment. (Id.) In September 2011,
Pantilione and/or Gallo requested that Peckville
voluntarily agree to direct its tenants to pay their
monthly rent into a lockbox controlled by Parke Bank,
and Spaeder agreed to the request. (Id. ¶ 115.)
Subsequent Loan Modification Agreements that were
mailed to Peckville “C/O Bruce Earle” were not
provided by Earle to the partners of Peckville and
were never signed. (Id. ¶ 116.) Therefore, Parke Bank
continued to charge a monthly principal and interest
payment to Peckville based on the unsigned and
unapproved Loan Extension Agreement. (Id.)
By consent order dated February 12, 2013, Parke
Bank became the mortgagee-in-possession of the
Peckville property. (Id. ¶ 117.) Rather, than hire a
professional management company to collect rent,
Parke Bank simply picked up payments in its lockbox.
Parke Bank failed to collect over $400,000 in rent,
pass through costs, and other fees. (Id. ¶ 118.)
On at least two occasions in 2011, Parke Bank
assessed Peckville with “Late Charges” of $99,999.99
each. On both occasions, the Late Charge was waived
by Parke Bank without Peckville ever receiving notice
of the assessment. (Id. ¶¶ 119–20.)
D. The Rhoads Avenue Partnership
In October 2011, Parke Bank was allegedly under
scrutiny by the FDIC concerning the severe undercollateralization of Pottstown. (Id. ¶ 123.) Pantilione
advised Spaeder that Pottstown must immediately
either present additional collateral for the Pottstown

30a
loan to cover the collateral shortfall, or Parke Bank
would have to “charge off” $5,000,000, forcing the
Pottstown loan into default. (Id. ¶ 124.) Pantilione
suggested the additional collateral should come from
Rhoads Avenue, which did not have any outstanding
loans or prior dealings with Parke Bank. (Id. ¶ 125.)
Pantilione promised he would not record or perfect
any security instruments, or use any such additional
collateral. Rather, he simply wanted to show the
additional collateral to the FDIC examiners. (Id. ¶
126.)
On October 25, 2011, Parke Bank’s attorney
circulated draft security instruments to Spaeder, on
behalf of Rhoads Avenue, which included a leasehold
mortgage, assignment of rents, and guaranty
agreement
(the
“Rhoads-Pottstown
Security
Agreements”). (Id. ¶ 127.) At the time these
Agreements were requested, Pantilione was aware
that Rhoads Avenue’s underlying ground lease and
sublease with subtenant Eckerd Corporation was not
recorded, Eckerd was not yet due to pay any rent,
construction on the property was not underway, and
Rhoads Avenue had not yet obtained state and local
approvals to develop the property. (Id. ¶ 128.) Relying
on Pantilione’s representations that Parke Bank
would never use the Rhoads-Pottstown Security
Agreements, Rhoads Avenue executed these
Agreements and delivered them to Pantilione, who
presented them to the FDIC. (Id. ¶¶ 129–31.)
Contrary to his representations, however, Pantilione
caused each of the Agreements to be recorded in
Delaware County, and Parke Bank subsequently used
them to secure a judgment by confession against
Rhoads Avenue. (Id. ¶ 132.)

31a
E. The Shea Line of Credit
Before Shea executed any guaranty of the Shea
line of credit, Parke Bank represented that $2,350,000
of the $5,000,000 available through the Shea LOC
would be deposited into the Lionville, Pottstown, and
Peckville accounts to serve as additional cash
collateral. (Id. ¶ 134.) Ultimately, however, none of
the funds went to these Partnerships’ accounts,
notwithstanding the fact that Parke Bank’s records
reflected a pay out of all $5,000,000 available. (Id. ¶
135.)
On at least six occasions from 2009 to 2011, Parke
Bank assessed Shea, via the Shea LOC, with “late
charges” of $99,999.99 each. (Id. ¶ 138.) On three
other occasions in 2012, Parke Bank assessed
additional late charges in varying amounts, all just
under $78,000. (Id. ¶ 141.) The late charge of March
9, 2012 was “waived” by Parke Bank four days after it
was issued, but the other two were not waived,
allowing Parke Bank to collect in excess of $155,000
from these late charges.
VIII. Procedural History
Plaintiffs originally filed this lawsuit on June 19,
2015. I dismissed most of the claims without prejudice
and granted Plaintiffs leave to amend their
Complaint. 5 Devon Drive Lionville, L.P., et al. v.
Parke Bancorp, Inc., et al., No. 15-3435, 2016 WL
475816 (E.D. Pa. Dec. 29, 2016). Plaintiffs then filed
an Amended Complaint against Defendants Parke
Bank, Pantilione, and Gallo on January 30, 2017,
setting forth six counts as follows: (1) conduct and
5
The only remaining claim after my ruling was the conversion
cause of action by Lionville, Pottstown, and Peckville.

32a
participation in an enterprise through a pattern of
racketeering activity in violation of the Racketeer
Influenced and Corrupt Organizations Act (“RICO”),
18 U.S.C. § 1962(c); (2) acquisition and maintenance
of an interest in and control of an enterprise engaged
in a pattern of racketeering activity in violation of
RICO; (3) conspiracy to engage in a pattern of
racketeering activity in violation of RICO; (4) common
law fraud; (5) conversion; and (6) civil conspiracy. 6
On March 17, 2017, Defendants filed the Motion to
Dismiss the Amended Complaint currently at issue
and an accompanying Motion for Order to Take
Judicial Notice. Plaintiffs responded to both Motions
on May 3, 2017.
DEFENDANTS’ MOTION TO TAKE
JUDICIAL NOTICE
Defendants request that I take judicial notice of
certain adjudicative facts in the form of judgments,
decisions, settlement agreements, and pleadings in
state court proceedings, as well as publicly-filed
documents including a mortgage and security
agreement and an assignment of rents. According to
Defendants, these documents establish a basis for
dismissal of Plaintiff’s substantive claims under a res
judicata defense. Upon consideration of both parties’
briefs, as well as their briefs filed in connection with
the prior Motion to Take Judicial Notice, I will grant
the Motion and take judicial notice of all of Exhibits
A–O attached to the Motion.
Federal Rule of Evidence 201(b) permits a district
court to take judicial notice of facts that are “not
6
Notably, in the Amended Complaint, two of the
partnerships—VG West Chester Pike, L.P. and 1301 Phoenix,
L.P.—dropped out as Plaintiffs.

33a
subject to reasonable dispute” in that they are either
(1) “generally known within the territorial jurisdiction
of the trial court” or (2) “can be accurately and readily
determined from sources whose accuracy cannot
reasonably be questioned.” Fed. R. Evid. 201(b). The
United States Court of Appeals for the Third Circuit
has instructed that judicial notice “should be done
sparingly at the pleadings stage” and “[o]nly in the
clearest of cases.” Victaulic Co. v. Tieman, 499 F.3d
227, 236 (3d Cir. 2007). Thus, judicial notice is
improper if a legitimate question exists as to the
underlying source of the information. In re
Synchronoss Secs. Litig., 705 F. Supp. 2d 367, 390
(D.N.J. 2010) (citing Hinton v. Dep’t of Justice, 844
F.2d 126 (3d Cir. 1988)); see also Oneida Indian
Nation of New York v. State of N.Y., 691 F.2d 1070 (2d
Cir. 1982)). Nonetheless, Rule 201(c)(2) requires that
a district court take judicial notice “if requested by a
party and supplied with the necessary information.”
Fed. R. Evid. 201(c)(2); see also Gilliam v. Holt, No.
07-359, 2008 WL 906479, at *3 (M.D. Pa. Mar. 31,
2008) (“Judicial notice is mandatory only where a
party requests that it be taken and supplies the
necessary information.”).
Questions of judicial notice under Rule 201(c)(2)
often arise when, like in the case before me, a party
puts forth the defense of res judicata, also known as
claim preclusion. Where the defense of res judicata is
raised for adjudication on a motion to dismiss, the
court can take notice of all facts necessary for the
decision and adjudicate that defense. Toscano v. Conn.
Gen. Life Ins. Co., 288 F. App’x 36, 38 (3d Cir. 2008).
“Specifically, a court may take judicial notice of the
record from a previous court proceeding between the
parties.” Id. (citing Oneida Motor Freight, Inc. v.

34a
United Jersey Bank, 848 F.2d 414, 416 n.3 (3d Cir.
1988)).
More recently, the Third Circuit has emphasized
that “[i]n the context of deciding a Rule 12(b)(6)
motion that raises [res judicata] concerns, and where
a plaintiff has not included the existence or substance
of the prior adjudications in the body of, or
attachments to, its complaint, it is axiomatic that a
court must still consider the prior adjudication in
order to determine whether [res judicata] bars that
plaintiff’s claims.” M & M Stone Co. v. Pa., 388 F.
App’x 156, 162 (3d Cir. 2010). Thus, “a prior judicial
opinion constitutes a public record of which a court
may take judicial notice.” Id.; see also Lewis v.
O’Donnell, 674 F. App’x 234, 237 (3d Cir. 2017)
(reviewing complaint and state court documents
submitted by the defendants with their motion to
dismiss to affirm district court’s finding of res
judicata). The same holds true for a judiciallyapproved settlement. See Karatzas v. Mass Mut. Fin.
Grp., No. 16-1302, 2016 WL 6953421, at *2 (D.N.J.
Nov. 28, 2016) (taking judicial notice of a judiciallyapproved settlement).
And as pertinent here, the Third Circuit has
expressly noted that a court may take judicial notice
of public records, such as publicly recorded deeds.
Gagliardi v. Kratzenberg, 188 F. App’x 86, 89 (3d Cir.
2006); see also Sarsfield v. Citimortgage, Inc., 707 F.
Supp. 2d 546, 559 n.2 (M.D. Pa. 2010) (finding it
proper to consider the mortgage between the parties
because it was recorded in the County Recorder of
Deeds and, therefore, was a matter of public record
that could be considered by the court in deciding a
Rule 12(b)(6) motion).

35a
Defendants’ original Motion to Dismiss the first
complaint was granted primarily because of pleading
defects. Devon Drive Lionville, 2016 WL 7475816. In
that motion, Defendants also requested that I take
judicial notice of various judgments, decisions,
pleadings, dockets, settlements, and releases from the
various prior court proceedings for purposes of their
res judicata and collateral estoppel defenses.
Plaintiffs responded, and I agreed, that it would be
improper to consider the documents “cherry-picked”
by Defendants without a more complete and accurate
record of the prior court proceedings. Id. at *5–6.
Rather than conduct an extensive judicial notice/res
judicata analysis, I instead granted Defendants’
motion to dismiss without prejudice to replead with
sufficient facts. 7
In my previous Opinion denying the Motion to Take Judicial
Notice, I relied in part upon Victaulic Co. v. Tieman, 499 F.3d
227 (3d Cir. 2007), which stated that judicial notice should be
done sparingly at the pleading stage. Id. at 236. Upon further
consideration, I now conclude that such reliance was perhaps in
error. The Third Circuit’s refusal to affirm the District Court’s
use of judicial notice in Victaulic is distinguishable from the
situation here. In that matter, the District Court took judicial
notice of the plaintiff’s website to establish certain facts about
the company’s business and then used the “facts” from that
corporate website to draw inferences against the non-moving
party and find that the company’s covenant not to compete was
reasonable and protected legitimate confidential information. Id.
at 236. The Third Circuit found that the District Court had
improperly taken notice of the company’s unauthenticated
marketing material to resolve an inherently factual affirmative
defense. Id. Unlike the present case, Victaulic did not address
taking judicial notice of prior judicial proceedings for purposes of
addressing a res judicata defense.
7

I also relied on Kaiser v. Steward, No. 96-6643, 1997 WL
476455 (E.D. Pa. Aug. 19, 1997). There, the court declined to
consider the defendants’ argument that the plaintiff’s RICO

36a
Defendants’ current Motion to Dismiss the
Amended Complaint again presents a set of
documents from state court records, which
Defendants urge are proper for judicial notice. 8 I now
conclude that judicial notice is proper as to all of the
exhibits attached to Defendants’ Motion to Take
Judicial Notice.
First, Exhibits A to M of Defendants’ Motion to
Dismiss comprise part of a public judicial record in
state court. As set forth above, when deciding a motion
to dismiss based on res judicata, the court may take
judicial notice of the record from a previous court
proceeding between the parties. Toscano, 288 F. App’x
at 38; see also Jones v. Gemalto Inc., No. 15-0673,
2015 WL 3948108, at *5 (E.D. Pa. June 29, 2015).
claims were “barred by reason of a prior binding release, or
collateral estoppel as well as res judicata.” Id. at *21 n.28. The
court reasoned that the documents relied upon were outside the
complaint and outside the public record, and therefore could not
be considered unless the motion was converted into one for
summary judgment. Id. The present case is distinguishable as
the state court records at issue here are within the public record
and may unequivocally be considered without converting the
motion to dismiss into one for summary judgment.
8
Plaintiffs argue that both Defendants’ Motion to Take
Judicial Notice and their res judicata argument raised in the new
Motion to Dismiss, are nothing more than motions to reconsider
my prior denial of the Motion to Take Judicial Notice. I disagree.
In my December 29, 2016 decision, I never considered the merits
of the res judicata defense. Rather, I dismissed without prejudice
almost all of the claims of the Complaint under Rule 12(b)(6), and
gave Plaintiffs leave to file an Amended Complaint. At that
juncture, Defendants could not have filed a motion for
reconsideration as the original Complaint had been dismissed.
The subsequent filing of the Amended Complaint triggered the
submission of a new pleading on which Defendants were entitled
to re-raise their res judicata arguments.

37a
Accordingly, I will take judicial notice of these
exhibits. 9
With respect to Exhibits N and O, I also find that
they are entitled to judicial notice and may be
considered with respect to the res judicata defense. As
both of these exhibits were recorded with the
Delaware County Recorder of Deeds, they are matters
of public record proper for judicial notice and
consideration with respect to the Motion to Dismiss.
In granting the Motion to Take Judicial Notice, I
emphasize that such notice “serves only to indicate
what was in the public realm at the time, not whether
the contents of those documents are true.” U.S. ex rel.
Spay v. CVS Caremark Corp., 913 F. Supp. 2d 125,
139–40 (E.D. Pa. 2012) (citing Benak ex rel. Alliance
Premier Growth Fund v. Alliance Capital Mgmt., L.P.,
435 F.3d 396, 401 n.15 (3d Cir. 2006); DCIPA, LLC v.
Lucile Slater Packard Children’s Hosp. at Stanford,
868 F. Supp. 2d 1042, 1048 (D. Or. 2011) (“[T]aking
judicial notice of certain documents does not
demonstrate the truth of everything contained in
those records, and, as such, the truthfulness and
proper interpretation of the document are
disputable.”)). With that caveat in mind, I will
In their Motion, Defendants argue that judicial notice is not
required because Plaintiffs affirmatively plead the existence of
these state court records in their Amended Complaint.
Defendants are correct that when deciding a motion to dismiss,
a court may consider a document “integral to or explicitly relied
upon in the complaint.” In re Burlington Coat Factory Secs.
Litig., 114 F.3d 1410, 1426 (3d Cir. 1997); see also In re NAHC,
Inc. Secs. Litig., 306 F.3d 1314, 1331 (3d Cir. 2015). The
Amended Complaint in this case does explicitly reference many
of the state court judgments and pleadings at issue. Because I
find that judicial notice of the documents is proper, I need not
definitively address this argument.
9

38a
consider these documents in ruling on the pending
Motion to Dismiss.
MOTION TO DISMISS
I. Standard of Review
Under Federal Rule of Civil Procedure 12(b)(6), a
defendant bears the burden of demonstrating that the
plaintiff has not stated a claim upon which relief can
be granted. Fed. R. Civ. P. 12(b)(6); see also Hedges v.
United States, 404 F.3d 744, 750 (3d Cir. 2005). The
United States Supreme Court has recognized that “a
plaintiff’s obligation to provide the ‘grounds’ of his
‘entitle[ment] to relief’ requires more than labels and
conclusions.” Bell Atl. Corp. v. Twombly, 550 U.S. 544,
555 (2007) (quotations omitted). “[T]hreadbare
recitals of the elements of a cause of action, supported
by mere conclusory statements, do not suffice” and
“only a complaint that states a plausible claim for
relief survives a motion to dismiss.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). “A claim has facial
plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct
alleged.” Id. A complaint does not show an entitlement
to relief when the well-pleaded facts do not permit the
court to infer more than the mere possibility of
misconduct. Id.
The United States Court of Appeals for the Third
Circuit has detailed a three-step process to determine
whether a complaint meets the pleadings standard.
Bistrian v. Levi, 696 F.3d 352 (3d Cir. 2014). First, the
court outlines the elements a plaintiff must plead to
state a claim for relief. Id. at 365. Next, the court must
“peel away those allegations that are no more than
conclusions and thus not entitled to the assumption of

39a
truth.” Id. Finally, the court “look[s] for well-pled
factual allegations, assume[s] their veracity, and then
‘determine[s] whether they plausibly give rise to an
entitlement to relief.’” Id. (quoting Iqbal, 556 U.S. at
679). The last step is “a context-specific task that
requires the reviewing court to draw on its judicial
experience and common sense.” Id. (quoting Iqbal, 556
U.S. at 679).
Claims of fraud, either standing alone or as
predicate acts for a RICO claim, are subject to the
heightened requirements of Federal Rule of Civil
Procedure 9(b). Warden v. McLelland 288 F.3d 105,
114 n.6 (3d Cir. 2002). “In all averments of fraud or
mistake, the circumstances constituting fraud or
mistake shall be stated with particularity.” Fed. R.
Civ. P. 9(b). In order to satisfy Rule 9(b), “a plaintiff
alleging fraud must state the circumstances of the
alleged fraud with sufficient particularity to place the
defendant on notice of the ‘precise misconduct with
which [it is] charged.’” Frederico v. Home Depot, 507
F.3d 188, 200 (3d Cir. 2007) (citation omitted).
Plaintiffs may satisfy this requirement by pleading
the “date, time and place” of the alleged fraud or
“otherwise inject precision or some measure of
substantiation into a fraud allegation.” Id.
II. Res Judicata
Defendants seek dismissal of the entire Amended
Complaint on the grounds of res judicata. Res
judicata, also known as claim preclusion, bars a
subsequent suit where there has been: “(1) a final
judgment on the merits in a prior suit involving (2) the
same claim and (3) the same parties or their privies.”
E.E.O.C. v. U.S. Steel Corp., 921 F.2d 489, 493 (3d Cir.
1990). “The doctrine of res judicata bars not only

40a
claims that were brought in a previous action, but also
claims that could have been brought.” Marmon Coal
Co. v. Dir., Office of Workers’ Comp. Programs, 726
F.3d 387, 394 (3d Cir. 2013). Res judicata “encourages
reliance on judicial decisions, bars vexatious
litigation, and frees the courts to resolve other
disputes.” Brown v. Felsen, 442 U.S. 127, 131 (1979).
Defendants allege that all of the claims raised by
Plaintiffs in the current action were previously
litigated to final, binding dispositions in state court,
meaning that they may not now be relitigated in
federal court. Plaintiffs respond that Defendants have
failed to establish that all of the elements required for
the application of res judicata are present. Addressing
these competing arguments as to each of the
Plaintiffs, I find that res judicata bars the claims of
Pottstown, Peckville, Rhoads Avenue, and Shea, but
does not bar the claims of Lionville and Spaeder.
A. The Pottstown, Peckville, and Rhoads Avenue
Claims
As noted above, Plaintiffs Pottstown, Peckville,
and Rhoads Avenue were all subject to state court
confessed judgments. To analyze the merits of
Defendants’ res judicata argument, I will first review
both the state court proceedings and current federal
claims for each of these Plaintiffs, and then jointly
consider whether the confessed judgments satisfy the
elements of res judicata.
1. Pottstown
a. State Court Proceedings
In late 2012, Parke Bank obtained a confession of
judgment against the Pottstown Partnership on the
loan Parke Bank had extended. (Defs.’ Mot. to

41a
Dismiss, Ex. A.) Immediately thereafter, Pottstown
filed a petition to strike off and/or open judgment by
confession. (Defs.’ Mot. to Dismiss, Ex. D.) There,
Pottstown explicitly argued that the confessed
judgment should be opened because Parke Bank
misapplied loan proceeds and income, thereby casting
serious doubt on both the amount and validity of the
outstanding debt. (Id. ¶ 43.) The Pottstown petition
went on to enumerate how Parke’s administration of
Pottstown’s loan was “fraught with error, ignorance,
and potential fraud,” and was done “in a manner
designed to artificially inflate the balance on the
North Charlotte Loan.” (Id. ¶ 57.) In particular,
Pottstown alleged that:
• The terms of the loan required that the budget
on each project be balanced and that there be
sufficient financing to complete the project
before the Bank would make advances. Parke
Bank failed, however, to inspect and monitor
the projects before making advances on the
loans, and advanced far more money than was
needed to finance renovations of the property
for which the loan was made. (Id. ¶¶ 16–19.)
• Parke Bank misapplied funds and failed to
provide any disclosure to [Pottstown] regarding
the details of the Interest Reserve or Equity
Reserve accounts. The Bank appears to have
failed to apply rents from the Premises as
required. The Bank also failed to apply
$150,000 in funds from the John Shea Loan to
the [Pottstown] loan as necessary. (Id. ¶ 50.)
• Between October of 2011 and June 2012, Parke
Bank applied, without authority, Pottstown’s
rent collections to other loans and/or

42a
transferred to other accounts for non-Pottstown
loans. (Id. ¶ 62.)
• Parke Bank failed to apply funds from its loan
to John Shea to the Pottsville loan in the
manner required by the loan documents. (Id. ¶
64.)
On June 18, 2013, upon consideration of these
arguments, the state court declined to open the
confession of judgment. (Defs.’ Mot. to Dismiss, Ex. A.)
b. Federal Court Claims
Similar to the petition to reopen the confessed
judgment, the federal RICO claims and state law
claims of fraud, conversion, and civil conspiracy in the
federal Amended Complaint are premised on the
assertion that, in March 2008, Pottstown secured an
$8,000,000 loan from Parke Bank. Just months after
the loan closed, Parke Bank began to unilaterally
initiate wire transfers of Pottstown Partnership funds
to Rosedon Holding and other Parke Bank accounts,
amounting to at least twenty-one wire transfers
occurring through as late as August 8, 2013. In
addition, although Parke Bank, through Gallo, was
tasked with inspecting, approving, and then releasing
construction draws to pay approved work invoiced,
Parke Bank allegedly authorized the release of
Pottstown construction draw funds without
authorization from Pottstown. During 2010 and 2011,
additional funds were provided to Rosedon Holding or
Parke Bank by payment approved by Parke Bank on
forged or unsigned checks from Pottstown’s accounts.
Finally, Parke Bank allegedly directed Pottstown’s
tenants to send future rent payments to a Parke Bank
lockbox.

43a
2. Peckville
a. State Court Proceedings
Parke Bank confessed judgment against Peckville
on December 14, 2012 in the Court of Common Pleas
for Delaware County. (Defs.’ Mot. to Dismiss, Ex. B.)
Peckville responded with a petition to strike off and/or
open judgment by confession, which was substantially
similar to the one filed regarding the Pottsville loan.
(Defs.’ Mot. to Dismiss, Ex. E.) Peckville argued that
Parke Bank “misapplied loan proceeds and income in
an improper manner” and applied funds received
towards Peckville’s loan to other loans and other
individuals, “leaving Peckville liable for a greater
amount than it should have been.” (Id. ¶¶ 1, 47–50.)
The petition further alleged that despite the fact that
loan documents provided that Bruce Earle was the
sole individual who could obtain financing or enter
into loan agreements on behalf of Peckville, a business
acquaintance of Spaeder named Joseph Sweeney
executed the loan agreements. (Id. ¶¶ 31–36.) In
addition, both Sweeney and his wife, neither of whom
had any connection to Peckville or benefitted
therefrom, personally guaranteed the $5.2 million
dollar loan. (Id. ¶¶ 37–40.)
The state court denied this petition on June 18,
2013. (Defs.’ Mot. to Dismiss, Ex. B.)
b. Federal Court Claims
Like the state court petition, the federal RICO
claims and state law claims of fraud, conversion, and
civil conspiracy in the federal Amended Complaint are
premised on the assertion that Peckville received a
loan from Parke Bank in the amount of $5,200,000 in
connection with its acquisition of an existing shopping
center located on Main Street in Peckville, PA on May

44a
1, 2008. As it did with the other Partnerships, Parke
Bank began wire transferring Peckville’s funds to
Rosedon Holding. The federal suit alleges that none of
the transfers were properly authorized by Peckville.
Additionally, over the course of approximately three
months during 2011, the Amended Complaint alleges
that Parke Bank authorized payment to Rosedon
Holding on six unsigned or fraudulently executed
checks drawn against the Peckville account, through
which Rosedon Holding converted a total of $56,400
from Peckville.
Parke Bank also allegedly engaged in a unilateral
modification of Peckville’s loan terms. In September
2011, Pantilione and/or Gallo requested that Peckville
voluntarily agree to direct its tenants to pay their
monthly rent into a lockbox controlled by Parke Bank,
and Spaeder agreed to the request. Parke Bank
purportedly failed to collect over $400,000 in rent and
fees, and improperly assessed Peckville with “Late
Charges” of $99,999.99 each.
3. Rhoads Avenue Partnership
a. State Court Proceedings
On July 29, 2013, Parke Bank confessed judgment
in state court against Rhoads Avenue on its guaranty
of the $8,000,000 Pottstown loan. (Defs.’ Mot. to
Dismiss, Ex. C.) On November 7, 2014, Rhoads
Avenue filed a petition to strike or open the judgment.
(Id., Ex. F.) In that petition, Rhoads Avenue alleged
generally that its agreement to execute the guaranty
was void and unenforceable since it was obtained as a
result of Parke Bank’s fraudulent conduct in the use
of funds. (Id.) In support of its petition, Rhoads
Avenue set forth the following allegations:

45a
• Parke Bank, through Pantilione, threatened
that all of Spaeder’s business with Parke Bank
would be at risk if Spaeder did not execute the
Rhoads Avenue documents to provide
additional security for the Pottstown loan, a
loan totally unrelated to any aspect of the
Rhoads Avenue project. (Id. ¶¶ 11–12.)
• Pantilione promised Spaeder that he would
never file the Assignment of Leases or
Leasehold Mortgage or enforce the Guaranty
since he was using them to placate federal
regulators, but Pantilione did so anyway. (Id. ¶
13.)
• Parke Bank collected $800,000 from the lien of
its judgment against Pottstown from another
guarantor of the loan, Rosedon Holding, but
failed to apply the $800,000 to reduce the
amount of the confessed judgment against
Pottstown, and instead applied it to reduce the
balance of an unrelated loan to Earle and
Rosedon Holding. (Id. ¶¶ 18–29.)
• Parke Bank improperly used rent payments
collected from Pottstown’s tenants to pay down
loans other than the Pottstown loan. (Id. ¶¶ 31–
40.)
• Parke Bank was required to lend the
construction loan funds to Pottstown as the
borrower. Parke Bank, however, lent them to
Rosedon Holding, the entity controlled by
Earle. (Id. ¶¶ 41–49.)
• Parke Bank improperly paid tens of thousands
of dollars from Pottstown’s account based on
checks with forged signatures, including in
excess of $185,000 on unsigned checks which

46a
were not submitted for payment by Rhoads
Avenue or Spaeder, but were nonetheless
drawn on the Pottstown account at Parke Bank.
(Id. ¶¶ 50–56.)
• Parke Bank violated the terms of the Pottstown
Construction Loan Agreement by disbursing
construction
funds
even
though
the
Construction Loan Agreement required that
such Construction Loan not be disbursed until
certain requirements were met. (Id. ¶¶ 57–65.)
On February 9, 2015, the Delaware County Court of
Common Pleas granted Parke Bank’s motion to strike
this petition as untimely. (Defs.’ Mot. to Dismiss, Ex.
C.)
Also with respect to Rhoads Avenue, the subtenant
at the PNC Property, Eckerd Corporation, filed an
interpleader action in this Court to resolve competing
claims to rents owed by Eckerd (Rite Aid) under a
sublease between it and Rhoads Avenue. (Eckerd
Corp. v. Rhoads Avenue Newtown Square, LP, No. 134752 (E.D. Pa Aug. 15, 2013).) In response, Rhoads
Avenue filed a cross-claim, again asserting that Parke
Bank,
through
Pantilione,
improperly
and
fraudulently insisted that Rhoads Avenue provide a
leasehold mortgage and assignment of rents relating
to the Pottstown property as additional collateral and
execute a guaranty. (Id., ECF No. 7.) Parke Bank
moved to dismiss the cross-claim on grounds that the
confession of judgment was res judicata of all matters
regarding the execution of the lease assignment and
guarantee. (Mot. to Dismiss, Eckerd Corp., No. 134752, ECF No. 85 (E.D. Pa. Aug. 21, 2014).) I agreed
and dismissed the cross-claim with prejudice. (Id.,
ECF No. 136; Defs.’ Mot. to Dismiss, Ex. J.)

47a
b. Federal Court Claims
The federal RICO claims and state law claims of
fraud, conversion, and civil conspiracy in the federal
Amended Complaint similarly allege that, in October
2011, Pantilione advised Spaeder that Pottstown
must immediately either present additional collateral
for the Pottstown loan, or Parke Bank would have to
charge it $5,000,000. Pantilione purportedly
suggested the additional collateral should come from
Rhoads Avenue, but promised he would not record,
perfect any security instruments for, or use any such
additional collateral. On October 25, 2011, Parke
Bank’s attorney circulated draft security instruments
to Spaeder, on behalf of Rhoads Avenue, which
included a leasehold mortgage, assignment of rents,
and guaranty agreement. Relying on Pantilione’s
representations that Parke Bank would never use the
security agreements, Rhoads executed them and
delivered them to Pantilione. Contrary to his
representations, however, Pantilione caused each of
the Agreements to be recorded in Delaware County,
and Parke Bank subsequently used them to secure a
judgment by confession against Rhoads Avenue.
4. Application of the Res Judicata Elements
As set forth above, a finding of res judicata
requires (1) a final judgment on the merits in a prior
action, (2) involving the same parties or their privies,
and (3) the same claims. E.E.O.C. v. U.S. Steel Corp.,
921 F.2d 489, 493 (3d Cir. 1990). In light of the
underlying similarity between the state court
confession actions against Pottstown, Peckville, and
Rhoads Avenue, and the current federal court claims,
I find that all of the elements of res judicata are
present and that the federal claims are barred.

48a
a. Final Judgment on the Merits
The first factor requires that the prior
proceedings—in this case, the state court confessed
judgments—be final judgments on the merits. A
federal court must give a state court judgment the
same preclusive effect as would be given that
judgment under the law of the state in which it was
rendered. Migra v. Warren City Sch. Dist. Bd. of
Educ., 465 U.S. 75, 83 (1984). “Under Pennsylvania
law, a judgment by confession is a final judgment ‘on
the merits’ which operates as res judicata to bar a
collateral challenge to that judgment or any claim
arising out of the same underlying transaction or
nucleus of events.” Zhang v. Se. Fin. Grp., Inc., 980 F.
Supp. 787, 792 (E.D. Pa. 1997). Res judicata will apply
“where the . . . claims could have been raised in
confession of judgment proceedings through a petition
to open or strike off the judgment entered upon
confession but were, instead, raised in a new action.”
Newton v. First Union Nat’l Bank, 316 F. Supp. 2d
225, 238 (E.D. Pa. 2004) (quotations omitted).
Plaintiffs argue that no “final judgment on the
merits” exists because the state court “summarily
denied” the petitions to reopen with no supporting
opinions regarding the bases for the denials. As a
result, they contend that I cannot discern, for res
judicata purposes, what issues the state court actually
determined.
This argument misunderstands the Pennsylvania
confession process. After a confession of judgment is
entered, a defendant may petition to open or strike the
judgment. Pennsylvania Rule of Civil Procedure 2959
provides that all grounds for relief “whether to strike
off the judgment or to open it must be asserted in a

49a
single petition” and “a party waives all defenses and
objections which he did not include in his petition or
answer.” Pa. R. Civ. P. 2959(a)(2) and (c). “If the party
against whom judgment is confessed pleads prima
facie grounds for relief, the court must open the
judgment, and ‘may grant a stay of proceedings.’”
Resolution Trust Corp. v. W.W. Dev. & Mgmt., Inc., 73
F. 3d 1298, 1308 (3d Cir. 1996) (citing Pa. R. Civ. P.
2959(b)). Testimony, depositions, admissions, or other
evidence may be produced and, if that evidence
creates issues that need to be resolved by a jury, the
court shall open the judgment. Id. at R. 2959(e). Thus,
a confessed judgment and, logically, a denial of a
petition to reopen the confessed judgment “would
necessarily imply a determination that [the defendant
to the confessed judgment] was in default in the stated
amount under a valid and enforceable note.” Stoss v.
Singer Fin. Corp., No. 08-5968, 2010 WL 678115, at
*4 (E.D. Pa. Feb. 24, 2010) (quoting Zhang v. Haven–
Scott Assoc., Inc., No. 95–2126, 1996 WL 355344 at *8
(E.D. Pa. June 21, 1996)).
In this case, Pottstown, Peckville, and Rhoads
Avenue actually raised allegations that challenged
the validity and enforceability of the loan on which the
judgments were based. Had the state court found any
of these allegations to be meritorious, it could have
reopened the judgment. The state court’s refusal to do
so, whether or not accompanied by a written opinion,
constitutes a final and express denial of those
grounds. 10
10
Plaintiffs cite Kauffman v. Moss, 420 F.2d 1270 (3d Cir.
1970) for the proposition that “[r]easonable doubt as to what was
decided by a prior judgment should be resolved against using it
as an estoppel.” Id. at 1274. That case involved the
distinguishable question of when litigation of a question in a civil

50a
Plaintiffs argue that the Rhoads Avenue petition
was stricken as untimely and, therefore, the state
court’s decision does not constitute a final judgment
on the merits. However, it is not the state court
decision striking the petition which constitutes res
judicata; rather it is the original confessed judgment
that operates to preclude the federal claim. Collateral
challenges to the loan at issue “could have been
brought” in a petition to reopen. The fact that Rhoads
did not do so in a timely manner does not deprive the
state court’s confessed judgment of the requisite
finality. See Zhang v. Haven-Scott Assocs., Inc., No.
95-2126, 1996 WL 355344, at *7 (E.D. Pa. June 21,
1996) (“A party who fails to petition to open or strike
a confessed judgment is barred by res judicata from
raising in a collateral proceeding any issue she could
have raised as a defense in such a petition.”) (citing
Romah v. Romah, 600 A.2d 978, 981 (Pa. Super. 1991)
(finding that failure to timely petition the trial court
to open or strike off the judgment waives the right to
raise the issues and the party cannot raise the issues
in a collateral proceeding)).
b. Same Parties
Second, the prior suit involved the same parties—
Pottstown, Peckville, or Rhoads Avenue, on one hand,
and Parke Bank, on the other hand. Although
Plaintiffs argue that their claims against individual
defendants Vito Pantilione and Ralph Gallo cannot be
barred because these Defendants were not
individually named in the state court action, “[t]he
suit is barred by a prior criminal trial, noting that the standard
is “whether the question was distinctly put in issue and directly
determined in the criminal prosecution, and issues which were
essential to verdict of guilty must be regarded as having been
determined by the judgment.” Id.

51a
doctrine of res judicata applies to parties where one is
vicariously responsible for the other, such as in an
employer-employee relationship.” Metcalf v. Merrill
Lynch, Pierce, Fenner & Smith, 895 F. Supp. 2d 645,
657 (M.D. Pa. 2012) (citing Turner v. Crawford Square
Apartments III, L.P., 449 F.3d 542, 548 n.11 (3d Cir.
2006); Restatement (Second) of Judgments § 51
(1982)), reversed on other grounds 587 F. App’x 719
(3d Cir. 2014). The Amended Complaint contains no
allegations that Pantilione and Gallo were acting
outside the scope of their employment. To the
contrary, the Amended Complaint repeatedly
emphasizes that their actions were taken entirely on
behalf of Parke Bank. As such, I find Pantilione and
Gallo to be in privity with Parke Bank for purposes of
res judicata.
c. Same Claims
The last element requires that the prior suits
involve the same claims. Making this determination
“does not depend on the specific legal theory invoked,
but rather ‘the essential similarity of the underlying
events giving rise to the various legal claims.’”
Elkadrawy v. Vanguard Grp., Inc., 584 F.3d 169, 173
(3d Cir. 2009) (quoting Davis v. U.S. Steel Supply, 688
F.2d 166, 171 (3d Cir. 1982)) (internal quotations
omitted). In analyzing essential similarity, I am
guided by several factors: (1) whether the acts
complained of and the demand for relief are the same;
(2) whether the theory of recovery is the same; (3)
whether the witnesses and documents necessary at
trial are the same; and (4) whether the material facts
alleged are the same. Blunt v. Lower Merion Sch.
Dist., 767 F.3d 247, 277 (3d Cir. 2014) (quotations
omitted), cert. denied, 135 S. Ct. 1738 (2015). “It is not
dispositive that a plaintiff asserts a different theory of

52a
recovery or seeks different relief in the two actions.”
Id. Moreover, res judicata will “not be defeated by
minor differences of form, parties or allegations”
where the “controlling issues have been resolved in a
prior proceeding in which the present parties had an
opportunity to appear and assert their rights.” Zhang,
1996 WL 355344, at *8 (quoting Helmig v. Rockwell
Mfg. Co., 131 A.2d 622, 627 (Pa. 1957)).
Here, the federal and state law claims raised in the
Amended Complaint by Pottstown, Peckville, and
Rhoads Avenue Partnerships are premised on
allegations that, beginning in 2008, Parke Bank
fraudulently induced the signing of guaranties,
misapplied loan proceeds, cashed bad checks against
the Partnerships’ account, and improperly authorized
the transfer of construction funds from the various
loans to Earle/Rosedon Holding. These allegations
were also at issue in the state court proceedings.
Although these issues were presented as defenses to
the confessed judgments, and while the federal action
raises these issues in the form of a request for
affirmative relief under RICO, the material factual
events and corresponding evidentiary proof
underlying the two proceedings are practically
identical. See Davis v. U.S. Steel Supply, Div. of U.S.
Steel Corp., 688 F.2d 166, 171 (3d Cir. 1982) (“Rather
than resting on the specific legal theory invoked, res
judicata generally is thought to turn on the essential
similarity of the underlying events giving rise to the
various legal claims, although a clear definition of
that requisite similarity has proven elusive.”).
In an effort to refute this conclusion, Plaintiffs
posit two arguments. First, they contend that res
judicata does not apply because Pottstown, Peckville,
and Rhoads Avenue could not raise the claims

53a
asserted in the Amended Complaint as grounds to
open Parke Bank’s confession of judgment. Second,
they contend that some of the predicate acts forming
the basis of their RICO action were not raised in the
petition to open the confession judgment.
The flaw within Plaintiffs’ first argument is
illustrated by Plaintiffs’ misplaced reliance on the
case of Zhang v. Se. Fin. Grp., Inc., No. 95-2126, 1996
WL 355344 (E.D. Pa. June 21, 1996). In Zhang, a
confessed judgment was entered against the plaintiff
on a debt owed to the defendants. Id. at *3. The
plaintiff brought a complaint in federal court alleging,
in part, (a) a RICO claim premised on a scheme to
fraudulently induce persons to purchase services and
sign notes and (b) a Fair Debt Collection Practices Act
(“FDCPA”) claim that defendant used unlawful means
to collect the debt after she failed to pay the amount
due. Id. at *1. In a Rule 12(b)(6) motion to dismiss, the
defendants raised a res judicata defense regarding
only the FDCPA claim, alleging that the plaintiff
never brought that claim in the confession action as a
counterclaim. Id. at *7. Although the court
acknowledged that a judgment by confession is a final
judgment on the merits that can act as a res judicata
bar on a collateral challenge to that judgment, the
court held that res judicata was not applicable
because there was no identity of issues between the
confession action and the FDCPA claim. Id. at *8. The
court reasoned that, in the confession action, the
plaintiff could only have raised claims that would
nullify or call into question the validity of the debt on
which the confessed judgment is entered. Id. By
contrast, the FDCPA claim attacked the methods by
which the defendants attempted to collect the debt. Id.

54a
During the subsequent summary judgment
proceedings, however, the defendants raised a new res
judicata defense, this time alleging that the plaintiff’s
RICO and fraudulent inducement claims were barred
by the confession of judgment in the state courts.
Zhang v. Se. Fin. Grp., Inc., 980 F. Supp. 787, 792
(E.D. Pa. 1997). The court found that both the fraud
in the inducement and the RICO claim challenged the
validity of the debt and were grounds to open the
confessed judgment. Id. at 795. As such, plaintiff was
barred by res judicata from re-asserting those claims
in federal court. Id. (citing Klecha v. Bear, 712 F.
Supp. 44, 47 (M.D. Pa. 1999) (res judicata effect of
confessed judgment bars claim based on fraud in the
inducement); Kravinsky v. Wolk, No. 86-4820, 1988
WL 84748, at *1 (E.D. Pa. Aug. 11, 1988) (res judicata
effect of denial of petition to open confessed judgment
bars RICO claim based on fraud), aff’d, 869 F.2d 589
(3d Cir. 1989)) (further citations omitted). 11

Plaintiffs’ other citations are also inapposite. In Riverside
Memorial Mausoleum, Inc. v. UMET Trust, 581 F.2d 62 (3d Cir.
1978), the Third Circuit simply found that “Pennsylvania
practice does not permit the filing of a counterclaim for an
unliquidated amount in a petition to open a judgment if the
counterclaim is not directly related to the cause of action on
which the plaintiff’s judgment has been entered.” Id. at 68. That
case did not address the situation where a claim has or could
have been raised as a ground to open the confessed judgment.
Similarly, in Hopewell Estates, Inc. v. Kent, 646 A.2d 1192 (Pa.
Super. Ct. 1994), the court acknowledged that claims that are
grounds to open a confessed judgment may subsequently be
barred by res judicata. Id. at 1194. It found, however, that the
appellant’s claim for professional malpractice could not have
been litigated as a part of the proceedings to open the judgment
confessed against appellant for professional fees owed pursuant
to contract. Id. at 1195.
11

55a
Here, Parke Bank confessed judgment against
Pottstown, Peckville, and Rhoads Avenue for
defaulting on their loans. In their petitions to reopen,
these partnerships specifically asserted that Parke
Bank mishandled and misappropriated funds,
violated loan agreements, and disbursed funds on
fraudulent checks. These allegations directly
challenged the validity of the confessed judgment.
They were not, as Plaintiffs urge, collateral actions for
unliquidated amounts unrelated to the validity of the
confessed judgment. The mere fact that Plaintiffs now
couch these assertions in the form of RICO claims does
not undermine the prior state court determinations.
See Riverside, 581 F.2d at 67 (“[T]he common pleas
court adjudicated the validity of the judgment note
and its consideration in favor of [the broker].
[Plaintiffs] cannot evade that finding by simply
adding allegations of conspiracy to the very same
activity passed upon the state court.”).
Plaintiffs’ second argument fares no better. They
contend that Pottstown and Peckville did not put
before the state court several of the predicate acts
underlying their RICO claims and, as such, not all of
their claims were decided. 12 Res judicata, however,
“prevents litigation of all grounds for, or defenses to,
recovery that were previously available to the parties,
regardless of whether they were asserted or
determined in the prior proceeding.” Brown v. Felsen,
442 U.S. 127, 131 (1979); see also CoreStates Bank,
12
Specifically, Plaintiffs argue that Pottstown did not allege
in state court that Parke Bank gave a lockbox directive to
Pottstown’s tenants, causing Bottom Dollar to cancel its lease.
Moreover, Peckville did not argue in state court that Parke Bank
unilaterally imposed and collected more onerous monthly loan
payments, along with loan extension and late fees from Peckville.

56a
N.A. v. Huls America, Inc., 176 F.3d 187, 194 (3d Cir.
1999). Merely alleging several new and discrete
events in support of a claim in a subsequent
adjudication does not extinguish the res judicata
effect since “[a] claim extinguished by res judicata
includes all rights of the plaintiff to remedies against
the defendant with respect to all or any part of the
transaction, or series of connected transactions, out of
which the action arose.” Blunt v. Lower Merion Sch.
Dist., 767 F.3d 247, 277 (3d Cir. 2014) (emphasis in
original) (internal quotation marks omitted).
As noted several times above, in the state court,
Plaintiffs challenged the validity of the confessed
judgments based on Parke Bank’s mishandling of loan
proceeds and violation of loan agreements. In federal
court, Plaintiffs now allege that these same actions
constitute a pattern of racketeering in violation of
RICO. But the fact that some of the predicate acts set
forth in support of the RICO claim were not
specifically alleged in state court—although they
could have been—does not deprive the state court
judgment of preclusive effect.
5. Whether the Doctrines of Adverse
Domination and Fraudulent Concealment
Preclude Application of Res Judicata
In a final effort to avoid the application of res
judicata to Pottstown, Peckville, and Rhoads Avenue,
Plaintiffs contend that, even assuming all of the
elements of res judicata are met, the defense fails
under the doctrines of adverse domination and
fraudulent concealment. Plaintiffs reason that when
Parke Bank entered the confessions of judgment, all
of the Partnerships were under the exclusive control
of Parke Bank’s co-conspirator Earle, who was

57a
actively trying to conceal the activities of the
racketeering enterprise. 13 As such, it was Earle who
(a) responded to Parke Bank’s confessions of judgment
against Pottstown and Peckville on January 25, 2013,
and (b) failed to file a timely petition to reopen the
confession of judgment against Rhoads Avenue.
Plaintiffs now contend that Earle’s adverse
domination and fraudulent concealment preclude a
res judicata bar.
These doctrines do not apply to the case before me.
“Under the doctrine of adverse domination, the
statute of limitations is tolled for as long as a
corporate plaintiff is controlled by the alleged
wrongdoers.” Resolution Trust Corp. v. Farmer, 865 F.
Supp. 1143, 1151 (E.D. Pa. 1994) (citing 3A Fletcher
Cyclopedia § 1306.20)). “The doctrine is based on the
theory that the corporation which can only act
through the controlling wrongdoers cannot reasonably
be expected to pursue a claim which it has against
them until they are no longer in control.” 14 Id. The
doctrine of fraudulent concealment serves to toll the
statute of limitations where the wrongdoer has taken
some step to deceive, either intentionally or
unintentionally, so that the plaintiff is not aware of
the injury until after the statute of limitations has
By order dated August 16, 2012, the state court prohibited
Spaeder from having any involvement in the Partnerships and
granted Earle, doing business as Rosedon Holding, exclusive
control. (Pls.’ Resp. Opp’n, ECF No. 20, Ex. 11.)
13

Although Pennsylvania courts have not explicitly adopted
this theory, federal courts have found that the adverse
domination theory is applicable to equitably toll the statute of
limitations for a cause of action based upon Pennsylvania state
law claims. In re O.E.M./Erie, Inc., 405 B.R. 779, 785–86 (W.D.
Pa. 2009).
14

58a
lapsed. Id. Importantly, in both cases, the doctrines
serve as a basis for equitable tolling to excuse
untimely filings.
In the present case, Plaintiffs face no statute of
limitations issues with respect to either Pottstown or
Peckville. To the contrary, Plaintiffs actually filed
petitions to open the confessed judgments against
Pottstown and Peckville in state court and specifically
and timely set forth claims of fraudulent activity by
Parke Bank. Plaintiffs do not cite, and I cannot locate,
any cases where adverse domination and fraudulent
concealment were applied outside the tolling context
to preclude a finding of res judicata. 15
To the extent that Plaintiffs contend that the
doctrines of adverse domination and fraudulent
concealment should excuse Earle’s failure to file a
timely petition to reopen the confession of judgment
against Rhoads Avenue, I have already considered
Plaintiffs rely on the case of FDIC v. Bird, 516 F. Supp. 647
(D.P.R. 1981), which held that “a cause of action does not accrue
while the culpable directors remain in control of the bank.” Id. at
651. In so ruling, the court exhibited “an implicit appreciation of
the realities of the shareholders’ position, that, without
knowledge of wrongful activities committed by directors,
shareholders have no meaningful opportunity to bring suit.” Id.
Plaintiffs urge that this same reasoning should apply in this case
where the partnerships did not have a meaningful opportunity to
assert the relevant claims against Parke Bank while Earle was
in control.
15

Putting aside the factual dispute of whether Earle was
actually in control of the Partnerships at the time of the
confessed judgments, Plaintiffs’ argument still misses one crucial
point. The Partnerships knew of the alleged wrongdoing and
actually filed petitions to reopen the confessed judgment on the
basis of fraud and breach of fiduciary duty. Unlike the situation
in Bird, Plaintiffs here raised the relevant claims now barred by
res judicata.

59a
and rejected this argument. As noted above, one of
Rhoads Avenue’s tenants, Eckerd, filed an
interpleader action on August 15, 2013 to determine
who should receive its rent payments. Rhoads Avenue
filed a cross-claim against Parke Bank alleging, in
part, that Parke fraudulently induced Rhoads Avenue
into signing the Parke loan documents. Parke Bank
moved to dismiss, contending that the confessed
judgment operated as a bar to Rhoads Avenue’s crossclaim. In its response—filed at the time when
Plaintiffs had control over the partnerships and had
already settled with Earle—Rhoads Avenue did not
argue that its untimely petition resulted from the fact
that Earle was in control of Rhoads Avenue. Rather,
it contended that it was precluded from filing its
petition because of (a) defective service and (b) an
alleged inability to raise invalidity issues in the
confession action. In an opinion issued on August 4,
2015, I rejected both of those arguments and found
that Rhoads Avenue’s failure to file a petition to
reopen the judgment barred it from asserting that the
guaranty, assignment and mortgage were procured by
fraud or were not properly recorded in the action.
(Defs.’ Mot. to Dismiss, Ex. J.)
Having lost on their previous efforts to explain
away their untimely petition, Plaintiffs may not now
get a second bite at the apple and offer the alternate
argument that their failure to timely file a petition to
reopen the confessed judgment was a result of Earle’s
control of Rhoads Avenue.
5. Conclusion as to Pottstown, Peckville, and
Rhoads Avenue
In light of the foregoing, I find that all of the claims
by Plaintiffs Pottstown, Peckville, and Rhoads Avenue

60a
in the Amended Complaint were raised and rejected,
or could have been raised, in their petitions to reopen
the confessions of judgment in state court.
Accordingly, I conclude that the doctrine of res
judicata applies and I will dismiss their claims with
prejudice.
B. Shea’s Claim
1. State Court Proceedings
On August 1, 2013, Parke Bank filed a Complaint
in Delaware County Court of Common Pleas against
Shea because he defaulted under the Shea LOC.
(Defs.’ Mot. to Dismiss, Ex. G.) In his Third Amended
Answer and New Matter, Shea made the following
claims:
• On October 23, 2008, Shea was told by a
business associate, Earle, that Earle and his
entities wanted to borrow money from Parke
Bank, but due to federal lending limits, Parke
Bank could not lend the money. (Def.’s Mot. to
Dismiss, Ex. I, ¶¶ 16–17.)
• Earle asked Shea to sign the loan papers, but
stated that Shea would have no liability
because the loan would be fully collateralized
by Earle’s property. (Id. ¶ 18.)
• Shea agreed and, on October 23, 2008, Earle
picked up Shea and drove him to Parke Bank.
Shea spent about one-half hour there and the
only person who saw him or spoke to him was a
person named “Dee.” (Id. ¶¶ 20–21.)
• Shea did not read any of the documents and
was never asked by anyone at the Bank why he
was signing the loan documents, or what he
believed the loan was for. (Id. ¶¶ 22, 24.) Nor

61a
was he asked by the Bank to provide any
financial statements, tax returns, or other proof
of worth. (Id. ¶ 25.)
• After he signed the documents, Shea got back
in Earle’s car and was driven home. (Id. ¶ 26.)
• Shea never received any of the loan proceeds.
(Id. ¶ 27.)
On January 20, 2015, the state court entered a
default judgment in favor of Parke Bank and
scheduled a damages hearing. (Def.’s Mot. to Dismiss,
Ex. G.) At the damages hearing, the court entered
judgment against Shea in the amount of
$1,573,682.25. (Id., Ex. H.)
2. Federal Court Claims
The federal and state law claims in the current
Amended Complaint allege that in mid-2008, Earle
went to Pantilione about obtaining a line of credit to
provide additional funds for his ventures. Pantilione
identified a property owned by Earle and his wife in
Margate, NJ as a source of security for the line of
credit, but explained that Earle could not personally
guaranty the line of credit due to lending limit
regulations. As such, Pantilione suggested the Earle
find a business associate to personally guarantee the
line of credit. Earle approached Shea about his
willingness to guarantee the line of credit. Pantilione
then represented to Shea that Parke Bank viewed the
real security for the line of credit to be the mortgage
on Margate Property and that $2,350,000 of the funds
available through the line of credit would be used as
additional cash collateral to help improve the
collateralization of the Lionville, Pottstown, and
Peckville loans. In reliance on these representations,

62a
Shea agreed to enter into the line of credit agreement
and guarantee the funds.
3. Application of Res Judicata Elements
Given the foregoing, I find that Shea’s claims, like
those of Pottstown, Peckville, and Rhoads Avenue, are
barred by res judicata.
First, the state court action constituted a final
judgment on the merits. The Third Circuit has
repeatedly emphasized the longstanding principle law
that “a default judgment is a final judgment with res
judicata effect.” Schuldiner v. Kmart Corp., 284 F.
App’x 918, 921 (3d Cir. 2008) (citing Riehle v.
Margolies, 279 U.S. 218, 225 (1929)). Pennsylvania
courts have also expressly found that “[a] default
judgment in an earlier case constitutes a “valid final
judgment on the merits” for the purpose of a res
judicata analysis. See Zimmer v. Zimmer, 326 A.2d
318, 320 (Pa. 1974) (“This Court has long held that a
judgment by default is res judicata and quite as
conclusive as one rendered on a verdict after litigation
insofar as a defaulting defendant is conceived.”). 16
Second, the parties are the same in the two
litigations. In state court, Parke Bank brought suit

16 See also Morris v. Jones, 329 U.S. 545, 550–51 (1947) (“A
judgment of a court having jurisdiction of the parties and of the
subject matter operates as res judicata, in the absence of fraud
or collusion, even if obtained upon a default.”) (internal quotation
marks omitted); Balent v. City of Wilkes–Barre, 669 A.2d 309,
313 (Pa. 1995) (“Any final, valid judgment on the merits by a
court of competent jurisdiction precludes any future suit between
the parties or their privies on the same cause of action. Res
judicata applies not only to claims actually litigated, but also to
claims which could have been litigated during the first
proceeding if they were part of the same cause of action.”).

63a
against Shea. In federal court, Shea has brought suit
against Parke Bank and its privies.
Finally, the state court suit involved the same
claims as the present federal action. In state court,
Shea filed an Answer, New Matter, and
Counterclaims alleging fraud in the inducement,
fraud, civil conspiracy, and breach of contract/lender
liability. In response to Parke Bank’s preliminary
objections and/or motions for summary judgment,
Shea amended his pleading three times, ultimately
filing a Third Amended Complaint that converted his
counterclaims into the affirmative defenses of fraud,
fraud in the inducement, illegality, unclean hands,
bad faith, unfair lending practices, and breach of
contract. These defenses mirror the federal court
claims. See Smith v. Litton Loan Servicing, LP, No.
04-2846, 2005 WL 289927, at *5 (E.D. Pa. Feb. 4,
2005) (holding that where current federal claims
would have been defenses to foreclosure, the entry of
a default foreclosure judgment by the state court
constitutes a bar to the reassertion of any such claims
in federal court that should have been litigated in the
state court). The simple fact that Shea now couches
his claims in the RICO statute does not disrupt the
essential similarity of the underlying events giving
rise to the claims.
In light of the foregoing, Shea’s claims are barred
by the doctrine of res judicata.
C. Lionville’s Claims
1. State Court Proceedings
On April 1, 2013, Plaintiff Spaeder filed a
complaint in Delaware County against Earle, Earle’s
wife, and Earle’s company Rosedon Holdings. (Defs.’

64a
Mot. to Dismiss, Ex. K.) Spaeder made the following
allegations with respect to Lionville:
• Spaeder negotiated the December 17, 2007
purchase of a movie theater in Lionville,
Chester County, on behalf of Earle and
Spaeder’s partnership, for $2,456,644 with
proceeds from a second loan for $3,098,000 from
Parke Bank. The funds in excess of the
purchase price were kept in escrow by the Bank
for construction. Earle guaranteed the loan and
legal title was put in Devon Drive Lionville, LP,
with equitable ownership in the partnership
between Earle and Spaeder. (Def.’s Mot. to
Dismiss, Ex. 27, ¶ 40.)
• In December 2010, Spaeder negotiated
refinancing the loan and, due to loan lending
limits to Earle at Parke Bank, Spaeder and
Earle asked third party Jerry Naples to
guaranty the new $6,700,000 note. Proceeds
from this new loan were used to (a) pay off the
original loan of $3,098,000 that was guaranteed
by Earle; (b) pay the contractor $2,500,000 for
construction at the Rite Aid building at
Lionville; and (c) held in escrow $1,102,000 for
Phase 2 of the Devon Drive Lionville
development. (Id. ¶ 57.)
• In exchange for his guaranty, Naples was given
a controlling interest in the Lionville property.
On December 29, 2010, Earle sold 100% of his
interest in the Lionville Partnership to Naples,
and Earle and Spaeder resigned as officers and
managers. (Id. ¶ 58.)
• Earle misappropriated $930,383 from Lionville
between February 9, 2010 and June 4, 2012.

65a
The source of the money that he
misappropriated was the Parke Bank loan
guaranteed by Naples. Most of the
misappropriated funds were simply transferred
to Rosedon Holding to be used for the Earles’
personal benefit. (Id. ¶ 84.)
• Spaeder’s relationship with Earle collapsed in
March, 2012, when Earle instructed Spaeder to
physically go to Parke Bank and move all funds
out of Devon Drive Lionville, LP, and Peckville,
and deposit them in the Rosedon Holding
account. (Id. ¶ 97.)
Spaeder eventually settled that suit with Earle and
gave Earle and Rosedon Holding an unlimited general
release of all claims against them and their
“representatives, agents, attorneys, employees,
affiliates,
predecessors,
officers,
directors,
shareholders, members, partners, successors, heirs,
executors, and assigns,” from all causes of action “from
the beginning of time.” (Defs.’ Mot. to Dismiss, Ex. L.)
On October 10, 2013, the state court entered the
Praecipe to Settle, Discontinue and End the case. (Id.,
Ex. M.)
2. Federal Court Claims
According to the federal Amended Complaint,
Parke Bank transferred funds by wire from Lionville
to other Parke Bank accounts and, predominantly, to
an outside bank account for Rosedon Holding, all
without Lionville’s consent or approval. Unaware of
these transactions, Lionville, through Spaeder, sought
to refinance the Parke Bank loan to obtain needed
construction funds. Pantilione agreed to refinance the
Lionville loan on the condition that Earle reduce his
ownership interests in Lionville so that Parke Bank

66a
would not run afoul of lending limitations. In
December 2010, Lionville closed on a new loan with
Parke Bank for $6,700,000, with a guaranty from a
minority partner, Jerry Naples. At Pantilione’s
direction, however, Parke Bank refused to release any
funds for construction unless Earle was completely
removed from Lionville’s ownership.
In September 2011, Gallo approved payment on an
allegedly fraudulent A1A form and directed payment
from Lionville’s construction loan account to Rosedon
Holding, despite knowing that the money did not
correspond to any construction cost incurred. Upon
receipt of the money from the Lionville construction
loan account, Rosedon Holding transferred the
majority of the funds from its account back to Parke
Bank as payment on several past-due mortgage loan
obligations, including the loan for Lionville.
3. Application of Res Judicata Elements
Unlike the previous Plaintiffs, I find that Lionville
is not barred by res judicata because neither Lionville
nor Parke Bank was a party to the prior settlement.
Given the absence of facts to establish the second
element of res judicata, this defense does not preclude
Lionville’s claims. 17
17 As to the first element, the Third Circuit has held that a
settlement agreement could constitute a final judgment on the
merits. Weber v. Henderson, 33 F. App’x 610, 612 (3d Cir. 2002)
(“For purposes of res judicata, final judgment on the merits
occurred when the District Court approved settlement and
dismissed the case.”); see also Rein v. Providian Fin. Corp., 270
F.3d 895, 903 (9th Cir. 2001) (“A judicially approved settlement
agreement is considered a final judgment on the merits.”
(citations omitted)); Guiles v. Metro. Life Ins. Co., No. 00–5029,
2001 WL 1454041, at *1 (E.D. Pa. Nov. 13, 2001) (“A judgment
entered with prejudice pursuant to a settlement is a final

67a
In an attempt to overcome this deficiency,
Defendants rely on a two-tiered privity argument.
First, they contend that the relationship between
Spaeder and Lionville is such that Lionville should be
deemed to be in privity with Spaeder. Second, they
assert that Earle is alleged to have conspired with
Parke Bank and, therefore, is in privity with Parke
Bank.
As set forth above, “[p]rivity exists where a party
adequately represented the nonparties’ interests in
the prior proceeding.” Berwind Corp. v. Apfel, 94 F.
Supp. 2d 597, 609 (E.D. Pa. 2000) (citing Martin v.
Wilks, 490 U.S. 755, 761 n.2 (1989) (a nonparty may
be bound if his interests are “adequately represented
by someone with the same interest who is a party”);
Gambocz v. Yelencsics, 468 F.2d 837, 841 (3d Cir.
1972) (res judicata bars second action as to defendants
who were not parties to first action when there is close
or significant relationship between them and
defendants who were parties)). “[P]rivity requires a
prior legal or representative relationship between a
party to the prior action and the nonparty against
whom estoppel is asserted. Without such a
relationship, there can be no estoppel.” Nationwide
Mut. Fire Ins. Co. v. George V. Hamilton, Inc., 571
F.3d 299, 312 (3d Cir. 2009). The United States
Supreme Court has identified six categories where
nonparty preclusion may be appropriate:

judgment on the merits for the purposes of res judicata.”).
Accordingly, the Earle-Spaeder settlement, on which basis the
state court dismissed the action with prejudice, constitutes a
final judgment on the merits for purposes of res judicata.

68a
1) the nonparty agrees to be bound by the
determination of issues in an action between
others;
2) a substantive legal relationship—i.e. traditional
privity—exists that binds the nonparty;
3) the nonparty was “adequately represented by
someone with the same interests who [wa]s a
party”;
4) the nonparty assumes control over the litigation
in which the judgment is rendered;
5) the nonparty attempts to bring suit as the
designated representative/agent of or proxy for
someone who was a party in the prior litigation;
and,
6) the nonparty falls under a special statutory
scheme that “expressly foreclos[es] successive
litigation by nonlitigants.”
Taylor v. Sturgell, 553 U.S. 880, 893–94 (2008)
(internal citations omitted).
None of these categories apply either to the
Spaeder-Lionville relationship, or to the Earle-Parke
Bank relationship.
As to the Spaeder-Lionville relationship, the first,
fourth, fifth, and sixth categories are plainly
irrelevant because nothing in the record indicates that
Lionville agreed to be bound by the results of the
Earle-Spaeder litigation, that Lionville assumed
control over the state court litigation, that Lionville is
now attempting to bring suit as Spaeder’s designated
representative, or that some special statutory scheme
applies. The second category is similarly inapplicable
because, although Spaeder was a partner in Lionville,

69a
Plaintiffs have identified no provision in the
partnership agreement to indicate that Spaeder’s
individual action against another partner would bind
the partnership. Finally, under the third category, 18
Lionville was not adequately represented by someone
with the same interests. Rather, Spaeder raised
claims against Earle to recover damages in his
personal capacity and not on behalf of, or as the
managing partner of, Lionville. On this record, and
under these circumstances, there is no basis on which
Spaeder could be viewed as so closely connected with
Lionville that a suit by Spaeder against Earle could be
tantamount to a suit by Lionville itself against Earle.
As to the Earle-Parke Bank relationship, I also
cannot find, on the record before me, that Parke Bank
was in privity with Earle for purposes of res judicata.
Relying on the Third Circuit case of Gambocz v.
Yelencsics, 468 F.2d 827, 841 (3d Cir. 1972),
Defendants assert that the Amended Complaint
characterizes them as co–conspirators with Earle in
the RICO violations and, therefore, they must be
deemed to be privies of Earle for purposes of the prior
settlement. Contrary to Defendants’ theory, however,
the Gambocz case does not automatically convert all
co-conspirators into privies. In that matter, the
original action averred a conspiracy participated in by
multiple individuals, only some of whom were named
as defendants. Id. at 842. The later suit set forth the
18 Under the third category, “the interests of the party and
nonparty must be squarely aligned and there must be either an
understanding that the party is acting in a representative
capacity or special procedural protections must have been in
place in the original action to ensure the due process rights of
nonparties who might face issue or claim preclusion.”
Nationwide Mut. Fire Ins. Co., 571 F.3d at 313.

70a
same cause of action with the same conspiracy, but
added some of the originally named conspirators as
defendants. Id. The Third Circuit concluded that “the
relationship of the additional parties to the second
complaint was so close to the parties to the first that
the second complaint was merely a repetition of the
first cause of action and, therefore, it is barred by
application of [res judicata].” Id. 19
By contrast, the Spaeder-Earle lawsuit involved
claims by Spaeder in his individual capacity against
Earle in his individual capacity. The complaint in that
matter involved no claims of a conspiracy between
Earle and any other individual or entity. Nor did the
complaint set forth any facts which could have
indicated that Parke Bank was involved in any of the
alleged wrongdoing. Perhaps most importantly, the
Settlement Agreement to which Defendants seek to
give res judicata effect is limited to the Earle entities
and the Spaeder entities, of which Parke Bank is not
a party, and expressly provides that “nothing herein,
express or implied, is intended to or shall confer upon
any other person any legal or equitable right, benefit
or remedy of any nature whatsoever under or by
reason of this agreement.” (Defs.’ Mot. to Dismiss, Ex.
28, ¶ 24.) The mere fact that Plaintiff now alleges that
Earle and Parke Bank were co-conspirators in the
purported wrongdoing does not permit Parke Bank to

19 See also Vacanti v. Apothaker & Assocs., P.C., No. 09-5827,
2010 WL 4702382, at *5 (E.D. Pa. Nov. 12, 2010) (applying res
judicata where both former complaint and current complaint
alleged the same violations of the FDCPA arising from the same
facts, but the first suit alleged that the debt collection agency was
responsible, while the second suit alleged that the attorney for
the agency, acting on behalf of the agency, was responsible).

71a
benefit from an otherwise private settlement between
Spaeder and Earle.
As privity of parties is lacking between the EarleSpaeder settlement and Lionville’s claims against
Defendants in this case, I need not address the last res
judicata element. I conclude that res judicata does not
apply to bar Lionville’s current claims.
D. Spaeder’s Claims
Finally, Defendants seek a finding of res judicata
with respect to claims brought by Spaeder
individually. Defendants premise their res judicata
argument on two theories: (1) the settlement of the
Spaeder-Earle lawsuit operates as a res judicata for
any claims against the current Defendants and (2)
Spaeder’s claims are derivative of the direct claims
asserted by the Partnerships.
I find no merit to either theory. As discussed in
detail above, the settlement in the Spaeder-Earle
lawsuit cannot establish res judicata because
although Spaeder was a party to that settlement,
Earle was not in privity with Parke Bank or its
officers. Moreover, nothing in the Amended Complaint
reveals that Spaeder’s individual claims are
derivative of the Partnerships’ claims. Rather,
Spaeder signed a personal guaranty for the Pottstown
loan for which he is now individually liable. Therefore,
I will deny the Motion to Dismiss Spaeder’s claims.
E. Conclusion on Res Judicata
In light of the foregoing, I find that the claims of
Plaintiffs Pottstown, Peckville, Rhodes Avenue, and
Shea are all attempts to re-litigate matters that were
fully and finally decided in prior judicial proceedings
before the state court. Under well-established res

72a
judicata principles, these claims will be dismissed
with prejudice. The claims of Plaintiffs Lionville and
Spaeder, however, are not barred by the doctrine of
res judicata because there is an absence of privity
between the parties in the state court action and the
parties in the federal court action. To that end, I will
deny the Motion to Dismiss Lionville’s and Spaeder’s
claims on res judicata grounds.
III.Whether Plaintiffs Have Properly Pled Their
Causes of Action
Defendants argue, in the alternative, that (1)
Plaintiffs lack standing to assert RICO claims; (2)
Plaintiffs’ fail to state a Section 1962(b) claim; (3)
Plaintiffs fail to state claims for common law fraud; (4)
Spaeder and Rhoads Avenue’s claims are time barred;
(5) Plaintiffs’ conversion claims are barred by the gist
of the action doctrine; and (6) Plaintiffs’ common law
conspiracy claim fails. Plaintiffs respond that they
have standing, that their Amended Complaint states
a violation of § 1962(b), and that their state law claims
satisfy scrutiny.
I decline to consider any of these arguments at this
juncture. The Amended Complaint sets forth the
various causes of action as to all Plaintiffs collectively.
As such, it is almost impossible to decipher which
specific allegations go to which Plaintiff. Having now
dismissed four of the six Plaintiffs, I cannot discern
how the absence of these Plaintiffs’ claims impacts the
validity of the remaining causes of action by the
remaining Plaintiffs. Accordingly, I will deny this
portion of Defendants’ Motion without prejudice.

73a
CONCLUSION
For all of the foregoing reasons, I will grant the
Motion to Dismiss the Amended Complaint as to
Plaintiffs Pottstown, Peckville, Rhodes Avenue, and
Shea. Defendants’ Motion regarding Plaintiffs
Lionville and Spaeder is denied without prejudice.
Plaintiffs Lionville and Spaeder shall either (1) file a
Second Amended Complaint containing allegations
only relating to themselves and Defendants, or (2)
state that they will not pursue any further claims
against Defendants. Upon the filing of a Second
Amended Complaint, Defendants shall have another
opportunity to move for dismissal.
An appropriate Order follows.

74a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
[November 27, 2017]
Civil Action No. 15-3435
DEVON DRIVE LIONVILLE, LP, et al.,
Plaintiffs,
v.
PARKE BANCORP, INC., et al.,
Defendants.
ORDER
AND NOW, this 27th day of November, 2017, upon
consideration of (1) Defendants’ Motion to Take
Judicial Notice (Doc. No. 44), Plaintiffs’ Response
(Doc. No. 48), and all of the parties’ arguments
incorporated by reference from their previous briefing
on issues of judicial notice; and (2) Defendants’ Motion
to Dismiss the Amended Complaint (Doc. No. 43),
Plaintiffs’ Response (Doc. No. 47), and all of the
parties’ arguments incorporated by reference from
their briefing on Defendants’ Motion to Dismiss the
original Complaint, it is ORDERED that:
1. Defendants’ Motion to Take Judicial Notice is
GRANTED.
2. Defendants’ Motion to Dismiss the Amended
Complaint is GRANTED IN PART and
DENIED IN PART as follows:

75a
a. The Motion to Dismiss the federal and state
law claims of Plaintiffs North Charlotte
Road Pottstown, LP, Main Street Peckville,
LP, Rhoads Avenue Newtown Square, LP,
and John M. Shea is GRANTED and these
claims
are
DISMISSED
WITH
PREJUDICE;
b. The Motion to Dismiss the federal and state
law claims of Plaintiffs Devon Drive
Lionville, LP and George Spaeder is
DENIED; and
c. Within thirty (30) days from the date of this
Order, the remaining Plaintiffs Devon Drive
Lionville, LP and George Spaeder shall
either file a second amended complaint
consistent with the Court’s Memorandum
and Order or give notice that they will not
pursue any further claims against
Defendants. Upon the filing of a second
amended complaint, Defendants shall have
the opportunity to move for dismissal of any
remaining claims.
BY THE COURT:
/s/ Mitchell S. Goldberg
___________________________
MITCHELL S. GOLDBERG, J.

76a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
[July 26, 2018]
Civil Action No. 15-3435
DEVON DRIVE LIONVILLE, LP, et al.,
Plaintiffs,
v.
PARKE BANCORP, INC., et al.,
Defendants.
Goldberg, J.

July 26, 2018
MEMORANDUM OPINION

This litigation was originally instituted by
Plaintiffs, eight limited partnerships and two
individuals, against Defendants Parke Bancorp, Inc.,
Parke Bank, and two of Parke Bank’s employees, Vito
Pantilione
and
Ralph
Gallo
(collectively,
“Defendants”). The original Complaint alleged claims
under the Racketeer Influenced and Corrupt
Organizations Act (“RICO”), 18 U.S.C §§ 1961, et seq.,
in connection with a series of large commercial loans
and related transactions. Following two rounds of
Motions to Dismiss, only two Plaintiffs presently
remain. These Plaintiffs filed a Second Amended
Complaint setting forth three RICO claims, as well as
state law claims for fraud, conversion, and civil
conspiracy. Defendants have moved to dismiss the
Second Amended Complaint under Federal Rules of

77a
Civil Procedure 12(b)(6) and 41(b). For the following
reasons, I will grant the Motion on both grounds and
dismiss the Second Amended Complaint with
prejudice.
I. PROCEDURAL HISTORY
The eight original Plaintiffs—Devon Drive
Lionville, LP (“Lionville”), North Charlotte Road
Pottstown, LP (“Pottstown”), Main Street Peckville,
LP (“Peckville”), Rhoads Avenue Newtown Square, LP
(“Rhoads Avenue”), VG West Chester Pike, LP (“West
Chester Pike”), 1301 Phoenix, LP (“Phoenix”), John
Shea (“Shea”), and George Spaeder (“Spaeder”)—filed
this lawsuit against Defendants on June 19, 2015. I
dismissed most of the claims without prejudice for
failure to state a claim. Devon Drive Lionville, L.P., et
al. v. Parke Bancorp, Inc., et al., No. 15-3435, 2016 WL
475816 (E.D. Pa. Dec. 29, 2016). Two of the Plaintiff
Partnerships—West Chester Pike and Phoenix—
dropped out of the suit, and the remaining Plaintiffs
filed an Amended Complaint on January 30, 2017,
setting forth six counts: (1) conduct and participation
in an enterprise through a pattern of racketeering
activity in violation of RICO, 18 U.S.C. § 1962(c); (2)
acquisition and maintenance of an interest in and
control of an enterprise engaged in a pattern of
racketeering activity in violation of RICO, 18 U.S.C. §
1962(b); (3) conspiracy to engage in a pattern of
racketeering activity in violation of RICO, 18 U.S.C. §
1962(d); (4) common law fraud; (5) conversion; and (6)
civil conspiracy.
On November 27, 2017, I granted in part
Defendants’ Motion to Dismiss on the grounds of res
judicata and dismissed all claims brought by
Plaintiffs Pottstown, Peckville, Rhoads Avenue, and

78a
Shea, but found no res judicata bar regarding the
claims alleged by Lionville or Spaeder. I also declined
to address Defendants’ argument that Lionville and
Spaeder had failed to properly plead their substantive
causes of action, noting that:
The Amended Complaint sets forth the various
causes of action as to all Plaintiffs collectively.
As such, it is almost impossible to decipher
which specific allegations go to which Plaintiff.
Having now dismissed four of the six Plaintiffs,
I cannot discern how the absence of these
Plaintiffs’ claims impacts the validity of the
remaining causes of action by the remaining
Plaintiffs.
Devon Drive Lionville, LP v. Parke Bancorp, Inc., No.
15-3435, 2017 WL 5668053, at *25 (E.D. Pa. Nov. 27,
2017). Accordingly, I denied the remainder of the
Defendants’ Motion to Dismiss without prejudice and
granted Plaintiffs Lionville and Spaeder leave to file a
second amended pleading, directing that this pleading
shall contain “allegations only relating to themselves
and Defendants.” Id. (emphasis added).
On December 27, 2017, Lionville and Spaeder
(collectively, “Plaintiffs”) filed their Second Amended
Complaint. Defendants, in turn, filed (1) a Motion to
Dismiss pursuant to Federal Rules of Civil Procedure
41(b) and 12(b)(6); and (2) a Motion to Take Judicial
Notice of Adjudicative Facts. 1

1
As I will dismiss the Second Amended Complaint on grounds
that do not require reliance on any documents outside the
pleadings, I will not address the Motion to Take Judicial Notice.

79a
II. FACTUAL BACKGROUND
Despite my directive that any amended complaint
disentangle Lionville and Spaeder’s claims from those
of the dismissed Plaintiffs, the Second Amended
Complaint at issue is practically identical to the
Amended Complaint. Rather than restating the
allegations set forth in the Second Amended
Complaint, I will incorporate by reference the
extensive factual recitation in my Memorandum and
Order of December 29, 2016. Devon Drive Lionville,
L.P., et al. v. Parke Bancorp, Inc., et al., No. 15-3435,
2016 WL 475816, at *1–7 (E.D. Pa. Dec. 29, 2016). For
purposes of clarity, however, I will summarize the
allegations in the Second Amended Complaint below.
The Second Amended Complaint alleges—in
identical fashion to the First Amended Complaint—
that, in 2003, Plaintiff George Spaeder (“Spaeder”)
and non-party Bruce Earle (“Earle”) entered into an
oral partnership agreement for the purpose of buying
and selling real estate (the “Earle-Spaeder
Partnership”). Together, the two men formed four of
the partnerships—Lionville, Pottstown, Peckville,
and
Rhoads
Avenue
(collectively,
“the
Partnerships”)—that were, at one point, Plaintiffs in
this lawsuit. (Sec. Am. Compl. (“SAC”) ¶¶ 15–16.)
Currently, only Lionville and Spaeder are Plaintiffs.
These Partnerships were formed to purchase, develop,
and lease a single Pennsylvania commercial real
estate property capable of hosting multiple
commercial tenants. Spaeder was principally in
charge of managing the day-to-day business of
Partnerships, while Earle acted as an independent
contractor through his wholly-owned company
Rosedon Holding Company Limited Partnership
(“Rosedon Holding”). Rosedon Holding took custody of

80a
the books and records of these three Partnerships and
monitored their finances. (Id. ¶¶ 16–18.)
To finance their operations, three of the
Partnerships—Lionville, Pottstown, and Peckville—
obtained financing through Defendant Parke Bank
(“Parke Bank”). In December 2007, Lionville borrowed
$3,098,000 from Parke Bank to finance the purchase
and development of vacant ground featuring three
commercial “pads.” In March 2008, Pottstown
borrowed $8,000,000 from Parke Bank to acquire and
renovate a shopping center. In May 2008, Peckville
borrowed $5,200,000 from Parke Bank to fund the
purchase and renovation of an existing shopping
center. (Id. ¶¶ 19–21, 26–28.)
By late 2011, Earle’s and Spaeder’s relationship
had deteriorated and their business partnership
began to collapse. Around that time, the loans from
Parke Bank to the Pottstown and Peckville
Partnerships went into default. Spaeder then filed for
bankruptcy and, during the ensuing proceedings in
July 2013, the Partnerships began to uncover
evidence of an “enterprise” among Parke Bank, Vito
Pantilione (Officer and Director of Parke Bank),
Defendant Ralph Gallo (Senior Vice President and
Chief Workout Officer for Parke Bancorp, Inc.), and
Earle (collectively, the “BPGE Enterprise”). (Id. ¶¶ 2,
35–37, 41.)
According to the Second Amended Complaint,
Parke Bank allegedly participated in the BPGE
Enterprise when it utilized the funds available under
the loans and/or lines of credit extended to the various
independent limited partnership entities as one
“piggy bank.” This piggy bank allegedly funded
troubled loans to create the appearance of a

81a
performing loan. Despite the fact that the Lionville,
Pottstown, and Peckville Partnerships were separate
legal entities with different assets and ownership, it
is alleged that Parke Bank treated these loans as if
they were three loans to the same borrower, controlled
by Earle, such that their loans could be crosscollateralized by Parke Bank as it saw fit. Parke Bank
sent correspondence revealing unauthorized transfers
and other allegedly fraudulent activity to Earle. In
addition to the individual bank account statements,
Parke Bank, acting at Pantilione’s and/or Gallo’s
instruction, compiled and/or emailed to Earle reports
that detailed account activity for each of the Parke
Bank accounts over which Earle had allegedly
usurped control. (Id. ¶¶ 52, 54–65.)
As stated above, aside from two small additions,
set forth below, the Second Amended Complaint’s 192
paragraphs are identical to the dismissed Amended
Complaint. 2 The new allegations and one new claim
that vary from the First Amended Complaint are as
follows:
First, paragraphs 107–112 of the Second Amended
Complaint allege that, in March 2008, Pottstown
secured an $8,000,000 loan in connection with its
acquisition of the property at 1400 North Charlotte
Street, Pottstown, PA. The plan for that property was
to completely renovate the existing shopping center
using $4,146,000 of earmarked funds and then lease
the space. The agreement, which described the total
2
The Second Amended Complaint added several new
paragraphs intended to bolster their existing claims, none of
which require further discussion here as they are repetitive of
other allegations already in the pleading. (Id. ¶¶ 22, 38, 161, 164,
167 (first version on p. 44), 162–63 (second versions on p. 44), 167
(second version on p. 45), 168.)

82a
loan budget, permitted Pottstown to pull an additional
$1 million from the loan balance contingent on
providing additional collateral. When the $1 million
was repaid, the collateral was to be released. The
additional collateral—two other Pennsylvania
properties—was delivered prior to any draw on the
funds from the Construction Loan. Even though the
collateral was released by the terms of the loan
documents, Earle allowed Parke Bank to take a
confessed judgment against the limited partnership
that owned the collateral, without raising any
defenses. (Id. ¶¶ 88-89, 108–11.) Importantly, the
Second Amended Complaint does not connect these
new allegations to any of the claims of the remaining
Plaintiffs.
Second, paragraphs 184 to 188 of the Second
Amended Complaint set forth a new conversion claim
by Spaeder. In the Amended Complaint, the
conversion claim was brought by Lionville, Pottstown,
Peckville, and Shea. In the Second Amended
Complaint, Plaintiffs deleted Pottstown and Peckville
from the claim and substituted Spaeder’s name
wherever Shea’s name appeared.
III.

MOTION TO DISMSS UNDER FED. R. CIV. P.
12(b)(6)

A. Standard of Review
Under Federal Rule of Civil Procedure 12(b)(6), a
defendant bears the burden of demonstrating that the
plaintiff has not stated a claim upon which relief can
be granted. Fed. R. Civ. P. 12(b)(6); see also Hedges v.
United States, 404 F.3d 744, 750 (3d Cir. 2005). The
United States Supreme Court has recognized that “a
plaintiff’s obligation to provide the ‘grounds’ of his
‘entitle[ment] to relief’ requires more than labels and

83a
conclusions.” Bell Atl. Corp. v. Twombly, 550 U.S. 544,
555 (2007) (quotations omitted). “[T]hreadbare
recitals of the elements of a cause of action, supported
by mere conclusory statements, do not suffice” and
“only a complaint that states a plausible claim for
relief survives a motion to dismiss.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). “A claim has facial
plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct
alleged.” Id. A complaint does not show an entitlement
to relief when the well-pleaded facts do not permit the
court to infer more than the mere possibility of
misconduct. Id.
The United States Court of Appeals for the Third
Circuit has detailed a three-step process to determine
whether a complaint meets the pleadings standard.
Bistrian v. Levi, 696 F.3d 352 (3d Cir. 2014). First, the
court outlines the elements a plaintiff must plead to
state a claim for relief. Id. at 365. Next, the court must
“peel away those allegations that are no more than
conclusions and thus not entitled to the assumption of
truth.” Id. Finally, the court “look[s] for well-pled
factual allegations, assume[s] their veracity, and then
‘determine[s] whether they plausibly give rise to an
entitlement to relief.’” Id. (quoting Iqbal, 556 U.S. at
679). The last step is “a context-specific task that
requires the reviewing court to draw on its judicial
experience and common sense.” Id. (quoting Iqbal, 556
U.S. at 679).
Claims of fraud, either standing alone or as
predicate acts for a RICO claim, are subject to the
heightened requirements of Federal Rule of Civil
Procedure 9(b). Warden v. McLelland 288 F.3d 105,
114 n.6 (3d Cir. 2002). “In all averments of fraud or

84a
mistake, the circumstances constituting fraud or
mistake shall be stated with particularity.” Fed. R.
Civ. P. 9(b). In order to satisfy Rule 9(b), “a plaintiff
alleging fraud must state the circumstances of the
alleged fraud with sufficient particularity to place the
defendant on notice of the ‘precise misconduct with
which [it is] charged.’” Frederico v. Home Depot, 507
F.3d 188, 200 (3d Cir. 2007) (citation omitted).
Plaintiffs may satisfy this requirement by pleading
the “date, time and place” of the alleged fraud or
“otherwise inject precision or some measure of
substantiation into a fraud allegation.” Id.
B. Claims Against Parke Bancorp, Inc.
Plaintiffs set forth RICO claims against, among
others, Parke Bancorp, Inc. (“PBI”), which, according
to the Second Amended Complaint, is a corporation
that wholly owns Defendant Parke Bank. (SAC ¶¶ 8–
9.) Defendants seek to dismiss all causes of action
against PBI.
The Third Circuit has held that “mere ownership
of a subsidiary does not justify the imposition of
liability on the parent.” Pearson v. Component Tech.
Corp., 247 F.3d 471, 484 (3d Cir. 2001). While the
Third Circuit recognized that it is “theoretically
possible for a parent corporation and its subsidiary to
be the enterprise” under RICO, “the plaintiff must
plead facts which, if assumed to be true, would clearly
show that the parent corporation played a role in the
racketeering activity which is distinct from the
activities of its subsidiary.” Lorenz v. CSX Corp., 1
F.3d 1406, 1412 (3d Cir. 1993). “A RICO claim under
section 1962(c) is not stated where the subsidiary
merely acts on behalf of, or to the benefit of, its
parent.” Id.

85a
Here, the sole allegation in the Second Amended
Complaint regarding the parent company, PBI, is a
statement that Parke Bank is a “wholly owned
subsidiary” of PBI. (SAC ¶ 9.) Plaintiffs’ pleading
otherwise contains no facts that could justify any
inference that PBI had any involvement in the alleged
actions at issue in this case. Plaintiffs do not address
this argument, let alone make an effort to identify any
misdeeds by PBI. Accordingly, I will grant
Defendants’ Motion to Dismiss on this ground and
dismiss all claims against PBI.
C. Standing to Assert RICO Claims
Counts I to III of the Second Amended Complaint
set forth RICO claims against Defendants under 18
U.S.C. § 1962(b), (c), and (d). Defendants move to
dismiss all three of these claims on the ground that
Plaintiffs do not have standing under RICO.
Apart from the Article III constitutional and
prudential standing requirements, plaintiffs seeking
recovery under RICO must satisfy additional standing
criterion set forth in section 1964(c) of the statute.
Maio v. Aetna, Inc., 221 F.3d 472, 482 (3d Cir. 2000).
“In the RICO setting, standing is conferred upon ‘any
person injured in his business or property by reason of
a violation of section 1962 of this chapter . . . .’” Id. at
482–83 (quoting 18 U.S.C. § 1964(c)). Based on this
language, the Third Circuit has read section 1964(c)
as requiring a RICO plaintiff to make two related but
analytically distinct threshold showings: (1) that the
plaintiff suffered an injury to business or property;
and (2) that the plaintiff’s injury was proximately
caused by the defendant’s violation of 18 U.S.C. §
1962. Id. at 483. A failure to allege RICO standing is
grounds for dismissal under Rule 12(b)(6). Vavro v.

86a
Albers, No. 05-321, 2006 WL 2547350, at *20 (W.D.
Pa. Aug. 31, 2006).
Here, the only issue is whether Plaintiffs have
adequately pled the second requirement. RICO’s “by
reason of” language requires that the defendant’s
RICO violation be the proximate cause of the
plaintiff’s injury. Anza v. Ideal Steel Supply Corp., 547
U.S. 451, 457 (2006); Holmes v. Secs. Inv’r Prot. Corp.,
503 U.S. 258, 268 (1992). The plaintiff must therefore
allege “some direct relation between the injury
asserted and the injurious conduct alleged.” Holmes,
503 U.S. at 268. A showing only that the RICO
violation was a “but for” cause of the injury will not
suffice for RICO standing. Id.; Walter v. Palisades
Collection, LLC, 480 F. Supp. 2d 797, 805 (E.D. Pa.
2007).
In cases involving RICO claims premised on mail
and wire fraud, the law is somewhat unsettled as to
whether the “proximate cause” element of standing
requires a plaintiff to plead some form of reliance on
the alleged mail and wire fraud. The United States
Supreme Court, in Bridge v. Phoenix Bond & Indem.
Co., 553 U.S. 639 (2008), expressly held that firstparty reliance—i.e., reliance by the plaintiff on a
fraudulent wire or mailing—is not an element of a
civil RICO claim premised on mail fraud. Id. at 641–
42. In so ruling, the Court also rejected the contention
that proof of first-party reliance is necessary to
establish proximate causation. Id. The Court stated
that “first-party reliance [is not] necessary to ensure
that there is a sufficiently direct relationship between
the defendant’s wrongful conduct and the plaintiff’s
injury to satisfy . . . proximate-cause principles.” Id. at
657–58.

87a
The Supreme Court, however, was less clear on
whether some other type of reliance allegation
remained crucial to RICO standing. In Bridge, the
Court remarked that “[o]f course, none of this is to say
that a RICO plaintiff who alleges injury ‘by reason of’
a pattern of mail fraud can prevail without showing
that someone relied upon the defendant’s
misrepresentations.” Id. at 658 (emphasis in original).
“In most cases, the plaintiff will not be able to
establish even but-for causation if no one relied on the
misrepresentation. . . . Accordingly, it may well be
that a RICO plaintiff alleging injury by reason of a
pattern of mail fraud must establish at least thirdparty reliance in order to prove causation.” Id.
This latter language has left open for debate
whether a RICO plaintiff alleging mail and wire fraud
must plead at least third-party reliance in order to
establish standing. The Third Circuit has yet to weigh
in on this issue. Walter, 480 F. Supp. 2d at 806 (noting
the lack of guidance from the Third Circuit).
“However, numerous cases from this district have
held that reliance upon a material representation is
required because ‘[i]t is a matter of basic logic that a
misrepresentation
cannot
cause,
much
less
proximately cause, injury, unless someone relies upon
it.’” Lynch v. Capital One Bank (USA), N.A., No. 12992, 2013 WL 2915734, at *3 (E.D. Pa. 2013) (quoting
Central Transp., LLC v. Atlas Towing, Inc., 884 F.
Supp. 2d 207, 215–16 (E.D. Pa. 2012)); see also
Stoneback v. ArtsQuest, Civ. A. No. 12–3287, 2013
WL 3090714, at *15 (E.D. Pa. June 20, 2013) (denying
civil RICO class certification because establishing
proximate cause required individualized showings
that
“someone
relied
on
the
defendant’s
misrepresentations”); Coleman v. Commonwealth

88a
Land Title Ins. Co., 318 F.R.D. 275, 288 (E.D. Pa.
2016) (“A demonstration of some form of reliance,
whether first- or third-party, is necessary to establish
causation, linking the prohibited racketeering activity
to the alleged injury.”); Checker CAB Phila., Inc. v.
Uber Techs., Inc., No. 14-7265, 2016 WL 950934, at *9
(E.D. Pa. Mar. 7, 2016) (“To establish a RICO violation
premised on mail or wire fraud (as Plaintiffs’ claims
are here), the plaintiff must also allege facts to show
reliance
on
the
defendant’s
alleged
misrepresentations.”), aff’d, 689 F. App’x 707 (3d Cir.
2017); District 1199P Health & Welfare Plan v.
Janssen, L.P., 784 F. Supp. 2d 508, 525 (D.N.J. 2011)
(“[W]ithout sufficient allegations of direct reliance,
Plaintiffs have not properly alleged that Defendants’
misrepresentations were the ‘but for’ cause of their
injuries.”); see also In re U.S. Foodservice Inc. Pricing
Litig., 729 F.3d 108, 119 (2d Cir. 2013) (holding, in the
context of the predicate acts of mail and wire fraud,
“‘proof of misrepresentation—even widespread and
uniform misrepresentation—only satisfies half of the
equation’ . . . because plaintiffs must also demonstrate
reliance on a defendant’s common misrepresentation
to establish causation under RICO.”) (internal
quotations omitted). 3
A majority of the district courts within this Circuit
have concluded that “some form of reliance on the
defendant’s misrepresentation is necessary to
3
But see Impala Platinum Holdings Ltd. v. A-1 Specialized
Servs. & Supplies, Inc., No. 16-1343, 2016 WL 8256412, at *10
(E.D. Pa. Sept. 16, 2016) (“While the Supreme Court
acknowledged ‘it may well be that a RICO plaintiff alleging
injury by reason of a pattern of mail fraud must establish at least
third-party reliance in order to prove causation,’ the Court did
not hold that it was a requirement for doing so, particularly at
the pleading stage.”)

89a
properly establish proximate cause for a RICO
violation based on mail or wire fraud.” Lynch, 2013
WL 2915734, at *3. I also find this line of reasoning
persuasive.
Here, the Second Amended Complaint lists a
number of allegedly fraudulent communications
occurring through the mail or interstate wire system.
Notably, however, all of these communications
occurred solely, and secretly, between Defendant
Parke Bank and third-party Bruce Earle, who is part
of the alleged RICO enterprise. The pleading at issue
specifically references:
• Correspondence from Defendant Parke Bank
concerning the loans to the Lionville,
Pottstown, and Peckville partnerships was sent
only to the offices of Rosedon Holding, an entity
controlled entirely by alleged co-conspirator
Bruce Earle. (Sec. Am. Compl. ¶¶ 54–59.)
• Correspondence from Parke Bank revealing
unauthorized transfers and other allegedly
fraudulent activity to Earle, including periodic
loan account statements generated by Parke
Bank for each account held by the Plaintiff
partnerships, as well as reports that detailed
account activity for each of the Parke Bank
accounts over which Earle had allegedly
usurped control. (Id. ¶¶ 60–65.)
• Parke Bank’s facilitation of funds transfers
from Lionville’s account to Rosedon Holding
without Lionville’s authorization. These
payments were directed by mail, email, and/or
online access to Rosedon Holding at Earle’s
request. (Id. ¶¶ 69–74.)

90a
• Parke Bank’s assessment of Lionville’s account
with an allegedly fraudulent “late charge”
which was later waived. Lionville never
received notice of the assessment of these late
charges. (Id. ¶¶ 84–86.)
None of the communications which form the basis
of the mail or wire fraud claims were directed towards
Plaintiffs. Quite to the contrary, Plaintiffs explicitly
assert that they never received any of the alleged
fraudulent mailings or wires and that Parke Bank’s
use of the mails to send account statements reflecting
unauthorized transactions was directed “to Earle
only” so as to conceal the activities of the BPGE
Enterprise. (SAC ¶¶ 59, 60, 61, 64, 70, 78, 81, 85, 91,
94, 117, 128, 159(a)(b)(e).) Thus, Plaintiffs have not
alleged first-party reliance.
Moreover, nothing in the Second Amended
Complaint demonstrates any reliance on the alleged
mail and wire fraud by any third-party outside the
RICO enterprise. The unauthorized wire transfers of
funds and mailing of fraudulent bank statements
were all made by Parke Bank, purportedly at the
direction of Pantilione and Gallo, to Rosedon
Holdings, which was controlled entirely by alleged coconspirator Bruce Earle. (SAC ¶¶ 70–72, 78–81 90–
92, 116–18.) The Second Amended Complaint
repeatedly emphasizes that all fraudulent use of the
mails and wires was intra-enterprise, with no
communications sent to third parties. (SAC ¶¶ 59–62,
64–66, 70–72, 81, 90–92, 116–18.) Plaintiffs’ pleading
is devoid of any allegation that any party outside the
purported conspiracy was aware of the transfers, let
alone that an outside party relied upon them.

91a
In their response to Defendants’ Motion, Plaintiffs
make no effort to identify any reliance by anyone
outside the alleged enterprise. 4 Rather, Plaintiffs
argue that, under Bridge, first-party reliance is not
required. But Plaintiffs do not address the great
weight of authority requiring at least some form of
reliance on the alleged mail and wire communications.
Absent a demonstration of reliance, whether firstparty or third-party, Plaintiffs cannot establish that
the wires/mailings referenced in the Second Amended
Complaint proximately caused Plaintiffs’ injuries. As
such, I conclude that the proximate cause element of
RICO standing has not been satisfied. 5
D. Remaining State Law Claims
Having dismissed all federal causes of action upon
which the Court’s jurisdiction is based, I must now
determine
whether
to
retain
supplemental
jurisdiction over the remaining state law claims.
Under 28 U.S.C. § 1367, “a district court has
authority to exercise supplemental jurisdiction over
non-federal claims arising from the same case or
controversy as the federal claim.” De Asencio v. Tyson
Foods, Inc., 342 F.3d 301, 308 (3d Cir. 2003). “The
purpose of supplemental jurisdiction is to promote
convenience and efficient judicial administration.”
Resnick v. Lower Burrell Police Dept., No. 09-893,
2010 WL 88816, at *3 (W.D. Pa. Jan. 8, 2010). When
the district court dismisses all of the claims over
which it had original jurisdiction, it may decline to
exercise supplemental jurisdiction. 28 U.S.C. §
Plaintiffs incorporated by reference their Response to
Defendants’ Motion to Dismiss the Amended Complaint.
5
Because I will dismiss the RICO claims on standing grounds,
I need not address Defendants’ other Rule 12(b)(6) arguments.
4

92a
1367(c)(3). “A district court's decision whether to
exercise [supplemental] jurisdiction after dismissing
every claim over which it had original jurisdiction is
purely discretionary.” Carlsbad Tech., Inc. v. HIF Bio,
Inc., 556 U.S. 635, 639 (2009). In order to determine
whether supplemental state law claims should be
dismissed when the federal law claims have been
eliminated before trial, the court must consider the
balance of factors including judicial economy,
convenience, fairness, and comity. Carnegie–Mellon
Univ. v. Cohill, 484 U.S. 343, 350 n.7 (1988).
Although neither party in this case has addressed
the foregoing factors, I find that the balance of such
factors advocates against the exercise of supplemental
jurisdiction. This case remains at the most
preliminary stages of litigation with Defendants
having yet to even file an answer. I have heard no
other motions other than motions to dismiss, held no
status conferences, and entered no scheduling order.
Moreover, the sole claims remaining are common law
fraud, conversion, and civil conspiracy, which the
Pennsylvania courts are better suited to address,
particularly in the absence of any federal issue or
other independent basis for federal jurisdiction. See
Carnegie-Mellon, 484 U.S. at 351 (“[w]hen the single
federal-law claim in the action [is] eliminated at an
early stage of the litigation, the District Court ha[s] a
powerful reason to choose not to continue to exercise
jurisdiction.”). Therefore, I decline to exercise
supplemental jurisdiction over the remaining state
law claims and will dismiss them without prejudice to
Plaintiffs’ right to refile them in state court.

93a
IV.

MOTION TO DISMISS UNDER FED. R. CIV.
P. 41(b)

Notwithstanding my ruling under Federal Rule of
Civil Procedure 12(b)(6), I find that the Second
Amended Complaint is also subject to dismissal under
Federal Rule of Civil Procedure 41(b).
In my prior Memorandum Opinion granting in
part the Motion to Dismiss the Amended Complaint, I
declined to consider Defendants’ arguments regarding
the merits of the remaining Plaintiffs’ RICO and
common law claims because it was difficult to
determine how the dismissal of four Plaintiffs
impacted the validity of the remaining causes of
action. Devon Drive Lionville, 2017 WL 5668053, at
*25. Consequently, I ordered the remaining Plaintiffs
(Lionville and Spaeder) to “either (1) file a Second
Amended Complaint containing allegations only
relating to themselves and Defendants, or (2) state
that they will not pursue any further claims against
Defendants.” Id.
Despite these clear directives, Plaintiffs filed the
identical complaint with the addition of some new
claims, which included facts regarding an additional
loan and a conversion claim by Plaintiff Spaeder. In
other words, instead of paring down the existing 184paragraph Amended Complaint to reflect the
dismissal of four of the six Plaintiffs, Plaintiffs
submitted a 192-paragraph Second Amended
Complaint that again included allegations involving
all six Plaintiffs. Defendants now claim that Rule
41(b) supports dismissal of the Second Amended
Complaint with prejudice.

94a
Federal Rule of Civil Procedure 41(b) provides:
(b) Involuntary Dismissal; Effect. If the
plaintiff fails to prosecute or to comply with
these rules or a court order, a defendant may
move to dismiss the action or any claim against
it. Unless the dismissal order states otherwise,
a dismissal under this subdivision (b) and any
dismissal not under this rule—except one for
lack of jurisdiction, improper venue, or failure
to join a party under Rule 19—operates as an
adjudication on the merits.
Fed. R. Civ. P. 41(b).
The United States Court of Appeals for the Third
Circuit has recognized that “[d]istrict court judges,
confronted with litigants who flagrantly violate or
ignore court orders, often have no appropriate or
efficacious recourse other than dismissal of the
complaint with prejudice.” Mindek v. Rigatti, 964 F.2d
1369, 1373 (3d Cir. 1992). To determine the propriety
of punitive dismissals, the Third Circuit, in Poulis v.
State Farm Fire and Casualty Co., 747 F.2d 863 (3d
Cir. 1984), has outlined a series of factors to be
considered. The six Poulis factors include:
(1) the extent of the party’s personal
responsibility; (2) the prejudice to the
adversary caused by the failure to meet
scheduling orders and respond to discovery; (3)
a history of dilatoriness; (4) whether the
conduct of the party or the attorney was willful
or in bad faith; (5) the effectiveness of sanctions
other than dismissal, which entails an analysis
of alternative sanctions; and (6) the
meritoriousness of the claim or defense.

95a
747 F.2d at 868. Although “[d]ismissal is a harsh
remedy and should be resorted to only in extreme
cases,” Marshall v. Sielaff, 492 F.2d 917, 918 (3d Cir.
1974), not all of the Poulis factors need be satisfied in
order to dismiss a complaint.” Mindek, 964 F.2d at
1372. Indeed, there is no “magic formula” or
“mechanical calculation” with regard to Poulis
analysis. Briscoe v. Klaus, 538 F.3d 252, 263 (3d Cir.
2008) (quoting Mindek, 964 F.2d at 1372). Instead, the
decision should be made “in the context of the district
court’s extended contact with the litigant.” Mindek,
964 F.2d at 1372.
With these principles in mind, I consider the Poulis
factors in the context of this case. 6
A. Personal Responsibility
“The first Poulis factor is an inquiry into the
noncompliant party’s personal responsibility.” In re
Avandia Mktg., Sales Practices & Prods. Liab. Litig.,
319 F.R.D. 480, 485 (E.D. Pa. 2017). The United
States Supreme Court has emphasized that the mere
fact that a party is represented by counsel whose
Defendants assert that application of the Poulis factors is
unnecessary in circumstances where the plaintiff fails to file an
amended complaint in accordance with a court order, as the
“litigant’s conduct makes adjudication of the case impossible.”
Azubuko v. Bell Nat’l Org., 243 F. App’x 728, 729 (3d Cir. 2007)
(citing Guyer v. Beard, 907 F.2d 1424, 1429–30 (3d Cir. 1990)).
Azubko, however, involved a situation where the original
complaint was dismissed and, notwithstanding the court’s order,
the plaintiff failed to file an amended complaint. Under those
circumstances, adjudication of the case was impossible because
there was no operative complaint, meaning balancing of the
Poulis factors was unnecessary. Id. at 729. Here, Plaintiffs have
filed a Second Amended Complaint, albeit one that does not
comply with the Court’s Order. Given these circumstances, I will
engage in a Poulis balancing test.
6

96a
conduct was dilatory does not preclude dismissal of a
case under Rule 41(b):
There is certainly no merit to the contention
that dismissal of petitioner’s claim because of
his counsel’s unexcused conduct imposed an
unjust penalty on the client. Petitioner
voluntarily chose this attorney as his
representative in the action, and he cannot now
avoid the consequences of the acts or omissions
of this freely selected agent. Any other notion
would be wholly inconsistent with our system
of representative litigation, in which each party
is deemed bound by the acts of his lawyer-agent
and is considered to have “notice of all facts,
notice of which can be charged upon the
attorney.”
Link v. Wabash R. Co., 370 U.S. 626, 633–34 (1962)
(quotations omitted). Nonetheless, the first Poulis
factor focuses more closely on whether the party
himself has failed to comply with the court’s orders as
opposed to whether counsel for the party is
responsible. Briscoe, 538 F.3d at 258-59; Vittas v.
Brooks Bros. Inc., Grp., No. 14-3617, 2017 WL
6316633, at *2 (D.N.J. Dec. 11, 2017). Thus, where the
party’s attorney is largely responsible for the
misconduct, the Third Circuit has “increasingly
emphasized visiting sanctions directly on the
delinquent lawyer, rather than on a client who is not
actually at fault.” Carter v. Albert Einstein Med. Ctr.,
804 F.2d 805, 807 (3d Cir. 1986).
Here, Plaintiffs’ response to the Rule 41(b) motion
does not attempt to disclaim Plaintiffs’ responsibility
for counsel’s actions. Defendants, however, present no
evidence that Plaintiffs were personally responsible

97a
for the Second Amended Complaint’s noncompliance
with the Court Order. As I cannot determine
responsibility, I find the first Poulis factor neutral.
B. Prejudice to the Adversary
Under the second Poulis factor, “[e]vidence of
prejudice to an adversary would bear substantial
weight in support of a dismissal or default judgment.”
Adams v. Trustees of N.J. Brewery Employees’
Pension Trust Fund, 29 F.3d 863, 873-74 (3d Cir.
1994) (internal quotation marks and citation omitted).
Prejudice is not limited to “irremediable” or
“irreparable” harm. Briscoe, 538 F.3d at 259; see also
Ware v. Rodale Press, Inc., 322 F.3d 218, 222 (3d Cir.
2003); Curtis T. Bedwell & Sons, Inc. v. Int’l Fidelity
Ins. Co., 843 F.2d 683, 693–94 (3d Cir. 1988). It also
includes “the burden imposed by impeding a party’s
ability to prepare effectively a full and complete trial
strategy.” Ware, 322 F.3d at 222.
Here, Plaintiffs’ disregard of my Order granting
them a third opportunity to properly plead their
claims precluded the advancement of this litigation. It
is worth repeating the procedural history of this case.
Plaintiffs originally filed this lawsuit against
Defendants on June 19, 2015. I dismissed most of the
claims without prejudice for failure to state a claim,
and granted Plaintiffs leave to amend their
Complaint. Six of the original eight Plaintiffs then
filed an Amended Complaint on January 30, 2017. I
dismissed claims by four of the Plaintiffs based on the
doctrine res judicata. Devon Drive Lionville, 2017 WL
5668053. Plaintiffs are now on their third iteration of
the Complaint and, despite my clear directive that
they pare down the remaining allegations to clearly
reflect the basis of liability for the remaining RICO

98a
violations, Plaintiffs submitted an even more
unwieldy pleading that mostly mirrors the prior
pleading. As a result, Defendants cannot decipher the
claims against them and have been forced to re-raise
arguments previously submitted in connection with
their Motion to Dismiss the Amended Complaint. As
the Court reviewing the pleading, I have the same
dilemma. Because Plaintiffs’ actions “frustrate[ ] and
delay[ ] the resolution of this action,” I find that the
second Poulis factor weighs in favor of dismissal.
Metro Metals USA v. All-State Diversified Prod., Inc.,
No. 12-1448, 2013 WL 1786593, at *2 (D.N.J. Apr. 25,
2013).
C. History of Dilatoriness
The third Poulis factor looks at the Plaintiffs’
history of dilatoriness. “Extensive or repeated delay or
delinquency constitutes a history of dilatoriness, such
as consistent non-response to interrogatories, or
consistent tardiness in complying with court orders.”
Chiarulli v. Taylor, No. 08-4400, 2010 WL 1371944, at
*3 (D.N.J. Mar. 31, 2010) (quoting Adams, 29 F.3d at
874).
Although Defendants argue that Plaintiffs’
conduct with respect to the filing of the Second
Amended Complaint demonstrates their dilatoriness,
the third Poulis factor is more concerned with the
history of dilatoriness. “[C]onduct that occurs one or
two times is insufficient to demonstrate a ‘history of
dilatoriness.’” Briscoe, 538 F.3d at 261 (quotations
omitted). As Defendants have not identified any other
instances of noncompliance with Court orders, or any
other conduct amounting to dilatoriness, I find that
this factor weighs against dismissal.

99a
D. Willfulness or Bad Faith
Under the fourth factor, the Court must consider
whether the conduct was “the type of willful or
contumacious behavior which was characterized as
flagrant bad faith.” Adams, 29 F.3d at 875 (internal
quotation marks and citation omitted). Generally,
“[w]illfulness involves intentional or self-serving
behavior.” Id. “If the conduct is merely negligent or
inadvertent, we will not call the conduct
‘contumacious.’” Briscoe, 538 F.3d at 262; see Poulis,
747 F.2d at 868–69 (finding that plaintiff’s counsel’s
behavior was not contumacious because, although he
had missed deadlines, there was no suggestion that
his delays were for any reason other than his and his
wife’s poor health); see also Emerson v. Thiel Coll.,
296 F.3d 184, 191 (3d Cir. 2002) (finding bad faith
because the conduct went beyond mere negligence).
Plaintiffs made no effort to comply with my order
that they file a Second Amended Complaint relating
only to themselves and Defendants. Instead, they filed
an almost verbatim copy of the Amended Complaint,
and in self-serving fashion, justify this noncompliance arguing it was “necessary” and “crucial”:
Of course, in order to provide the necessary
facts and background to support Plaintiffs’
causes of action, Plaintiffs had to provide the
facts relating to the Defendants[’] conduct for
all Partnerships. This is complex litigation with
causes of action based on Defendants[’]
egregious violations of the RICO Act, fraud,
conversion and conspiracy. All of the
allegations set forth in the Second Amended
Complaint are crucial to establish the conduct

100a
and pattern of behavior exhibited by the
Defendants. 7
(Pls.’ Opp’n Mot. to Dismiss p. 16.) Despite my
unambiguous statements that (a) the Amended
Complaint
contained
numerous
irrelevant
allegations; (b) I could not clearly analyze the merits
of their Amended Complaint in its existing format;
and (c) Plaintiffs must replead the allegations,
Plaintiffs nonetheless decided that they would
disregard my Order. Plaintiffs’ willful failure to
comply with my Order weighs in favor of dismissal.
E. Effectiveness
Dismissal

of

Sanctions

Other

Than

The fifth Poulis factor considers whether alternative
sanctions would be more effective than dismissal.
Generally, a district court “should be reluctant to
deprive a plaintiff of the right to have his claim
adjudicated on the merits[,]” see Titus v. Mercedes
Benz of North Am., 695 F.2d 746, 749 (3d Cir.1982),
and therefore “must consider the availability of
sanctions alternative to dismissal.” Briscoe, 538 F.3d
at 262 (citing Poulis, 747 F.2d at 869). The Third
Circuit has recognized that alternative sanctions
7 Plaintiffs’ claim that all the facts in the Second Amended
Complaint are crucial to establish a pattern of misconduct is
disingenuous. By way of example, Plaintiff Shea was previously
dismissed from this case and his claims have no bearing on injury
suffered by any of the Plaintiff Partnerships or Plaintiff Spaeder.
Yet, the Second Amended Complaint contains at least fourteen
paragraphs exclusively relating to Shea. Moreover, although
Plaintiff Peckville was dismissed from this case, the Second
Amended Complaint contains at least sixteen paragraphs
discussing the alleged unauthorized wire transfers, payment of
unsigned/forged checks, assessment of fraudulent late charges,
and unilateral modification of loan terms relating solely to
Peckville’s account.

101a
“include a warning, a formal reprimand, placing the
case at the bottom of the calendar, a fine, the
imposition of costs or attorney fees, the temporary
suspension of the culpable counsel from practice
before the court, . . . dismissal of the suit unless new
counsel is secured[,] . . . the preclusion of claims or
defenses, or the imposition of fees and costs upon
plaintiff's counsel under 28 U.S.C. § 1927.” Titus, 695
F.2d at 749 n.6.
Two cases from this district with similar
procedural backgrounds have deemed dismissal
warranted under this factor. In Morris v. Kesserling,
No. 09-1739, 2011 WL 1752828 (M.D. Pa. May 9,
2011), aff’d, 514 F. App’x 233 (3d Cir. 2013), the court
dismissed the plaintiffs’ amended complaint because
it contained “sweeping statements and generalized
allegations” that failed to provide the necessary
details. Id. at *1. The court had ordered the plaintiffs
to file a new complaint that “provide[d] factual
information corresponding to the allegations of the
amended complaint.” Id. But, the plaintiffs’ counsel
“refused to heed” the court’s directives and submitted
a second amended complaint “whose factual
allegations [were] essentially identical to those of the
[a]mended [c]omplaint.” Id. Considering the Poulis
factors, the court found that because “Plaintiffs’
scornful refusal to abide by the clear and reasonable
Order of the Court is a direct affront to the judicial
process,” there was “no sanction short of dismissal”
which was appropriate. Id. at *3.
Similarly, in Rhoades v. Young Women’s Christian
Ass’n of Greater Pittsburgh, No. 09-1548, 2011 WL
2637481 (W.D. Pa. July 6, 2011), the court dismissed
plaintiff’s original complaint alleging age, sex,
national origin, and race discrimination, and granted

102a
leave to file an amended complaint only with respect
to her claims of race discrimination and retaliation
under 42 U.S.C. § 1981. Id. at *1. Plaintiff filed an
amended complaint which realleged all fourteen
previously dismissed claims. Id. The court struck the
amended complaint for failure to comply with the
prior order and directed plaintiff to file a conforming
second amended complaint. Plaintiff, proceeding pro
se, failed to file a second amended complaint and
defendants moved to dismiss. Id. The court found,
under the Poulis factors, that dismissal was
warranted. Id.
Here, Plaintiffs offer no persuasive reason to
convince me that any other sanction other than
dismissal will remedy the continuing pleading
problem. Plaintiffs were clearly advised that the
Amended Complaint, in its current form, did not
permit clear adjudication of Defendants’ remaining
12(b)(6) challenges. Plaintiffs’ noncompliance makes
adjudication of the case impossible. Other than
allowing Plaintiffs yet another opportunity to provide
a complaint that conforms to my Order, I cannot
discern, and Plaintiffs have not suggested, any
alternative sanction.
F. Meritoriousness of Claim or Defense
The standard of meritoriousness when reviewing a
dismissal is not stringent:
[W]e do not purport to use summary judgment
standards. A claim, or defense, will be deemed
meritorious when the allegations of the
pleadings, if established at trial, would support
recovery by plaintiff or would constitute a
complete defense.
Poulis, 747 F.2d at 869–870.

103a
This factor weighs in favor of dismissal here. As set
out above, and incorporated here into my Poulis
analysis, Plaintiffs have not properly alleged the
necessary reliance to maintain standing to pursue
their RICO claims. (See pp. 8–13, infra.) Therefore, I
find that this factor weighs in favor of dismissal.
G. Conclusion as to Rule 41(b) Motion
“The final step in the Poulis analysis is to weigh
and consider all the above factors to determine if
dismissal is warranted.” Stafford v. Derose, No. 09346, 2015 WL 1499833, at *5 (M.D. Pa. Apr. 1, 2015).
The second, fourth, fifth, and sixth factors weigh
significantly in favor of dismissal, while the third
factor leans against dismissal, and the first factor
appears to be neutral. As the weight of these factors
strongly supports dismissal of the action, I will
dismiss this case with prejudice under Federal Rule of
Civil Procedure 41(b).
V. CONCLUSION
For the foregoing reasons, I conclude that Plaintiff
has not adequately pled a claim against Defendant
Parke Bancorp, Inc., and has not alleged any form of
reliance sufficient to adequately plead standing for a
RICO claim premised on mail or wire fraud against
the remaining three defendants. Because the only
remaining claims are brought under state law, and
because factors of judicial economy, convenience,
fairness, and comity weigh against my exercise of
supplemental jurisdiction, I dismiss the Second
Amended Complaint without prejudice to Plaintiffs’
re-filing of their common law claims in state court.
Alternatively, I also find that Plaintiffs’ willful refusal
to comply with my prior Order when filing their

104a
Second Amended Complaint warrants dismissal
under Federal Rule of Civil Procedure 41(b).

105a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
[July 26, 2018]
Civil Action No. 15-3435
DEVON DRIVE LIONVILLE, LP, et al.,
Plaintiffs,
v.
PARKE BANCORP, INC., et al.,
Defendants.
ORDER
AND NOW, this 26th day of July, 2018, upon
consideration of Defendants’ Motion to Dismiss the
Second Amended Complaint (Doc. No. 58),
Defendants’ arguments incorporated by reference
from their Motion to Dismiss the Amended Complaint
(Doc. No. 43), Plaintiffs’ Response (Doc. No. 63),
Plaintiffs’ arguments incorporated by reference from
their Response to the Motion to Dismiss the Amended
Complaint (Doc. No. 47), and Defendants’ Reply Brief
(Doc. No. 69), and for the reasons set forth in the
accompanying Memorandum Opinion, it is hereby
ORDERED that the Motion is GRANTED and
Plaintiffs’ Second Amended Complaint is DISMISSED
WITH PREJUDICE.
It is further ORDERED that Defendants’ Motion
to Take Judicial Notice of Adjudicative Facts (Doc. No.
59) is DENIED AS MOOT.

106a
The Clerk of Court shall mark this case CLOSED.

BY THE COURT:
/s/ Mitchell S. Goldberg
________________________________
MITCHELL S. GOLDBERG, J.

107a
APPENDIX B
18 U.S.C. § 1341. Frauds and swindles
Whoever, having devised or intending to devise
any scheme or artifice to defraud, or for obtaining
money or property by means of false or fraudulent
pretenses, representations, or promises, or to sell,
dispose of, loan, exchange, alter, give away,
distribute, supply, or furnish or procure for unlawful
use any counterfeit or spurious coin, obligation,
security, or other article, or anything represented to
be or intimated or held out to be such counterfeit or
spurious article, for the purpose of executing such
scheme or artifice or attempting so to do, places in
any post office or authorized depository for mail
matter, any matter or thing whatever to be sent or
delivered by the Postal Service, or deposits or causes
to be deposited any matter or thing whatever to be
sent or delivered by any private or commercial
interstate carrier, or takes or receives therefrom, any
such matter or thing, or knowingly causes to be
delivered by mail or such carrier according to the
direction thereon, or at the place at which it is
directed to be delivered by the person to whom it is
addressed, any such matter or thing, shall be fined
under this title or imprisoned not more than 20
years, or both. If the violation occurs in relation to,
or involving any benefit authorized, transported,
transmitted, transferred, disbursed, or paid in
connection with, a presidentially declared major
disaster or emergency (as those terms are defined in
section 102 of the Robert T. Stafford Disaster Relief
and Emergency Assistance Act (42 U.S.C. 5122)), or
affects a financial institution, such person shall be
fined not more than $1,000,000 or imprisoned not
more than 30 years, or both.

108a
18 U.S.C. § 1343. Fraud by wire, radio, or
television
Whoever, having devised or intending to devise
any scheme or artifice to defraud, or for obtaining
money or property by means of false or fraudulent
pretenses, representations, or promises, transmits or
causes to be transmitted by means of wire, radio, or
television communication in interstate or foreign
commerce, any writings, signs, signals, pictures, or
sounds for the purpose of executing such scheme or
artifice, shall be fined under this title or imprisoned
not more than 20 years, or both. If the violation
occurs in relation to, or involving any benefit
authorized, transported, transmitted, transferred,
disbursed, or paid in connection with, a
presidentially declared major disaster or emergency
(as those terms are defined in section 102 of the
Robert T. Stafford Disaster Relief and Emergency
Assistance Act (42 U.S.C. 5122)), or affects a
financial institution, such person shall be fined not
more than $1,000,000 or imprisoned not more than
30 years, or both.
18 U.S.C. § 1962. Prohibited activities
(a) It shall be unlawful for any person who has
received any income derived, directly or indirectly,
from a pattern of racketeering activity or through
collection of an unlawful debt in which such person
has participated as a principal within the meaning
of section 2, title 18, United States Code, to use or
invest, directly or indirectly, any part of such income,
or the proceeds of such income, in acquisition of any
interest in, or the establishment or operation of, any
enterprise which is engaged in, or the activities of

109a
which affect, interstate or foreign commerce. A
purchase of securities on the open market for
purposes of investment, and without the intention of
controlling or participating in the control of the
issuer, or of assisting another to do so, shall not be
unlawful under this subsection if the securities of the
issuer held by the purchaser, the members of his
immediate family, and his or their accomplices in
any pattern or racketeering activity or the collection
of an unlawful debt after such purchase do not
amount in the aggregate to one percent of the
outstanding securities of any one class, and do not
confer, either in law or in fact, the power to elect one
or more directors of the issuer.
(b) It shall be unlawful for any person through a
pattern of racketeering activity or through collection
of an unlawful debt to acquire or maintain, directly
or indirectly, any interest in or control of any
enterprise which is engaged in, or the activities of
which affect, interstate or foreign commerce.
(c) It shall be unlawful for any person employed by
or associated with any enterprise engaged in, or the
activities of which affect, interstate or foreign
commerce, to conduct or participate, directly or
indirectly, in the conduct of such enterprise's affairs
through a pattern of racketeering activity or
collection of unlawful debt.
(d) It shall be unlawful for any person to conspire
to violate any of the provisions of subsection (a), (b),
or (c) of this section.

110a
18 U.S.C. § 1964. Civil remedies
(a) The district courts of the United States shall
have jurisdiction to prevent and restrain violations
of section 1962 of this chapter by issuing appropriate
orders, including, but not limited to: ordering any
person to divest himself of any interest, direct or
indirect, in any enterprise; imposing reasonable
restrictions on the future activities or investments of
any person, including, but not limited to, prohibiting
any person from engaging in the same type of
endeavor as the enterprise engaged in, the activities
of which affect interstate or foreign commerce; or
ordering dissolution or reorganization of any
enterprise, making due provision for the rights of
innocent persons.
(b) The Attorney General may institute
proceedings under this section. Pending final
determination thereof, the court may at any time
enter such restraining orders or prohibitions, or take
such other actions, including the acceptance of
satisfactory performance bonds, as it shall deem
proper.
(c) Any person injured in his business or property
by reason of a violation of section 1962 of this chapter
may sue therefor in any appropriate United States
district court and shall recover threefold the
damages he sustains and the cost of the suit,
including a reasonable attorney's fee, except that no
person may rely upon any conduct that would have
been actionable as fraud in the purchase or sale of
securities to establish a violation of section 1962. The
exception contained in the preceding sentence does
not apply to an action against any person that is
criminally convicted in connection with the fraud, in

111a
which case the statute of limitations shall start to
run on the date on which the conviction becomes
final.
(d) A final judgment or decree rendered in favor of
the United States in any criminal proceeding
brought by the United States under this chapter
shall estop the defendant from denying the essential
allegations of the criminal offense in any subsequent
civil proceeding brought by the United States.

